<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2008</title>
<body><pre>[Senate Hearing 110-]
[From the U.S. Government Publishing Office]


 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2008 

                              ----------                              


                        THURSDAY, APRIL 19, 2007

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Barbara A. Mikulski (chairman) 
presiding.
    Present: Senators Mikulski, Lautenberg, Shelby, Stevens, 
and Domenici.

                         DEPARTMENT OF JUSTICE

          Bureau of Alcohol, Tobacco, Firearms and Explosives

STATEMENT OF MICHAEL J. SULLIVAN, ACTING DIRECTOR

                STATEMENT OF SENATOR BARBARA A. MIKULSKI

    Senator Mikulski. Good morning. The Subcommittee on 
Commerce, Justice, Science, and Related Agencies will come to 
order. Today we will be taking the testimony of the Bureau of 
Alcohol, Tobacco, Firearms, and Explosives (ATF), the Drug 
Enforcement Administration (DEA) and the United States Marshals 
Service.
    We want to extend a warm welcome to our witnesses today and 
let our witnesses know how important we think their job and 
their mission is to this country.
    When we planned this hearing a few months ago, it was to 
examine the budget of these very dedicated law enforcement 
agencies and to discuss how the Commerce, Justice, Science 
Subcommittee could work with them to make sure they had the 
tools they needed to protect our national security and keep our 
communities safe.
    Yet, this week, a very grim and very melancholy event 
occurred on the campus of one of our universities. On Monday we 
watched in shock and horror as Virginia Tech came under fire 
with over 32 dead and many more injured. The terrible tragedy 
highlights how important it is for our Federal law enforcement 
agencies to be able to work together with our local law 
enforcement at a time of great tragedy.
    What we know is that ATF was immediately on the scene 
sending 12 ATF experts to Virginia to secure the crime scene, 
and make sure that the integrity of the evidence at the crime 
scene was not compromised. In fact, Maryland is home to a very 
unique ATF forensic lab. I know the subcommittee will be 
interested to hear about this facility because it is where ATF 
identified the ballistics evidence to determine if there was a 
single killer or multiple killers. But at the same time we know 
that DEA and the Marshals Service also answered the call.
    In the briefing that you've provided me before this hearing 
it was clear there was an outstanding effort by Federal 
agencies in supporting and augmenting the local community so 
they knew they were not alone. While they were making the best 
of a terrible situation, you were doing your best, which was 
making sure needs were met. We will be asking you today 
questions along these lines.
    We also want to then focus on each of your very unique 
missions. We know that the DEA is an integral part of fighting 
the global war against terrorism. Terrorism, whether it's been 
growing poppies in Afghanistan to fund the Taliban or to what 
is happening in our own community with the cyber distribution 
of highly addictive substances or to working with State and 
local law enforcement to shut down and clean up toxic meth 
labs. We want to know more about what you're doing and what we 
can do to help you do it.
    Also for our Marshals Service, the Marshals Service plays a 
unique role. Right this minute on the Senate floor we're 
debating court security. We ask the Marshals Service to provide 
court protection to both witnesses and to our judges. We also 
ask them to guard fugitives. We also ask them to provide unique 
and special protection in high profile trials where there is a 
drug kingpin or a terrorist. At the same time we want them to 
enforce the Adam Walsh Act and make sure they apprehend the 
sexual predators who refuse to register while making sure you 
catch them before they commit another repugnant act.
    So we want to listen to all of you today. Our ATF, whose 
unique job is to enforce laws related to alcohol, tobacco, and 
firearms. This is not the old days of breaking up stills. There 
is nothing still about ATF in terms of its modern mission. 
They're on the scene investigating arsons, illegal trafficking 
of guns both internationally and nationally while providing 
unique forensic capability that often local communities cannot 
afford particularly those in rural America.
    Threats have changed since your agencies were created. 
Technology is in demand and at the same time the very people 
that work in these agencies need to have even better and unique 
training. So the job today is to listen to what you are doing 
and to tell us what resources you need to be able to do it 
better, to make sure that we're protecting our national 
security and our community security.
    With that I would like to then yield to my ranking member, 
Senator Shelby.

                 STATEMENT OF SENATOR RICHARD C. SHELBY

    Senator Shelby. Thank you, Chairman Mikulski. I want to 
thank all of the participants for joining us to discuss the 
2008 budget for the Bureau of Alcohol, Tobacco, Firearms and 
Explosives, the Drug Enforcement Administration, and U.S. 
Marshals Service.
    The total Department of Justice request for 2008 is a 
little over $20 billion. This is a $771 million decrease below 
the 2007 joint resolution funding level. The Department faces a 
$500 million shortfall in the 2008 budget. Just as I said last 
year, the budget constraints placed upon us by the war on 
terror and the recent hurricane seasons will once again force 
us to make tough decisions.
    I would be remiss though if I didn't, as Senator Mikulski 
has already done, mention the tragedy that took place on the 
Virginia Tech campus Monday morning. My heartfelt thoughts go 
out to everyone that was affected by this horrible event.
    The ATF has been one of the lead investigative agencies in 
this horrible disaster and it has done an outstanding job. ATF 
agents quickly identified ballistic evidence linking a weapon 
used in the first shooting to the second shooting. Acting 
Director Sullivan, I commend your personnel in the labs and on 
the ground for their quick and professional response. This 
somber day will be one mourned and remembered by all of us for 
years and years to come.
    I also once again want to commend the ATF for its 
contributions to the quick capture and conviction of the 
Alabama church fire arsonist that was sentenced to prison last 
week, remember that horrible situation there, where they were 
burning churches.
    The ATF's 2008 request is a little over $1 billion. The 
request is $29.8 million over the 2007 joint resolution total 
and you'll need it. The ATF as we all know is the premier 
agency for gun crimes, gang activity, arson, and explosive 
related crimes. I'm committed, as the chairman is, to ensure 
that you have the tools and training facilities to fulfill your 
explosives mission.
    The National Center for Explosives Research will be a 
world-class addition to the Redstone Arsenal in Huntsville, 
Alabama, which is already home of the Federal Bureau of 
Investigation's (FBI) hazardous devices school.
    I'm working collaboratively here to expand the Federal 
Government's explosive infrastructure and expertise there. This 
will assist in our number one priority of terrorism prevention 
and ensuring a safe homeland.
    Redstone Arsenal should and will be the law enforcement 
capital of explosives research and training. We have the 
personnel. You have them there.
    Director Sullivan, I would like to offer you 
congratulations again on your nomination to be the permanent 
Director of ATF. We believe you will sail through. We all want 
to help you. You bring a lot of experience as a former U.S. 
attorney in Massachusetts and I believe that you will serve the 
ATF and the Nation well in this regard.
    Administrator Tandy, thank you for coming today. The Drug 
Enforcement Administration's budget request for 2008 is $1.8 
billion, a little over a $57 million increase over the 2007 
joint resolution total.
    The role of the DEA has shifted from being solely focused 
on narcotics to include an intelligence mission and a position 
on the front line on the war on terror. As former chairman on 
the Select Committee on Intelligence, I know all too well the 
link between global drug trafficking and terrorism.
    I understand the detrimental impact that a hiring freeze 
has on your ability to carry out your mission. Senator Mikulski 
and I will be working with you on the 2008 process to see that 
you, the DEA, have the manpower that you need to carry out your 
mission. I think it's critical.
    By the same token, while we're addressing the budget 
shortfalls and hiring freeze, I received this disturbing letter 
from the Department of Justice on March 6, stating that the 
cost of the clandestine laboratory training facility has 
doubled from $8 million to $16 million.
    This letter combined with the disastrous cost escalations, 
poor estimations, and project management of the DEA's 
information technology center that jumped from $7.1 million to 
$38 million show a disturbing and, I think, unacceptable trend 
that we'll have to put our hands on in this subcommittee.
    I will reserve any further judgment because we don't know 
all the facts until we hear from the recommendations of the 
inspector general and the Government Accountability Office 
(GAO).
    Meth, as the chairman has mentioned, use continues to 
poison our Nation, knowing no boundaries of age, gender, class 
or race. The majority of this drug is shipped into our country 
from Mexico and I want to commend the DEA and the Department of 
Justice in their recent success of Operation Imperial Emperor, 
where more than 400 individuals were arrested and $45 million 
in U.S. currency and 18 tons of illegal drugs were seized from 
a Mexican drug cartel. That's progress.
    Violent Mexican drug cartels have turned our Southwest 
border into a battle zone where our DEA agents put their lives 
on the line everyday. These cartels have their own advanced 
telecommunications towers and encrypted radios making their 
communications system virtually impenetrable with our current 
surveillance quota.
    I hope, Senator Mikulski, that we will be able to help fund 
with the modern technology that the DEA needs here to have the 
right technology in the hands of our agents so that they can 
fight this battle.
    Director Clark, the U.S. Marshals Service budget request is 
$899.8 million. This is an $80 million increase over the 2007 
joint resolution total. The core responsibilities of the 
Marshals Service include providing judicial and courthouse 
security, safeguarding witnesses, transporting prisoners for 
court proceedings, seizing forfeited property and apprehending 
fugitives. That's a lot.
    The National Center for Missing and Exploited Children 
estimates that over 600,000 sex offenders in the United States, 
more than 100,000 of them have failed to register. With the 
enactment of the Adam Walsh Act, marshals are tasked with 
removing those unregistered offenders from our streets which is 
a daunting task.
    Last year the U.S. Customs and Border Protection Agency 
received funding to hire an additional 2,000 border patrol 
agents. Marshals bare the primary burden of transporting 
illegal alien prisoners taken into custody by these border 
patrol agents meaning there will be fewer marshals removing 
unregistered sexual offenders from our neighborhoods and 
streets. This is a problem, I think, Madam Chairman, we've got 
to address.
    The Presidential Threat Protection Act of 2000 authorized 
the permanent creation of fugitive apprehension task forces 
which are comprised of Federal, State, and local law 
enforcement authorities in designated regions. Through this 
act, the gulf coast regional fugitive task force, headquartered 
in Birmingham, Alabama, was created last May.
    At approximately 8 a.m., a young female lawyer was 
kidnapped at gunpoint in the parking lot just a few blocks from 
my office in downtown Birmingham. Some of you might remember 
seeing video of this as it was captured on a security camera 
and shown on network news channels all over the Nation.
    Through the efforts of the gulf coast regional fugitive 
task force, the kidnapper was captured and the woman returned 
to her family without serious bodily harm. That is good, good 
work. This is just one example of what you're doing and how 
you're doing it.
    Last, the reprehensible working conditions and inadequate 
security resources that our marshals endure in the District of 
Columbia Superior Court building have recently been brought to 
my attention. Stale ventilation, flooding hallways, poor 
plumbing, malfunctioning lights that are needed to illuminate 
prisoner traffic areas monitored by security cameras and 
archaic prisoner tracking system and antiquated prisoner 
scanning devices are conditions that are not acceptable, that 
you need better funds for better equipment.
    Director Clark, I understand you visited this facility last 
week and I look forward to hearing from your visit and what we 
can do, this subcommittee, to resolve this very, very serious 
matter and I want to thank you for the job you do and I want to 
thank the men and women who work at the Department of Justice 
for what they do everyday. Thank you.
    Senator Mikulski. Thank you very much, Senator Shelby. The 
way the subcommittee is going to proceed is we're now going to 
turn to our witnesses and then for those who colleagues who 
also had opening statements, you can incorporate that in your 
question and we'll add some additional moment or two so there 
would be no penalty.
    Our colleague Senator Domenici, I know, has to go to 
another hearing and we're going to work to accommodate him 
after the testimony of our three people.
    Does that meet your needs, Senator Domenici?
    Senator Domenici. I have an entire delegation in my office 
now in 5 minutes so I will hope that I'll be finished in time 
to come back. I'll try my best.
    Senator Mikulski. Well, Senator, we'll certainly reserve 
the time for you and I can assure you along with Senator Shelby 
if you have questions for the record or if your staff would 
even want us to be sure we cover any ground this morning.
    Senator Domenici. We have had a very important set of 
activities regarding meth in New Mexico and I wanted to follow 
up on them and I hope I get back in time to do that.
    Senator Mikulski. And any way we can support you in doing 
that, fine.
    Why don't we then turn to, excuse me, turn to our panel to 
present their testimony. What I'd like to suggest is Mr. 
Sullivan, we start with the Bureau of Alcohol, Tobacco, 
Firearms and Explosives then go to Ms. Tandy and our very able 
Marshals Service will be the wrap up.

                SUMMARY STATEMENT OF MICHAEL J. SULLIVAN

    Mr. Sullivan. Good morning Chairman Mikulski, Ranking 
Member Shelby, and distinguished members of the subcommittee. I 
have submitted a detailed statement that I'm asking to be made 
part of the record so I only have a few brief remarks.
    This is my second time testifying before a congressional 
Appropriations Committee and my first time before the Senate 
and I'm very pleased to be here to speak on the President's 
fiscal year 2008 budget request for ATF.
    I want to thank you Chairwoman Mikulski and Ranking Member 
Shelby for your recognition of ATF. It has been my personal and 
professional honor to lead this agency for the past 7 months.
    I'm also pleased to be sitting here with Administrator 
Tandy and Director Clark, two individuals I have tremendous 
respect for.
    ATF has a long and successful history of working closely 
with DEA and the U.S. Marshals Service as well as our other 
Federal law enforcement partners including the FBI and the 
Bureau of Prisons. Such partnerships are vital to accomplishing 
our mission and serving the interests of our fellow citizens.
    As the United States attorney in Massachusetts and a former 
local prosecutor, I came through the door at ATF with a 
tremendous respect for the work that our people do, day in and 
day out, to fight violent crime, combat gang violence, and 
improve the quality of life in the neighborhoods throughout our 
country.
    I must admit however, that I was unaware of the full depth 
and breadth of the agency's mission, responsibilities and 
contributions to the safety and security of our country. I very 
much appreciate the subcommittee's support of our agency, in 
particular the interest you have taken in our mission and our 
programs.
    Thanks to the leadership of this subcommittee and the 
dedication and diligence of the men and women of ATF, our 
efforts are producing real results that make our neighborhoods, 
our country, and our world safer for everyone.
    Finally before we proceed, like many others, I would like 
to take a moment to offer my condolences to the victims, their 
families, and the university community at Virginia Tech. This 
truly was a national tragedy.
    I have three college-aged children. As a parent and as a 
citizen of the greatest country in the world, it horrifies me 
that one of our Nation's top universities could serve as the 
setting for such a horrendous and unthinkable crime of 
violence. As you know and as you have pointed out, Chairwoman 
Mikulski, State and local law enforcement authorities in 
Virginia worked around the clock to investigate the matter and 
find answers for the victims and their families.
    ATF, along with our Federal partners, FBI, DEA, and the 
U.S. Marshals Service, has been lending support to those State 
and local agencies as requested and will continue to provide 
any and all assistance that is asked of us.

                           PREPARED STATEMENT

    Chairwoman Mikulski, I look forward to working with this 
subcommittee and with you and will be pleased to answer any 
questions you might have in the course of this hearing. Thank 
you.
    Senator Mikulski. Thank you Mr. Sullivan.
    [The statement follows:]
               Prepared Statement of Michael J. Sullivan
    Madam Chairman, Senator Shelby, and distinguished Members of the 
Subcommittee, I am pleased to appear before you for the first time to 
discuss the President's fiscal year 2008 budget request for the Bureau 
of Alcohol, Tobacco, Firearms and Explosives (ATF). I very much 
appreciate the Subcommittee's support of ATF and the interest you have 
taken in our mission and programs. Thanks to the leadership of this 
Subcommittee, and the dedication and diligence of the men and women of 
ATF, our efforts are producing real results that make our neighborhoods 
and country safer.
                             atf's mission
    As you know, ATF is a principal law enforcement agency within the 
Department of Justice dedicated to reducing violent crime, preventing 
terrorism and protecting our Nation. The men and women of ATF perform 
the dual responsibilities of enforcing Federal criminal laws and 
regulating the firearms and explosives industries. The combined efforts 
of special agents and industry operations investigators allow ATF to 
effectively identify, investigate, and recommend for prosecution 
violators of Federal firearms and explosives laws; additionally, their 
teamwork enables ATF to ensure that licensees are operating within 
established laws and regulations. We are committed to pursuing our 
mission by working both independently and through partnerships with 
industry and other Federal, State, local and international law 
enforcement agencies.
                            accomplishments
    Over the past fiscal year, ATF has initiated criminal 
investigations in the following areas: 29,166 firearms cases; 4,060 
arson and explosives cases; 2,023 gang-related cases; 135 alcohol and 
tobacco diversion cases; and 47 explosives thefts, which included 3,977 
pounds of explosives, 3,627 detonators and 25,107 feet of detonator 
cord.
    In addition, in fiscal year 2006, ATF conducted 12,148 inspections 
of Federal Firearms Licensees (FFL) and 6,392 inspections of Federal 
Explosives Licensees (FEL). We also processed: 401,792 National 
Firearms Act (NFA) weapons registrations; 284,443 firearms trace 
requests; 37,390 FFL applications and renewals; 5,524 FEL applications 
and renewals; and 11,001 import permit applications.
    ATF also provided important training not only for our own 
personnel, but for our local, State, Federal and international law 
enforcement partners. For instance, in fiscal year 2006, we provided 
training for 816 members of the international law enforcement 
community. We provided Project Safe Neighborhoods (PSN) training for 
5,816 Assistant U.S. Attorneys, State and local prosecutors, State and 
local police officers and sheriffs, and ATF Special Agents. We also 
trained:
  --Over 1,100 personnel, including 500 State and local investigators 
        and bomb squad personnel, in explosives-related courses, 
        including post-blast investigations;
  --Over 700 explosives detection canine teams on peroxide-based 
        explosives;
  --450 U.S. Marshal Court Security Officers on improvised explosive 
        device (IED) familiarization and security; and
  --402 personnel in arson-related courses.
                    fiscal year 2008 budget request
    For fiscal year 2008, ATF requests $1,013,980,000 and 5,032 
positions, of which, 2,468 are agents. This request includes 
$995,023,000 and 4,984 positions for current services and $18,957,000 
and 48 positions for program improvements.
    The program improvements include $8.9 million in increased funding 
for the successful PSN initiative, ATF's firearms trafficking 
enforcement teams, and participation in the National Gang Targeting, 
Enforcement, and Coordination Center (GangTECC). These programmatic 
increases would be an important investment in the pursuit of violent 
offenders and the reclamation of communities from the scourge of gangs, 
gun crime, and local, national and international gun trafficking 
organizations.
    An additional $10 million is being requested for continuation of 
our current explosives programs which will further fulfill our 
responsibilities under the Safe Explosives Act. These funds will ensure 
that explosives industry members continue to receive their licenses in 
a timely manner and will allow ATF to provide appropriate oversight 
concerning the safe and secure storage of explosives.
            project safe neighborhoods and anti-gang efforts
    The fiscal year 2008 budget request for ATF includes six additional 
FTE (12 positions) and $2.2 million to enhance the Bureau's gang and 
firearms enforcement efforts supporting PSN nationwide. ATF will apply 
these resources to locations that have experienced an increase in 
firearms violence and will focus them on multi-defendant conspiracies 
and criminal organizations in an effort to take violent criminals off 
the street.
    ATF has been the lead Federal law enforcement agency for PSN since 
its inception in May 2001, focusing on a wide range of firearms cases--
those involving Racketeer Influenced Corrupt Organization (RICO) 
violations, firearms trafficking and the criminal possession of 
firearms by convicted felons and other prohibited persons. As the only 
Federal agency that focuses primarily on violent crime and the 
regulation of commerce in firearms and explosives, ATF exercises unique 
statutory authority over the ``tools of the trade'' that make gangs a 
threat to public safety.
    Nearly 2,000 of ATF's special agents are exclusively dedicated to 
investigating violent crime and gangs. These agents work closely with 
State and local law enforcement to investigate the most egregious 
violent criminals and violent criminal organizations. This strategy is 
employed effectively through ATF-led Violent Crime Impact Teams (VCIT), 
which are currently deployed in 25 cities across the nation. During 
fiscal year 2007, this number will expand by 5 additional cities 
bringing the total number to 30. In addition, ATF participates with 
State and local police and other Federal agencies on 110 anti-gang task 
forces.
    This past year ATF aggressively investigated and made significant 
strides in combating violent gangs. In fiscal year 2006: 2,023 gang-
related cases were initiated by ATF--an increase of 157 percent from 
2002, the first full year of PSN; 1,680 defendants referred by ATF in 
gang-related cases were convicted--an increase of 289 percent from 
2002; and 779 defendants in gang-related cases were sentenced, with an 
average sentence of 107 months.
    An outstanding example of our anti-gang efforts is Operation Mano 
Dura, an investigation of the MS-13 gang conducted by our Baltimore 
Field Division. Those indictments included charges of various RICO 
predicate acts, including seven homicides and numerous other shootings, 
beatings and other violent crimes in aid of racketeering. To date, 15 
of the defendants have been convicted and 12 are awaiting trial. Nine 
of these defendants are eligible for the death penalty.
    Another noteworthy example is the arrest and indictment of 13 
members of the MS-13 street gang in January following a year-long joint 
investigation by ATF and the Nashville Metropolitan Police Department. 
During the investigation, information was developed linking Nashville-
based MS-13 members and associates with seven shootings, three alleged 
murders, several planned murders, threats, intimidation and many other 
significant violent crimes, all of which occurred in 2006. The 
defendants were indicted on RICO charges. Several of these defendants 
also are eligible for death sentences.
    The President has identified violent street gangs as a national 
problem and has instructed the Department to institute strategies to 
address this problem. ATF has been successful in targeting high crime 
areas and dedicating investigative, inspection, analytical and 
technological resources to reduce violent crime. Through these 
strategies, ATF and the Department are acting decisively to demonstrate 
to the American public that Federal law enforcement agencies are 
working strategically to investigate, reduce and prevent violent crime. 
The additional PSN funds we are requesting will build upon proven, 
successful tactics: integrating regulatory enforcement, aggressive 
investigation techniques and the utilization of technology to impact 
violent crime.
    ATF also is requesting two positions, two agents, and $373,000 to 
dedicate to GangTECC. Established by the Attorney General, this new 
national anti-gang force serves as a coordinating center for multi-
jurisdictional gang investigations involving Federal law enforcement 
agencies. It also provides a clearinghouse for gang-related 
intelligence data, assists in developing a refined understanding of the 
national gang problem, proposes appropriate countermeasure strategies, 
and supports the National Gang Intelligence Center. Currently, three 
ATF special agents are supporting GangTECC. These agents are 
facilitating the coordination of overlapping racketeering 
investigations and ensuring that tactical and strategic intelligence is 
shared between law enforcement agencies. Moreover, an ATF agent is 
currently serving as the initial Deputy Director of GangTECC. GangTECC 
provided important assistance in the aforementioned arrests and 
indictments of the Nashville-based MS-13 gang members. Specifically, it 
facilitated communications among the various law enforcement agencies 
involved in the case, arranged for other Federal agents to support the 
investigation as needed, and arranged an urgent translation and 
transcription of communications that were garnered through undercover 
operations.
                          firearms trafficking
    Street gangs are often involved in firearms trafficking in order to 
supply guns to gang members and criminals in furtherance of drug 
trafficking and in the commission of other violent firearms-related 
crimes. To successfully fight violent crime, it is essential to prevent 
the illegal flow of firearms to criminals. ATF's firearms trafficking 
interdiction efforts advance this goal by identifying and arresting 
those persons who illegally supply firearms to gang members and 
prohibited persons such as felons and juveniles.
    ATF is requesting 34 positions, of which all are agents, and $6.3 
million to expand its domestic firearms trafficking enforcement efforts 
along the Southwest Border and nationwide to target efforts on certain 
gun trafficking corridors. With this funding, ATF will establish 
investigative teams that will be devoted to firearms trafficking 
interdiction efforts in areas of the country with the highest levels of 
out-of-State guns recovered in crimes.
    ATF will use its analytical resources to strategically deploy these 
teams. To date, ATF has determined that the following routes are 
significant regional, national and international trafficking corridors: 
The Southwest Border; the I-95 corridor between Miami and Boston; 
Northern rural Mississippi to Chicago; Northern Indiana to Chicago; the 
triangle between Los Angeles, Las Vegas and Phoenix; and Birmingham to 
Chicago.
    Several of these trafficking routes impact not only local and 
regional crime patterns, but also have international significance, 
affecting our neighbors in Canada and Mexico, as well as other Central 
and South American nations.
    In fiscal year 2006, 1,526 ATF-referred defendants in firearms 
trafficking cases were convicted. This represents an increase of 166 
percent from 2002, the first full year of PSN.
    A noteworthy example of a firearms trafficking case is Operation 
Flea Collar, a complex, 2-year undercover investigation during which 
ATF learned that two suspected traffickers were purchasing firearms at 
an FFL in Alabama and then selling them at flea markets and gun shows 
in northern Alabama. Further investigation identified unlicensed 
firearms dealers at those flea markets. It also revealed a recurring 
scheme whereby gang members or their designees were routinely 
dispatched to the Alabama flea markets and gun shows to purchase 
firearms in bulk for use by various street gangs. Ultimately, ATF 
agents estimated that the various suspects had sold thousands of 
firearms over the last several decades. At least 12 of the trafficked 
firearms have been associated with homicide investigations, including 
one linked to the attempted murder of a Chicago police officer. Many of 
the trafficked firearms also have been linked to robberies, assaults, 
drug crimes and sex crimes throughout the United States. The firearms 
have been recovered in numerous States, including Alabama, California, 
Georgia, Illinois, Maryland, Michigan, New York, South Carolina, 
Tennessee, Texas and Washington, DC. Operation Flea Collar concluded 
with the seizure of 556 firearms and the arrest of 18 individuals on 
charges stemming from the illegal sale of firearms without a license 
and the illegal sale of firearms to convicted felons and out-of-state 
residents. All 18 suspects have been convicted and sentenced, and the 
investigation is ongoing.
    Another example of a significant trafficking case involved guns and 
drugs moving between West Virginia and New York City. In 2004, our 
Wheeling Field Office opened a firearms trafficking investigation of 
two corrupt pawn dealers located in Fairmont, West Virginia. During the 
course of these investigations, special agents uncovered an interstate 
conspiracy to traffic crack cocaine in Fairmont and illegally traffic 
firearms to New York City. This investigation resulted in the Federal 
conviction of three individuals for conspiracy and three other persons 
for Federal firearms and narcotics charges.
    One final noteworthy example of a firearms trafficking case 
involved members of the ``Bloods'' street gang in New Jersey arranging 
for students at Wilberforce University in Ohio to conduct straw 
purchases of firearms in Ohio and transport them to New Jersey. The 
gang members who received the firearms used them for an assortment of 
violent crimes in New Jersey, including a drive-by shooting, armed 
robbery, crack cocaine distribution and an attempted home invasion. 
This 2-year investigation resulted in the conviction of 12 defendants 
for Federal firearms violations for trafficking 146 firearms.
    ATF is attempting to balance the resources it devotes to fighting 
violent crime and addressing the supply of firearms to criminals. 
Successfully tackling the problem of firearms trafficking requires a 
comprehensive effort and a multifaceted approach utilizing court-
authorized electronic surveillance, undercover operations, source 
development and cooperation with other law enforcement entities in 
order to be truly effective in shutting down illegal firearms markets.
                     other programs and activities
    In addition to PSN and firearms trafficking enforcement, ATF has 
other significant operations that are essential to carrying out our 
mission. Our law enforcement and regulatory responsibilities require 
ATF to maintain a host of efficient and effective activities, programs 
and facilities. I would like to take this opportunity to highlight a 
few important initiatives.
Firearms Enforcement and Investigation
    In response to firearms trafficking and related violence on both 
sides of the border with Mexico, ATF has developed a Southwest Border 
Initiative. This initiative coordinates the resources of ATF's Dallas, 
Houston, Los Angeles and Phoenix Field Divisions, as well as Violent 
Crime Impact Teams (VCIT) in Laredo, Houston, Albuquerque and Tucson. 
The initiative focuses regional and cross-border violence and firearms 
trafficking by employing geographic targeting, partnerships, technology 
and training. In addition to working with local law enforcement, ATF 
also is collaborating closely with Immigration and Customs Enforcement 
(ICE) and Mexican officials. In fact, ATF meets regularly with its U.S. 
and Mexican law enforcement partners to discuss strategies, share 
intelligence, and initiate cooperative efforts to combat crime along 
the southwest border. One important effort we are undertaking through 
partnership with the Mexican government is ensuring that U.S.-sourced 
firearms recovered in Mexico are properly identified, documented and 
submitted to ATF for tracing. ATF uses the trace results to identify 
and investigate firearms traffickers who illegally divert firearms to 
drug traffickers. To this end, we will deploy across Mexico our eTrace 
system, an Internet-based system for submitting firearms trace 
requests.
    In order to reduce violent crime, ATF has and will continue to 
develop technology to assist law enforcement at all levels. Through our 
National Integrated Ballistic Information Network (NIBIN), ATF deploys 
automated ballistics comparison equipment to participating Federal, 
State, and local law enforcement forensics laboratories--230 sites in 
total--which provides the ability to identify ballistic links between 
crimes that might not otherwise be connected. As of December 2006, 
NIBIN had nearly 1.25 million images of casings and bullets in its 
database with nearly 19,000 ``hits.'' NIBIN has many success stories, 
including a recent one from Buffalo, New York. In this case, the 
ballistics evidence gathered at eleven separate shooting scenes between 
June 2003 and October 2006 was linked to a single .45 caliber handgun 
using the NIBIN ballistic imaging system at the Erie County Forensic 
Laboratory. On November 13, 2006, the Buffalo Police Department 
executed a narcotics search warrant and recovered narcotics, firearms 
and ammunition. A recovered firearm was processed by the Erie County 
Laboratory and identified as the handgun used in the eleven shootings.
Explosives and Arson
    ATF's arson and explosives National Response Teams (NRT) provide 
expert assistance at the scenes of significant fire or explosives 
incidents. The NRT is comprised of veteran special agents with 
expertise in conducting post-blast investigations and determining the 
origin and cause of fires. In addition, the NRT is supported by all of 
ATF's arson and explosives assets, such as the Fire Research Laboratory 
(FRL), accelerant detection canines and audit services. In 2006, the 
NRT was deployed 17 times. For example, in February 2006, it was 
deployed to assist in the investigation of nine fires that occurred in 
churches in western Alabama. After a month of intense investigation, 
three suspects were arrested for the church fires.
    ATF's technical expertise is also evidenced by our three state-of-
the-art forensic laboratories and one-of-a-kind FRL. In fiscal year 
2006, our National Laboratory Center in Ammendale, Maryland, added DNA 
analysis capability to its already impressive collection of forensic 
tools. The FRL, also located at our National Laboratory Center, has the 
capability of simulating fire scenarios approaching a quarter-acre in 
size, under controlled conditions, allowing for detailed analysis. It 
is the only such facility in the United States dedicated to providing 
case support in fire investigations using forensic fire science.
    The U.S. Bomb Data Center (USBDC) is the Department's comprehensive 
repository of data pertaining to arson and explosives incidents. The 
information within the USBDC is accessible to our law enforcement 
partners and can be analyzed to determine trends, patterns, criminal 
methodologies, and, in some cases, suspects. The USBDC contains more 
than 140,000 records. Law enforcement officials can query the 
characteristics of an explosive device and match it to others with 
similar characteristics. USBDC houses several databases, including the 
Bomb and Arson Tracking System (BATS), which facilitates and promotes 
the collection and dissemination of data among local law enforcement on 
arson and explosives incidents, and DFuze, which allows international 
law enforcement agencies to compare and exchange information on 
incidents within their jurisdictions. The USBDC has adopted a new 
``Concept of Operations'' to guide it into the future. Under this plan, 
USBDC will become a Center of Excellence, hosting not only law 
enforcement officials, but also members of the intelligence community 
as well as representatives from academia and industry. USBDC will 
continue to consolidate all explosives incidents information and 
databases in an effort to be the ``one-stop shop'' for explosives 
incident information.
    Our regulatory responsibilities include enforcement of the Safe 
Explosives Act of 2002, which mandates a field inspection on all 
original and renewal applications for explosives licensees or 
permitees. Because most licenses and permits expire every 3 years, ATF 
is mandated to perform one inspection per licensee/permit user every 3 
years. Over 5 billion pounds of explosives are manufactured, imported 
and sold annually in the United States. ATF uses existing resources to 
ensure that all violations noted in such inspections are appropriately 
resolved. ATF also will continue to investigate all reported explosives 
thefts, respond to and investigate bombings and other explosives 
incidents, and assist local, State and other Federal agencies with 
explosives related issues.
Sharing Our Expertise through Partnerships and Training
    We are committed to pursuing our mission by working both 
independently and through partnerships with industry and other Federal, 
State, local and international law enforcement agencies. For instance, 
our ``Don't Lie for the Other Guy'' program is a partnership with the 
National Shooting Sports Foundation which helps educate FFLs on how to 
identify and prevent straw purchases of firearms. We also have 
partnered with The Fertilizer Institute to launch voluntary campaigns 
to raise awareness of the sale, security, storage, and transportation 
of ammonium nitrate, the substance that was mixed with fuel oil in the 
Oklahoma City bombing. In addition, ATF has maintained outstanding 
relationships with a number of influential professional organizations 
including the International Association of Chiefs of Police, the 
International Association of Bomb Technicians and Investigators, the 
National Sheriffs' Association, Major Cities Chiefs Association, and 
the National Bomb Squad Commanders. ATF also has collaborative research 
partnerships with the U.S. Army Engineer Research and Development 
Center; Oak Ridge and Lawrence Livermore National Laboratories; the 
University of Missouri, Rolla; and the University of Massachusetts, 
Lowell. Moreover, ATF closely and regularly collaborates with the 
Departments of State, Defense and Homeland Security; and other 
components of the Department of Justice. We also work with INTERPOL and 
EUROPOL; and representatives of foreign governments, including the 
United Kingdom, Mexico, Colombia, Israel and Canada.
    At ATF's Canine Training Center in Front Royal, Virginia, ATF 
trains explosives detection and accelerant detection canines for use by 
Federal, State, international and local law enforcement and public 
safety officials. ATF is committed to ensuring that DOJ's canines 
conform to applicable ATF standards. In order to keep canine 
capabilities able to meet current threats, ATF has initiated a program 
to offer advanced training in the detection of organic peroxide-based 
explosives to law enforcement canine teams. At the request of the 
National Bomb Squad Commanders Advisory Board, ATF developed National 
Odor Recognition Testing to verify that explosives detection canines 
meet a national standard. During fiscal year 2006, the project 
certified approximately 150 non-DOJ canine teams, and has already 
certified 124 canine teams in fiscal year 2007. In addition, ATF has 
trained more than 350 explosives detection canines in 16 countries.
    With respect to training, the National Center for Explosives 
Training and Research (NCETR) offers numerous advanced courses related 
to explosives disposal and post-blast investigation techniques. NCETR 
provides training for State, local and international law enforcement, 
the U.S. Department of State and all branches of the Armed Forces. It 
also provides training for Army explosives units prior to their 
deployment in Iraq. NCETR has trained almost 6,000 bomb technicians and 
investigators in explosives disposal and investigative techniques. Each 
year, requests for explosives-related training have increased, and 
present demand exceeds our capability. The fiscal year 2006 Conference 
Agreement (Public Law 109-108) directed ATF to plan for the 
construction of a permanent facility co-located with other law 
enforcement and Federal government entities that provide similar 
training and research. Subsequently, we have selected a site at 
Redstone Arsenal in Alabama. To date, ATF has received a letter of 
intent memo from Redstone Arsenal for a commitment of resources, such 
as ranges, classrooms, explosives storage bunkers, land to build an 
administration/classrooms building and housing billets. ATF also has an 
interagency agreement with the Army Corps of Engineers (COE) for design 
and planning of the NCETR. This planned permanent facility for NCETR 
will promote efficiency by consolidating other Department of Justice 
and Department of Defense explosives training and research in one 
location. These collective resources will provide a unique opportunity 
to leverage assets, knowledge and expertise in the field, providing 
Federal, State, local and international law enforcement explosives 
expertise in one location.
Alcohol and Tobacco Diversion
    ATF also combats the illegal diversion of alcohol and tobacco 
products by criminal gangs, organized crime, and terrorist groups. The 
illicit sale of these commodities causes a substantial loss of excise 
tax revenue to both the Federal and State governments. Moreover, there 
have been instances in which terrorist groups are using proceeds from 
tobacco trafficking to finance their organizations and activities. By 
utilizing the Contraband Cigarette Trafficking Act, RICO, wire fraud, 
mail fraud, and money laundering statutes, ATF has built complex cases 
against individuals who have used proceeds from the illegal trafficking 
of cigarettes to fund organized crime and terrorism. ATF's 
investigations into illicit trafficking of tobacco products and 
enforcement of existing statutes continue to become more refined. In 
fiscal year 2002, 18 defendants were convicted on tobacco diversion-
related charges. Every year since, there has been an increase in the 
number of defendants convicted of these crimes as a result of ATF's 
efforts. In fiscal year 2006, 108 defendants were convicted of tobacco 
diversion-related offenses as a result of ATF's work--that is a 600 
percent increase in defendants convicted over a 5-year period. ATF will 
continue to fight the illicit trafficking of both alcohol and tobacco 
products, whether the means of illicit trafficking are more traditional 
in nature or contemporary such as Internet sales.
International Programs
    In addition to the training NCETR provides to Army explosives units 
prior to their deployment to Iraq, ATF is lending its expertise to U.S. 
efforts in Iraq in a variety of ways. Since March 2005, ATF has 
deployed Special Agent Certified Explosives Specialists and Explosives 
Enforcement Officers to support the Iraq Combined Exploitation Cells 
(CEXC) within the U.S. Military Central Command. ATF explosives experts 
provide onsite investigative assistance in processing post-blast 
incidents directed at United States and allied forces and we also 
provide post-blast training for the Iraqi National Police. In addition, 
ATF employs explosives detection canine teams in Iraq and throughout 
the Middle East--these teams often are directly responsible for 
locating hidden explosives and weapons in enforcement actions conducted 
by host governments against terrorist groups. Moreover, ATF has special 
agents assigned to the Regional Crimes Liaison Office and the Major 
Crimes Task Force in Iraq to assist in the investigation and 
prosecution of war crimes and other criminal activity. ATF will 
establish a temporary duty presence of four ATF agents at the new U.S. 
Embassy in Baghdad later this year.
    Finally, ATF is a managing partner in the Terrorist Explosive 
Device Analytical Center (TEDAC). This joint DOJ-DOD program is housed 
at the FBI Laboratory in Quantico, Virginia, with an ATF special agent 
serving as the Deputy Director. At the TEDAC, ATF and other partners 
analyze IEDs from Iraq and Afghanistan in an effort to identify bombers 
and prevent further attacks. TEDAC's evaluation of terrorist IED 
components to identify similarities and its collection of latent prints 
and DNA from those devices helps identify bombing suspects and provides 
vital intelligence to military and law enforcement officials.
                                closing
    Chairman Mikulski, Senator Shelby, distinguished Members of the 
Subcommittee, on behalf of the men and women of ATF, I thank you and 
your staff for your support of our crucial work. While the list of ATF 
programs and facilities I have noted today is far from comprehensive, 
it is intended to provide the Subcommittee with a sampling of the depth 
and breadth of our activities.
    ATF is protecting the American public from the threats of violent 
crime and terrorism. As noted previously, we initiated over 2,000 gang-
related cases in fiscal year 2006. That is an increase of over 157 
percent from 2002, the first full year of PSN. We will continue to 
enforce the Safe Explosives Act and provide the education and 
regulatory oversight to an industry that manufactures, imports, and 
sells over 5 billion pounds of explosives every year. ATF will continue 
to investigate incidents involving nearly 4,000 pounds of stolen 
explosives, and we will continue to inspect approximately 12,000 
Federal Explosives Licensees and Permitees. We also will continue to 
share our expertise with our partners and provide invaluable training 
in a number of areas, including courses on post-blast investigative 
techniques and courses for explosives detection canine teams.
    With the backing of your Subcommittee, ATF can continue to build on 
these accomplishments, making our nation even more secure. The $2.2 
million we have requested to expand PSN and the $6.3 million to 
establish firearms trafficking teams are two important investments in 
this cause. We look forward to working with you in pursuit of our 
shared goals.
                                 ______
                                 
               Biographical Sketch of Michael J. Sullivan
    Michael J. Sullivan was designated the Acting Director of the 
Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF) in August 
2006 by President George W. Bush. In this position, Sullivan oversees 
nearly 5,000 ATF employees and an annual budget of close to $1 billion. 
He ensures that ATF fulfills its mission of preventing terrorism, 
reducing violent crime, and protecting our Nation.
    As United States Attorney for the District of Massachusetts since 
September 2001, Sullivan has worked aggressively to combat terrorism. 
He established a counterterrorism unit in his office; formed an Anti-
Terrorism Task Force comprised of federal, state and local law 
enforcement to prevent future terrorist attacks; and prosecuted the so-
called ``shoe bomber'' Richard Reid.
    In addition to combating terrorism, Sullivan has focused on 
protecting youth and safeguarding communities from the threat of 
violence. As U.S. Attorney, Sullivan followed through on the 
President's Project Safe Neighborhoods Initiative to safeguard our 
communities by developing a Community Prosecution and Crime Reduction 
Unit to enforce the federal gun laws and develop highly targeted gun 
crime reduction strategies. Through his innovative efforts, Sullivan 
has elicited unprecedented cooperation among federal, State and local 
law enforcement agencies to target gun crime in Boston and across the 
State. From fiscal year 2000-2005, Sullivan increased federal gun 
prosecutions under existing laws by 114 percent in Massachusetts.
    Sullivan also created a unit within his office to target computer 
hacking and high technology crimes, including identity theft, Internet 
auction and credit card fraud, economic espionage, copyright and 
trademark violations. Under his leadership, the U.S. Attorney's Office 
in the District of Massachusetts has recovered more than $3 billion for 
the federal government. Sullivan serves on the Attorney General's 
Advisory Committee and chairs the Health Care Fraud Subcommittee.
    Before serving as U.S. Attorney, Sullivan was appointed District 
Attorney of Plymouth County by Massachusetts Governor William F. Weld 
in May 1995. He was elected to the position in November 1996 and again 
in 1998. One of Sullivan's top priorities during his tenure as District 
Attorney was to address the issue of unsolved homicides in the county. 
This initiative resulted in the resolution of a significant number of 
murders. In addition, he became known as a leader in the fight against 
child abuse, domestic violence and elder abuse.
    Sullivan began his public service in 1990 when he was elected to 
the Massachusetts State House of Representatives, where he served for 
three terms. As a legislator, Sullivan was a strong proponent of 
criminal justice reform.
    Prior to his public service, Sullivan worked at the Gillette 
Company for 16 years. He started as a stock clerk at the age of 18 and 
rose to positions in human resource management and quality operations 
before becoming assistant to the president. While employed at Gillette, 
Sullivan graduated from Boston College cum laude and Suffolk University 
Law School cum laude.

                    Drug Enforcement Administration

STATEMENT OF HON. KAREN P. TANDY, ADMINISTRATOR
    Senator Mikulski. Ms. Tandy.
    Ms. Tandy. Madam Chairman and members of the subcommittee 
and Ranking Member Senator Shelby, it is my pleasure to discuss 
the President's 2008 budget request for the Drug Enforcement 
Administration.
    I want to thank this subcommittee for its support of DEA as 
we lead the Nation's fight against drugs and Senator Mikulski, 
we are particularly grateful to you for including the $25 
million in the supplemental spending bill that would lift our 
hiring freeze at DEA and fund our counterterrorism initiatives.
    In unprecedented numbers, DEA has been toppling cartel 
kingpins and stripping their drug trafficking organizations, 
not only of massive amounts of drugs, but also their illicit 
revenues. By 2009, our goal is to take $3 billion each year 
from these international drug trafficking networks that are 
operating in this country.
    In the last 2 years combined, we stripped drug trafficking 
organizations of $3.5 billion in revenue through the seizure of 
assets and drugs and already, just halfway through this fiscal 
year of 2007, we have seized an astounding $1.1 billion. This 
figure includes $90 million in cash and gold that DEA and our 
Colombian partners stripped from the North Valley cartel in 
January. For 60 days thereafter this was the world record for 
cash seizures until our Mexican partners, with whom we have 
been working more closely than ever over the past year, made 
the single largest cash seizure that the world has ever seen 
stripping methamphetamine chemical traffickers of $207 million 
in cash. That is the cash that's reflected here in this poster 
before the subcommittee.
    Two days later DEA information resulted in another record 
setting seizure. This time instead of cash it was drugs, 21 
tons of cocaine off of the coast of Panama that was worth more 
than $300 million wholesale which is the photo on the two 
posters to my left.
    Senator Mikulski. So it's one that, trifocals, always there 
where you don't need them but is that like a container ship? 
Where the cargo was literally drugs?
    Ms. Tandy. That is correct. It was a container ship off of 
Panama. The actual 21 tons of cocaine was brazenly on top of 
the deck of the container ship without concealment.
    With these unrelated operations, DEA dealt Mexican 
traffickers a one, two punch. They're down more than $500 
million in blood money in simply 48 hours. Other enforcement 
actions have impacted these traffickers as well.
    In January, DEA agents took custody of 10 major drug 
traffickers on U.S. soil in an unprecedented extradition from 
Mexico. These extraditions included violent kingpins and 
leaders from all four of Mexico's major drug cartels and with 
us, as we took custody, were the United States Marshals to whom 
we turned these traffickers over.
    Less than 2 months ago, DEA dismantled the United States 
infrastructure of a powerful Mexican drug cartel that Senator 
Shelby referenced in his opening statement. As the Senator 
noted, that included the arrest of more than 400 members of 
this organization throughout the United States, the seizure of 
$46 million in cash as well as 18 tons of marijuana, cocaine, 
meth, and heroin and thanks to Federal legislation that was 
passed by Congress, as well as State legislation and toughened 
enforcement efforts over the last 5 years, we've slashed the 
number of small toxic meth labs in this country by 61 percent 
and super lab seizures are down in the United States, 
plummeting 94 percent.
    All of these efforts by DEA and our partners are affecting 
drug organizations financially and operationally. According to 
recent intelligence, some trafficking organizations are now 
having difficulty finding transportation groups to move cocaine 
from Mexico to the United States. That in turn has led to a 
significant surcharge to the price of a kilogram of cocaine and 
in addition to that are some U.S. based meth traffickers that 
are having difficulty acquiring meth from some sources of 
supply in Mexico.
    I believe I'm taking the hint here that I am.
    Senator Mikulski. First of all what you've just told us is 
a phenomenal set of accomplishments. They're breathtaking and 
you go ahead and you finish your testimony, don't worry about 
some little huchipoo red light going off.
    You've got the green light after what you're telling us to 
do anything you want to do here today.
    Ms. Tandy. You are very generous, Senator. Thank you so 
much.
    These DEA victories in reducing the drug supply have also 
contributed to the 23 percent drop in our Nation's drug use 
over the past 5 years because as this subcommittee well knows, 
if drugs are plentiful, the demand reduction education efforts 
will not take root and drug treatment won't succeed.
    Despite these achievements though, DEA does face challenges 
fighting an evolving drug trade. First, we no longer just fight 
traditional drugs of abuse. In just 5 years the number of 
Americans abusing prescription drugs rose more than two-thirds, 
from 3.8 million abusers to 6.4 million and fueling this 
increase is the proliferation of illicit Internet web sites 
that make it possible with one simple click to purchase 
controlled substances. With additional funds DEA can do more of 
these online diversion investigations.
    Second, we need to increase our enforcement along the 
Southwest border where approximately 85 percent of the drugs 
are smuggled into this country. Additional funds will allow us 
to step up our fight there with improvements to our aviation, 
surveillance, and communication systems.
    A third challenge is our limited intelligence 
infrastructure. For example, if a multi-ton load of cocaine is 
seized off the African coast and DEA received classified 
intelligence about it, we need to pass that classified 
intelligence and work that information via our classified 
backbone which is known as our Merlin System.
    The problem is that we do not have the Merlin System in 
computer terminals anywhere in Africa or the Middle East. These 
computers are in limited places in South America and Europe. 
The ones we do have in the United States are aging and in dire 
need of upgrades and without an enhancement DEA cannot readily 
share and investigate the kind of information that's necessary 
to take down the drug trafficking cartels or to fulfill our 
responsibilities in the intelligence community.
    Finally, intercepting traffickers' communications has been 
DEA's most valuable weapon and traffickers now have the 
Internet and encrypted communications technology at their 
disposal. Consequently we are seeking an enhancement to expand 
our Internet capabilities so that we can get a trafficker's 
encrypted communications in the same way as we now get the 
trafficker's land line and cell phone conversations through a 
court order.

                           PREPARED STATEMENT

    These budget enhancements would allow DEA to fight the drug 
trade across our Nation, the globe and cyberspace and it will 
also help put the DEA back on a solid financial footing that's 
necessary to carry out these responsibilities and on behalf of 
the almost 11,000 men and women of the Drug Enforcement 
Administration, I thank this subcommittee for all of your 
support throughout the years that we have been undertaking 
these challenges. Thank you.
    Senator Mikulski. Thank you very much, Miss Tandy. I think 
it shows how important this hearing is and Mr. Clark why don't 
you tell us how the marshals ride a different kind of posse but 
still come in to save Miss Kitty and a lot of other people in 
the community.
    [The statement follows:]
               Prepared Statement of Hon. Karen P. Tandy
    Madam Chairman and Members of the Subcommittee: Good morning, and 
thank you for inviting me to testify on behalf of the President's 
fiscal year 2008 budget request for the Drug Enforcement Administration 
(DEA). I have had the pleasure of working closely with some of you over 
the last four years. To those Members who are new to this panel, I 
welcome the opportunity to share the DEA story and to express my 
appreciation to you in advance for supporting the courageous men and 
women of the DEA.
    I am privileged to lead a worldwide drug law enforcement 
organization of more than 10,000 people, including over 700 people 
stationed in 62 countries. DEA employs a time-tested, multi-front 
strategy to fight global drug traffickers that are motivated solely by 
the desire for profit--profits that are generated by human misery. We 
must battle these well-organized, highly sophisticated organizations at 
every juncture: from the cultivation or manufacturing stage, through 
the transit zones to final distribution in our nation's communities; 
and, finally, we must be there when they launder the proceeds of their 
operations.
    The criminals we investigate are located throughout the world and 
we search them out wherever they are: in both hemispheres and 
increasingly in the ever-expanding realm of the Internet. We attack the 
economic basis of the drug trade and reduce the diversion of licit 
drugs. We support counterterrorism activities, assist our state and 
local law enforcement partners, and serve as an information resource 
for state and local communities to help them reduce the demand for 
illicit drugs.
    The support that this Committee provides allows us to work toward 
making America's neighborhoods safe and drug-free, and for that, we at 
DEA are very grateful.
    I would like to begin my testimony by sharing two pieces of good 
news with the Committee: First, teenage drug use is down; and second, 
DEA is hitting the world's drug traffickers harder than ever before.
                        teenage drug use is down
    In 2002, the President set ambitious goals to reduce drug use: a 10 
percent reduction over two years and a 25 percent reduction over five 
years. We have exceeded the first goal: drug use by young people is 
down 11 percent. And the second goal has nearly been reached: since 
2001, overall illicit drug use among teens has declined by 23 percent. 
This data, released in December 2006 by the National Institute on Drug 
Abuse (NIDA) means that 840,000 fewer teenagers have been damaged by 
the corrosive effect of drugs.
    Some specifics from the Substance Abuse and Mental Health Services 
Administration (SAMHSA) report include: marijuana use among teenagers 
has dropped by 25 percent since 2001; methamphetamine use by teenagers 
is down by 50 percent since 2001; ecstasy use by 8th graders decreased 
by 61 percent and dropped by 54 percent for 10th and 12th graders since 
2001; cocaine use among high school seniors declined by 55 percent 
between 1986 and 2006; steroid use by teenagers decreased by 20 
percent; LSD use fell by 60 percent for 8th graders, by 53 percent 
among 10th graders, and by 74 percent among high school seniors.
    Madam Chairman and Members of the Subcommittee, DEA works 24/7 to 
enforce our country's federal drug laws. Aggressive enforcement not 
only limits supply and increases the price of drugs, it provides a 
deterrent effect that may contribute to the decline in drug use. We who 
fight very hard to keep the poisonous chemicals from reaching young 
people see the statistics I just cited as a very positive trend. We 
hope it represents a fundamental and lasting downward shift in illicit 
drug use among young Americans.
             enforcement successes over the last 12 months
    I would also like to share with you some of DEA's most significant 
accomplishments during the past year. For example, just one month ago, 
our partners in Mexico, with whom we have been working over the last 
year on a pseudoephedrine investigation, made the single largest 
worldwide cash seizure--$207 million in U.S. currency. Forty-eight 
hours later, as a result of joint DEA and Panama law enforcement 
intelligence, the U.S. Coast Guard made the largest maritime seizure on 
record--21 metric tons of cocaine bound for Mexico. The seizure denied 
Mexican drug lords $300 million in drug revenue and severely disrupted 
their transportation network.
    In the information that follows, I will highlight some individual 
cases and discuss the underlying strategies that led to such successful 
operations. An attachment to my statement provides an overview of the 
leading drug threats facing the United States and some additional 
examples of DEA's work against each of these threats.
Attacking the Economic Basis of the Drug Trade
    Successes include:
  --Indicting 50 leaders of a designated Colombian foreign terrorist 
        organization on charges of importing more than $25 billion 
        worth of cocaine into the United States. This represents more 
        than 60 percent of the cocaine entering the country.
  --Dismantling the Cali Cartel of Colombia, which is responsible for 
        the export of multi-ton maritime shipments of cocaine to the 
        United States. High ranking cartel members were sentenced in 
        2006, with resulting forfeitures of more than $300 million. 
        During the 1990s, the cartel was one of the world's most 
        powerful criminal organizations, estimated at one time to be 
        responsible for up to 80 percent of the cocaine smuggled into 
        the United States.
  --Arresting more than 400 individuals nationwide, following a 20-
        month, DEA-led investigation into a Mexican drug syndicate and 
        its U.S.-based distribution cells. The investigation has 
        resulted in the seizure of approximately $45.2 million in U.S. 
        currency, 27,229 pounds of marijuana, 9,512 pounds of cocaine, 
        705 pounds of methamphetamine, 227 pounds of pure 
        methamphetamine or ``ice'', 11 pounds of heroin, $6.1 million 
        in property and assets, and 100 weapons and 94 vehicles.
  --Arresting a Canadian international money manager who, subsequently, 
        was indicted for conspiracy to launder $1 billion in proceeds 
        from narcotics trafficking and securities and bank fraud.
  --Dismantling a Brazilian Consolidated Priority Organization Target 
        (CPOT)--the world's ``Most Wanted'' drug trafficking and money 
        laundering organizations that was responsible for smuggling 
        into the United States more than 15 tons of cocaine each month 
        from Colombia. The dismantlement resulted in 100 arrests and 
        the seizure of 52 tons of cocaine and nearly $70 million in 
        assets, including three islands off the coast of Panama.
  --Extraditing a Colombian drug kingpin to the United States who had 
        been indicted for importing cocaine and heroin worth an 
        estimated $100 million.
  --Dismantling a Canadian-based trafficking organization that smuggled 
        more than $5 million worth of ecstasy from Canada into the 
        United States.
  --Arresting 26 members of a Colombian organization that laundered 
        millions of Colombian dollars through the Black Market Peso 
        Exchange. As part of the operation, more than $10 million in 
        drug proceeds and $6.5 million in cocaine, heroin, and 
        marijuana were seized.
  --Arresting three Colombian traffickers who laundered $3 million in 
        proceeds that were derived from cocaine distribution rings that 
        operated internationally in Colombia, Mexico, and Europe.
Reducing the Diversion of Licit Drugs
    Successes include:
  --Immediately suspending the DEA registrations of 13 pharmacies that 
        used their DEA registrations to fill controlled substances 
        orders for rogue Internet pharmacies. Eight of the 13 
        suspensions were issued in February 2007. The pharmacies 
        suspended were responsible for distributing more than 75 
        million dosage units of controlled substances in 2006, the vast 
        majority of which was distributed based on invalid 
        prescriptions originating with rogue Internet pharmacy 
        websites. Ten of the pharmacies together purchased 45 million 
        dosage units of hydrocodone, which is 64 times the amount ten 
        average pharmacies would annually dispense.
  --Overseeing the largest steroid enforcement operation in U.S. 
        history. On December 14, 2005, Operation Gear Grinder resulted 
        in the arrest of five individuals who were responsible for 
        importing anabolic steroids into the United States. This 
        international investigation targeted the eight largest anabolic 
        steroid manufacturing companies in Mexico, including three of 
        the world's largest that conducted their sales via the 
        Internet. Nearly 82 percent of the steroids seized and analyzed 
        in 2003 are of Mexican origin and the majority of this 82 
        percent originated from the eight companies charged in 
        Operation Gear Grinder.
  --Arresting four individuals in Miami, Florida, who have been charged 
        with the nationwide Internet distribution of large quantities 
        of Schedule III and Schedule IV controlled substances. Sales 
        exceeded $200 million over a three-year period. The 
        investigation included the seizure of $817,000 in cash, $4.2 
        million worth of property, two automobiles, and one marine 
        vessel.
  --Indicting 11 individuals and an Atlanta-based company on charges of 
        mail fraud, distribution of controlled substances, and the 
        introduction of adulterated and misbranded drugs. The 
        defendants allegedly manufactured millions of pills--
        approximately 24 different drugs--that were marketed through 
        Internet ``spam'' advertisements. In addition to the forfeiture 
        of numerous properties, automobiles and bank accounts, the 
        indictment is seeking a monetary judgment of not less than 
        $19.8 million.
  --Arresting five individuals in the Chicago, Illinois area, as part 
        of an operation involving the illegal Internet distribution of 
        prescription drugs and anabolic steroids. The diversion scheme 
        included the wire transfers of thousands of dollars, and the 
        Internet distribution of thousands of dosage units of 
        controlled substances lacking valid prescriptions.
Working With State and Local Law Enforcement Organizations
    Successes include:
  --Dismantling the largest marijuana-laced candy manufacturing 
        organization in the western United States. The five-month 
        investigation resulted in the arrest of the organization's 
        leader, and the seizure of more than 4,000 marijuana plants, 
        $100,000 in U.S. currency, three firearms, and hundreds of 
        marijuana-laced food products. The marijuana-laced products, 
        packaged to mimic legitimate food products, included labels 
        such as ``Buddafingers,'' ``Munchy Way,'' and ``Pot Tarts.'' 
        The items were packaged in large boxes for distribution to 
        cannabis clubs throughout the West Coast and over the Internet.
  --Working with the St. Paul, Minnesota Police Department on an 
        operation that resulted in the arrest of 26 individuals 
        associated with the Latin Kings street gang. The arrests, one 
        of the largest drug takedowns in Minnesota history, were based 
        on narcotics and firearms conspiracy violations and the 
        possession and distribution of methamphetamine, cocaine, and 
        marijuana.
  --Working with the New York City Police Department on an operation 
        that resulted in the arrest of 20 individuals involved in a 
        Panama/U.S. heroin drug smuggling operation. The smuggling was 
        carried out by dozens of ``swallowers'' who were paid a fee 
        plus reimbursements for airfare and hotel expenses. Over three 
        kilograms of heroin were seized in the New York City area, and 
        $300,000 in wire transfer receipts was recovered.
  --Working with Seattle, Washington area law enforcement agencies on 
        an operation that targeted violent methamphetamine traffickers, 
        resulted in the arrests of 38 individuals. The investigation 
        netted the seizure of methamphetamine, marijuana, cocaine, 
        crack cocaine, oxycodone, eight weapons, and 10 vehicles.
  --Working with St. Louis, Missouri area law enforcement agencies on 
        an operation that resulted in the indictment of 30 individuals 
        on charges of distributing approximately 50 kilograms of 
        cocaine with a street value of $1 million.
    The accomplishments just listed are impressive on their own. But, 
they are the result of a carefully planned strategy that guides DEA 
operations around the world.
    Attacking the Drug Syndicates.--Significantly reducing the supply 
of illicit drugs is attainable if we disrupt or dismantle the drug 
trafficking and money laundering organizations that are primarily 
responsible for supplying them. At DEA, we refer to this approach as 
priority targeting. By using intelligence that we meticulously gather 
to identify the syndicates and coordinating our investigations against 
all levels of the drug and money supply chain, we are able to focus on 
the most important links in the supply chain.
    We are proud of our successes. In fiscal year 2006, 85 percent (39 
of 46) of the leaders of the most wanted international drug 
organizations (CPOTs) were indicted and 37 percent (17) were arrested. 
Terrorist-linked Priority Target Organization (PTO) investigations 
increased by 16 percent, comparing fiscal year 2005 investigations (82) 
to fiscal year 2006 investigations (95). Furthermore, between fiscal 
years 2003 and 2006, 13 drug organizations with terrorist links were 
disrupted and 20 were dismantled.
    Attacking the Economic Basis of the Drug Trade.--As a federal 
prosecutor, I saw firsthand the importance and value of stripping drug 
traffickers of their revenue. It works. I brought that experience with 
me when I came to DEA and shortly thereafter developed a five-year 
revenue denial plan. In the first two years, DEA has denied more than 
$3.5 billion through the seizures of both assets and drugs. This total 
amount exceeds the goal for the first two years of the plan by $1 
billion. The $1.6 billion denied in fiscal year 2006, includes $1.1 
billion in total assets and cash seized. With regard to high-value cash 
seizures (those over $1 million), 63 were made in fiscal year 2006, 
which represents a 44 percent increase since fiscal year 2004. DEA's 
Money Trail Initiative, launched in 2005, is a financial crime strategy 
that focuses on identifying and disrupting the flow of money back to 
the sources of drug supply, thereby crippling the ability of criminals 
to operate. In 2006, Money Trail operations resulted in more than 400 
arrests and the seizure of approximately 10,000 kilograms of cocaine, 
60,000 kilograms of marijuana, 9 kilograms of heroin, approximately 300 
pounds of methamphetamine, more than 60 dosage units of MDMA, 250 
vehicles, approximately 80 weapons, $65 million U.S. currency, and 
$14.6 million in other assets. Our fiscal year 2006 financial 
investigations of PTOs increased by 28 percent over fiscal year 2005 
(117 active cases in fiscal year 2005; 150 active cases in fiscal year 
2006). The number of financial investigation cases in fiscal year 2006 
that led to the disruption of a PTO increased by 100 percent over 
fiscal year 2005 (9 cases in fiscal year 2005; 18 cases in fiscal year 
2006). The number of financial investigation cases in fiscal year 2006 
that led to the dismantlement of a PTO increased by 138 percent over 
fiscal year 2005 (8 cases in fiscal year 2005; 19 cases in fiscal year 
2006).
    Forging International Partnerships--Mexico.--Experience has shown 
that strong international partnerships are vital in the drug law 
enforcement arena. A robust U.S./Mexico partnership, for example, is 
key if we are to reduce significantly the flow of drugs to the United 
States from Mexico, and halt the smuggling of the millions of pounds of 
bulk cash into Mexico that were generated from the sale of billions of 
dollars worth of illicit drugs in the United States. The 2007 National 
Drug Threat Assessment, which is prepared by the Justice's National 
Drug Intelligence Center, states that ``The Southwest Border remains a 
serious area of concern for U.S. drug money laundering.'' Furthermore, 
the assessment states that ``Mexican and Colombian Drug Trafficking 
Organizations (DTOs) together generate, remove, and launder between 
$8.3 billion and $24.9 billion in wholesale distribution proceeds from 
Mexico-produced marijuana, methamphetamine, and heroin and South 
American cocaine and heroin annually.'' Working with the Mexican and 
Colombian governments will help address this major problem. In May 
2006, the Attorney General unveiled a strategy to combat 
methamphetamine that calls for joint DEA/Mexico initiatives including: 
establishing specialized methamphetamine enforcement teams on either 
side of the border; developing a list for targeting the Most Wanted 
chemical and drug trafficking organizations; donating refurbished DEA 
clandestine laboratory enforcement trucks to Mexico for specialized 
enforcement teams' use. Since the launch of the strategy, over 2,100 
Mexican police officers have been trained to improve their 
methamphetamine trafficking investigative and enforcement skills.
    The U.S./Mexico partnership has already begun paying dividends. In 
August 2006, Mexican authorities seized a large-scale clandestine 
methamphetamine laboratory. The seizure netted 100 kilograms of 
finished methamphetamine, 3,000 liters of various solvents and 
chemicals, and four barrels of iodine. Due to its size and production 
capability, the laboratory is classified as a ``super lab''. More 
recently, a DEA-trained unit of Mexican police officers discovered an 
operational super methamphetamine laboratory in December 2006, that, 
based on the amount of equipment, chemicals and resources discovered, 
is likely the largest laboratory to be found in Mexico to date.
    With regard to major arrests, a DEA-led Organized Crime Drug 
Enforcement Task Force (OCDETF) investigation led to the August 2006 
apprehension of the leader of a Mexican narcotics trafficking 
organization that, over the past decade, has flooded our country with 
hundreds of tons of cocaine and marijuana, as well as very large 
quantities of methamphetamine and heroin. The leader, Francisco Javier 
Arellano-Felix, and one of his lieutenants, Manuel Arturo Villarrel-
Heredia, have been charged with racketeering, drug trafficking, and 
money laundering offenses, and if convicted will be eligible for the 
death penalty.
    The January 2007 extradition of 15 violent Mexican criminals, 
including the leaders from all four of Mexico's major drug cartels, was 
a watershed event in the annals of U.S./Mexico relations. The 
extraditions mark the reversal of a long-standing Mexican government 
policy of not extraditing jailed citizens until the sentences handed 
down by Mexican courts had been served. One of the extradited kingpins 
commanded a drug cartel considered to be among the most brutal and 
powerful in the world. He directed the smuggling of between four and 
six tons of cocaine per month over the U.S. border. It is a drug law 
enforcement development of enormous significance, and we view it as 
major progress on more than one front.
    Forging International Partnerships--Afghanistan.--Combating the 
world-wide threat posed by heroin production in Afghanistan is a major 
challenge. A flourishing narcotics trade further weakens an already 
fragile country, and it must be attacked aggressively. For our part, 
DEA and the government of Afghanistan have formed a partnership with 
the goal of developing and expanding the capabilities of its law 
enforcement community. Our five Foreign-deployed Advisory and Support 
Teams advise, train, and mentor their Afghan counterparts in the 
National Interdiction Unit of the Counter Narcotics Police--
Afghanistan. This program supplements our Kabul Country Office as well 
as ``Operation Containment'', a successful DEA initiative that was 
launched post September 11, 2001. It emphasizes coordination and 
information-sharing among 18 countries. Its aim is to choke the flow of 
drugs, precursor chemicals, and money into and out of Afghanistan. 
Madam Chairman and Members of the Subcommittee, we are seeing results 
from taking a regional, multi-national enforcement approach to a threat 
with worldwide implications. Over the last two years, Operation 
Containment has resulted in the seizure of approximately 17 metric tons 
of heroin, more than 170 metric tons of marijuana, and nearly 300 
opium-to-heroin conversion laboratories. Additionally, more than 900 
suspects have been arrested, and of those arrests, four of the six Most 
Wanted Operation Containment targets are now incarcerated. Moreover, 
intelligence developed by DEA in conjunction with other agencies has 
helped to thwart rocket and Improvised Explosive Device attacks on 
Afghan and coalition forces in Afghanistan. The 2006 convictions and 
sentencing of three major Afghan traffickers are yet another important 
byproduct of the DEA/Afghanistan partnership.
    As I conclude the discussion of international partnerships, I want 
to add a few words about the International Drug Enforcement Conference 
(IDEC). As you may know, this global forum was established in 1983, to 
bring together high-level drug law enforcement officials from 
throughout the Western Hemisphere. Its purpose is to share drug-related 
information and to develop a coordinated approach to law enforcement 
efforts against international drug organizations. As the DEA 
Administrator, I am the Co-President of the IDEC. In May 2006, I had 
the pleasure of addressing the conference's 24th gathering, which has 
grown to include representatives from 76 countries located in both 
hemispheres. Seven countries became new members in 2006: Afghanistan, 
Indonesia, Malaysia, New Zealand, Poland, South Africa, and the United 
Kingdom. The 2006 IDEC was a great opportunity to discuss our 
respective challenges and frustrations and to talk about how we could 
build on our accomplishments through even stronger multi-lateral 
partnerships that are beneficial to all parties.
    Fighting Methamphetamine--A Drug of Special Concern.--Before I 
begin a discussion of our fiscal year 2008 budget request, I would like 
to take a minute to talk about a drug of special concern to many 
Members of Congress: methamphetamine.
    As I mentioned in my opening comments, a 50 percent decline in 
methamphetamine use by teenagers since 2001, as reported by the 
National Institute on Drug Abuse (NIDA) in December 2006, is a dramatic 
and much-welcomed development. At the same time, this deadly drug 
remains a problem. DEA takes a comprehensive approach to fighting the 
drug--domestic and international enforcement and precursor chemical 
control, the identification and cleanup of large and small toxic 
laboratories, and an aggressive attack on the money flow. In fiscal 
year 2006, DEA spent an estimated $217 million for methamphetamine-
related activities. This included approximately $196 million for 
methamphetamine investigations and $21 million for clean-up, safety, 
and training programs. DEA also provided clandestine laboratory 
training to more than 1,000 state and local law enforcement officers 
during fiscal year 2006.
    Implementing The Combat Methamphetamine Epidemic Act of 2005.--The 
provisions of the law aimed at the domestic and international 
regulation of precursor chemicals make it possible to place reasonable, 
common sense limitations on the availability of the products used in 
the manufacturing of methamphetamine. Sales at the retail level are 
controlled through such measures as keeping products stored in locked 
containers, requiring face-to-face sales and photograph identification, 
establishing additional record-keeping requirements for mail-order 
sales, and requiring producers of Scheduled Listed Chemical Products to 
make annual estimates of the quantities of the products needed for 
legitimate use. These domestic regulatory requirements, coupled with 
the enforcement actions being taken by states should lead to a decline 
in the number of domestic operational clandestine laboratories. 
Limiting sales at the wholesale level is another important part of the 
equation. Under the law, foreign distributors are required to disclose 
all known information to the importer on the chain of distribution of 
such chemicals from the manufacturer to the importer. Furthermore, the 
State Department is required to identify annually the five largest 
exporting and importing countries of Scheduled Listed Chemical 
Products, and DEA is given the authority to issue importation 
prohibition orders. Taken together, these actions are expected to help 
greatly on the international regulatory side. Effective methamphetamine 
enforcement calls for a balanced approach that addresses the drug law 
enforcement issues, while ensuring the availability of an adequate 
supply of controlled substances to meet consumers' legitimate medical 
needs.
           despite the accomplishments, the challenges remain
    Madam Chairman, DEA carefully manages the resources Congress 
provides to ensure we wring every penny out of every dollar you give 
us. And while we are proud of our many accomplishments, we never lose 
sight of the fact that drug abuse remains a very serious problem facing 
our country. The most recent data available from the federal Centers 
for Disease Control and Prevention sadly reveals that in 2004, 30,711 
Americans died from drug abuse. This is almost 2,000 more deaths than 
occurred in 2003.
    Compounding the loss of lives is the damage from increased crime 
and violence, the powerful grip of addiction, lower productivity in the 
workforce, child abuse and neglect, environmental danger, and the grief 
of lost promise. Taken together, the effect of these human tragedies 
eclipses even the very tragic impact of terrorism. And so, while we 
realize our country faces tight budget times, we are here today to ask 
you to give us a few more tools, a few more resources, so we can do a 
little more to drive illegal drugs from our shores.
                    fiscal year 2008 budget request
    For fiscal year 2008, DEA is requesting $2.4 billion ($1.8 billion 
under the Salary and Expenses Account, $239 million under the Diversion 
Control Fee Account, and $389 million for OCDETF activities and other 
reimbursable agreements). A total of 10,239 positions, of which 4,811 
are Special Agent positions, are requested from these funding sources. 
This request represents an increase of $110 million over the fiscal 
year 2007 President's budget, and was developed with the goal of 
advancing DEA's enforcement strategy in the most efficient and 
effective manner. It was developed through a planning process of 
several months duration, calling upon the knowledge, talent, and skills 
of many DEA professionals with years of experience in drug law 
enforcement. Under the Salary and Expenses Account, the fiscal year 
2008 request would provide funding for three initiatives. Fee Account 
collections would fund companion initiatives in the diversion control 
program.
                     salaries and expenses account
    DEA is requesting $39.3 million to expand activities in three key 
areas:
Southwest Border and Methamphetamine Enforcement Initiative ($29.2 
        million and 8 positions)
    DEA is an active participant in the Southwest Border Initiative, a 
cooperative effort launched in 1994 by federal law enforcement agencies 
to combat the threat posed by Mexico-based trafficking groups operating 
along the Southwest border. The Southwest Border and Methamphetamine 
Enforcement Initiative that DEA is proposing would complement the 1994 
initiative in an area of the country recognized as the principal 
arrival zone for most illicit drugs smuggled into the United States, as 
well as the predominant staging area for the subsequent distribution of 
these drugs throughout the country. With regard to methamphetamine 
alone, current drug and lab seizure data suggests that approximately 80 
percent of the methamphetamine used in the United States originates 
from larger laboratories operated by Mexican-based organizations on 
both sides of the border. The data also suggests that the remaining 
approximately 20 percent consumed is produced in small toxic labs. 
DEA's Southwest Border and Methamphetamine Enforcement Initiative would 
help DEA step up the fight on both sides of the border through 
increases in our aviation assets, and improvements in our surveillance 
and communications systems and data collection and analysis 
capabilities.
    Some specifics.--$15.4 million would be used to purchase, among 
other things, three helicopters, each equipped with a High Definition 
camera for complex aerial surveillance activities in support of our 
major investigations. An additional $3.4 million would fund operational 
expenses and equipment purchases needed for providing communications 
coverage of remote areas along the border. Also requested is $3.4 
million and two positions to design, develop and implement an advanced 
digital imagery program for capturing and storing facial and other 
identifiable images for drug trafficking organizations investigations. 
To purchase advanced satellite telephone and maritime tracking devices, 
and sensor and audio/video surveillance equipment, which often act as a 
force multiplier, DEA is requesting a total of $5.1 million. The El 
Paso Intelligence Center (EPIC) developed Operation Gatekeeper to 
research, analyze, and report information on the Mexican drug 
trafficking organizations that control entry corridors along the 
border. To expand this important operation, DEA is requesting $612,000 
and six positions. And to expand its information sharing capabilities, 
EPIC is requesting $3.4 million to develop the capacity to share 
digital images with its Federal, State and local law enforcement 
partners.
Counterterrorism and Intelligence Sharing Initiative ($7.1 million and 
        7 positions)
    In 2006, after a 25-year hiatus, DEA's Office of National Security 
Intelligence (NN) was designated a member of the Intelligence Community 
(IC). While the designation does not grant new authorities to DEA, it 
does formalize the long-standing relationship between DEA and the IC 
and allows DEA and other IC members to work on issues of national 
security interest in an integrated fashion. With over 33 years of 
operational experience in the foreign arena and the largest U.S. law 
enforcement presence abroad, DEA has made and will continue to make 
many unique contributions, not only in drug law enforcement, but also 
in the interest of national security. For example, with over 5,000 
confidential sources, DEA possesses substantial human intelligence 
capabilities. Additionally, DEA conducts 67 percent of all federal 
domestic law enforcement wire taps.
    An Overview Of The United States Intelligence Community--2007, 
which was prepared by the Office of the Director of National 
Intelligence, states that ``DEA/NN's membership in the Community helps 
optimize the overall U.S. government counter narcotics interdiction and 
security effort and furthers creative collaboration between the many 
organizations involved in countering the threats from narcotics 
trafficking, human smuggling/trafficking, immigration crimes, and 
global terrorism.'' Furthermore, based on available intelligence, there 
is clear evidence that drug profits are being used to facilitate acts 
of terrorism and violence. These acts undermine democratic governance 
and respect for the rule of law, as well as destabilize regional 
security in countries such as Afghanistan, Colombia, Mexico, Venezuela, 
and the tri-border area.
    The DEA and the IC have a long history of collaborating for 
purposes of identifying and disrupting illegal drug trafficking. The 
Counterterrorism and Intelligence Sharing Initiative would bolster 
those collaborations, allow DEA to enhance its classified information 
technology (IT) infrastructure, provide start-up funding and positions 
for studying and analyzing emerging as well as established coca and 
opium poppy growing regions, and provide resources for DEA to continue 
its participation in Justice's anti-gang activities.
    Some specifics.--$6 million would ensure that DEA's classified IT 
backbone, MERLIN, would be upgraded in every DEA office every four 
years. Regularly scheduled upgrades would make certain that DEA's IC 
component has the secure communications infrastructure that is critical 
to communicating classified IC requests to both domestic and foreign 
DEA field offices. Presently, DEA is in a precarious situation as it 
relates to the continued viability of MERLIN. In previous years, 
requests for operations and maintenance enhancement funding have been 
denied; with the result that much of our MERLIN equipment is five or 
six years old and in danger of serious failure. If we are to meet our 
IC commitments and exploit our intelligence capabilities against 
transnational threats, DEA must have an infrastructure that makes that 
possible. Six positions and $950,000 are requested to study regions of 
the world where coca and poppy are grown to determine the amount of 
finished cocaine and heroin that can be produced from a given quantity 
of plant material. Finally, one position and $204,000 is requested so 
DEA may assign one Special Agent to the Department's National Gang 
Targeting, Enforcement, and Coordination Center, which takes part in 
and coordinates investigations and prosecutions, and develops 
enforcement and prevention strategies to combat gang violence in this 
country.
Online Investigations Initiative ($3 million)
    Drug traffickers are increasingly turning to the Internet to widen 
their reach and strengthen their criminal enterprises. State-of-the-art 
Internet investigative technologies are an essential tool if DEA is to 
attack the command and control communications of organizations, 
particularly those that operate across jurisdictional boundaries at the 
regional, national, and international levels. To achieve our 
objectives, DEA must acquire tailored Internet intercept solutions, 
arrange for permanent Internet connectivity between DEA's field 
divisions and the major Internet Service Providers, and purchase needed 
hardware for computer forensics purposes. With these purchases, DEA 
could greatly improve the quality, effectiveness, and timeliness of our 
investigations of these traffickers.
    Some specifics.--$1 million would be used to develop intercept 
solutions to counter traffickers who use Yahoo, Hotmail and other 
electronic mail accounts, as well as advanced Internet communications, 
wireless handheld devices, instant messaging services, and encrypted 
electronic mail. $1.5 million is requested to connect DEA field 
divisions to major Internet Service Providers by means of a secure, 
dedicated network. The total cost for these connections is $3 million, 
half of which is requested under the Salaries and Expenses Account and 
half would be covered by Diversion Control Fee Account to step up our 
investigations of illegal online pharmacies. Finally, DEA is requesting 
$520,000 to purchase computer hardware that is designed to aid forensic 
professionals with recovering and examining data more quickly and from 
numerous electronic devices.
Diversion and Control Fee Account (DCFA)
    DEA's fiscal year 2008 request includes $239 million under the 
DCFA, a $27.1 million increase over fiscal year 2007.
    Prescription drugs are diverted for abuse through doctors, 
pharmacies, thefts and robberies from manufacturers and distributors, 
and illegal Internet distributors. Throughout the United States, the 
non-medical use of prescription drugs continues at alarming rates. The 
2005 National Survey on Drug Use and Health, released in September 2006 
by SAMHSA, reports that an estimated 6.4 million Americans abuse 
prescription drugs, compared to 3.8 million in 2000--a 68 percent 
increase over five years. Furthermore, they are the second most abused 
type of drugs--behind only marijuana. Particularly troubling is the 
data showing that nearly one out of every ten high school seniors 
abuses dangerous painkillers. Fueling this increase is the 
proliferation of illicit websites that make it possible, with one 
simple click, to purchase controlled substances. Furthermore, buying a 
medicinal product through an illegal Internet pharmacy exposes 
individuals who make these purchases to serious health risks.
    DEA is actively pursuing those who divert pharmaceutical controlled 
substances. On the Internet and non-Internet sides combined, DEA 
initiated 1,840 criminal, complaint, and regulatory pharmaceutical 
investigations in fiscal year 2006. 857 of those investigations 
targeted Schedule III-V pharmaceutical controlled substances, and 237 
investigations targeted Schedule II pharmaceuticals. Between fiscal 
year 2004 and fiscal year 2006, DEA seized $55 million in cash, bank 
accounts, property, and computers in the course of its investigations, 
compared to $2.5 million in fiscal year 2003. While we are pleased with 
our progress, it is imperative that DEA enhance its enforcement work in 
an area that poses such an immediate public safety threat.
    Some specifics of our DCFA request.--DEA is requesting $766,000 and 
seven positions to provide much-needed investigative support for our 
computer forensics teams. We estimate that online diversion cases will 
increase the workload of DEA attorneys assigned to these cases by 75 
percent for the foreseeable future, and to prepare for this, DEA 
requests $495,000 and five attorney positions. DEA is requesting 
$337,000 and two positions (one Special Agent and one Diversion 
Investigator) to work with the Customs and Border Patrol in Long Beach, 
California to identify shipments of precursor chemicals from source 
countries that are destined for Mexico. Additionally, we are requesting 
$474,000 and one position (Foreign Diversion Investigator) to support 
existing DEA investigations in Panama City, Panama involving the 
smuggling of precursors moving through Panama. Finally, DEA has 
proposed that a new hybrid job series be established which contains the 
specialized diversion investigator requirements as well as full law 
enforcement authorities. The proposal, with an associated cost of $11.5 
million, is now under review by the Office of Personnel Management 
(OPM). Current employees who are interested and eligible may apply. 
Those who do not apply will continue to perform compliance functions. 
Through attrition, we will arrive at the appropriate number of 
diversion investigators to sustain the compliance function. With OPM 
approval of the proposal, DEA will begin the conversion in fiscal year 
2007.
Program Offsets
    Included in the President's budget is one funding offset proposal: 
the elimination of the MET program (Mobile Enforcement Teams). This 
offset would achieve savings of $20.6 million in fiscal year 2008.
    Over the years, DEA has valued each and every opportunity to 
support state and local law enforcement organizations as they combat 
drug-related violent crimes in our nation's cities and towns. 
Furthermore, as many of you know from experience in your own 
communities, our partnerships have yielded positive, and I hope, 
lasting results. At the same time, greater overall results are achieved 
when our focus is on targeting the drug trafficking organizations whose 
activities have the most significant impact on the drug problem in the 
United States as a whole.
    While DEA's field divisions will no longer deploy MET teams to 
local jurisdictions when we receive a deployment request, we will 
continue to provide law enforcement assistance to them whenever 
possible, including our vigorous training programs for state and local 
law enforcement officers. In fiscal year 2006, DEA trained more than 
41,000 officers. Also, during fiscal year 2006, DEA led over 200 State 
and Local Task Forces, with an on board strength of 1,600 Special 
Agents and 2,100 Task Force Officers.
                               conclusion
    In closing, let me reiterate that DEA works very hard to manage its 
resources and finances wisely and efficiently. Nevertheless, as our 
base budget has gradually eroded over time due to pay raise 
absorptions, rescissions and program reductions, we have been unable to 
maintain adequately our infrastructure or agent and support staffing at 
their previous levels. This has put us at an enforcement disadvantage. 
We must regain our financial footing. We must have the ability to 
sharpen and expand the enforcement tools and techniques that have 
helped us establish our drug enforcement leadership role. The budget 
before you today sets us on the path to regain that footing.
    Madam Chairman and Members of the Subcommittee let me assure you 
that although we are experiencing fiscal challenges, we at DEA never 
waver in our firm commitment to public service and public safety.
    This concludes my remarks. I would now be happy to answer any 
questions you or the other Members of the Committee may have.
    attachment--drug threats and enforcement challenges--april 2007
                   drug threats to the united states
Methamphetamine
    Methamphetamine is the most widely abused and most frequently 
clandestinely produced synthetic drug \1\ in the United States. 
Methamphetamine appeals to people across all genders, ages, and socio-
economic levels. Methamphetamine has a high rate of addiction, a low 
rate of sustained recovery, and is cheap to manufacture. It devastates 
users, their families, and local communities. According to the 2005 
National Survey on Drug Use and Health (NSDUH), 512,000 persons 12 and 
older used methamphetamine during the past 30 days (an eighteen percent 
decrease from 2003) and 1.3 million have used it in the past year, 
virtually the same number as in 2003. The estimated number of past year 
methamphetamine users is nearly three and one-half times the number of 
estimated past year heroin users. In fiscal year 2006, DEA domestic 
seizures of methamphetamine totaled 2.1 metric tons. Super lab seizures 
in the United States were reduced by 86 percent through increased 
enforcement efforts, from 244 in calendar year (CY) 2001 to 35 in CY 
2005. The total number of clandestine methamphetamine laboratories 
seized nationally also decreased, from 10,212 in CY 2003 (the highest 
total from 2001 to 2005) to 5,840 in CY 2005 (43 percent). Of the 2,134 
clandestine methamphetamine laboratories seized nationally so far in CY 
2006, only 17 are classified as ``super labs.'' Seizures of 
methamphetamine along the Southwest Border of the United States and 
Mexico have increased 129 percent, from 1,170 kilograms in CY 2001 to 
2,679 kilograms in CY 2005.
---------------------------------------------------------------------------
    \1\ The term ``synthetic drugs'' refers to controlled substances 
such as methamphetamine, MDMA ``ecstasy'' (and its analogues), GHB (and 
its analogues), ketamine, and other substances, which are not of 
primarily organic origin and are usually associated with clandestine 
manufacture.
---------------------------------------------------------------------------
    By effectively targeting and arresting the main suppliers of bulk 
precursor chemicals, DEA has successfully reduced the number of super 
labs \2\ in the United States. As a consequence, operators of super 
labs have shifted their production to Mexico. Current drug and lab 
seizure data suggests that approximately 80 percent of the 
methamphetamine used in the United States originates from larger 
laboratories operated by Mexican-based syndicates on both sides of the 
border, and that approximately 20 percent of the methamphetamine 
consumed comes from small toxic labs (STLs) in the United States. STLs 
generally are unaffiliated with major drug trafficking organizations, 
but nevertheless present enormous environmental challenges. In recent 
years, the proliferation of STLs has been fueled by the ready 
availability of pseudoephedrine, the key ingredient in methamphetamine 
and by the fact that the manufacturing process is simple, inexpensive, 
and recipes can be found easily on the Internet. Super lab seizures in 
the United States declined by 86 percent through increased enforcement 
efforts, from 244 in calendar year (CY) 2001 to 35 in CY 2005. The 
total number of clandestine methamphetamine laboratories seized 
nationally also decreased, from 10,212 in CY 2003 (the highest total 
from 2001 to 2005) to 5,840 in CY 2005 (43 percent). Of the 2,134 
clandestine methamphetamine laboratories seized nationally so far in CY 
2006, only 17 are classified as ``super labs.''
---------------------------------------------------------------------------
    \2\ ``Super labs'' are those labs that are capable of producing at 
least 10 pounds of methamphetamine per cycle.
---------------------------------------------------------------------------
    The most promising means of eliminating STLs is to cut off their 
supply of ephedrine and pseudoephedrine. DEA has removed a number of 
distributors of grey market drug products (those that can be purchased 
at truck stops, party/liquor stores, etc.) from the marketplace. 
Following DEA's success with removing grey market distributors, STLs 
have become heavily reliant on obtaining precursor chemicals from cold 
and asthma drug products (usually packaged in blister packs) from 
traditional retail outlets, such as chain drug stores. Based on 
clandestine lab seizure statistics, those states restricting the 
availability of methamphetamine precursor chemicals, like 
pseudoephedrine, have seen a dramatic decrease in the number of STLs. 
Implementing the Combat Methamphetamine Epidemic Act of 2005 will 
further help reduce the number of STLs as it makes pseudoephedrine and 
ephedrine more difficult to obtain.
    DEA Operational Highlight--August 2006.--DEA arrested 28 members of 
two separate cocaine trafficking organizations which were 
simultaneously distributing methamphetamine in Henderson and Caldwell 
Counties, North Carolina. The arrests concluded ten-month and 15-month 
Organized Crime and Drug Enforcement Task Force (OCDETF) investigations 
that resulted in the dismantlement of the Juan LOPEZ and the Lewis 
CASAS methamphetamine trafficking organizations. The two organizations 
were responsible for the distribution of five kilograms of 
methamphetamine per month in the western part of North Carolina. To 
date, these two OCDETF investigations have resulted in 47 arrests, 
including LOPEZ and CASAS, 37 repeat offenders, and the seizure of more 
than one kilogram of methamphetamine, approximately $50,000 U.S. 
currency, and six weapons.
    DEA Operational Highlight--May 2006.--DEA and the FBI arrested 27 
individuals, resulting in the dismantlement of two crystal 
methamphetamine trafficking organizations. During the past ten years, 
the Rafael RAMIREZ organization was responsible for the distribution of 
approximately 100 pounds of crystal methamphetamine on a monthly basis 
from Mexico to the San Francisco area. The RAMIREZ organization 
supplied methamphetamine to the Kasi POHAHAU organization which, during 
the past ten years, was responsible for the distribution of more than 
50 pounds of crystal methamphetamine from San Francisco to Hawaii. This 
three-year OCDETF investigation has resulted in the arrest of 37 
individuals, including RAMIREZ and POHAHAU, and the seizure of 42 
pounds of crystal methamphetamine, 52 kilograms of cocaine, and $1.4 
million in U.S. currency.
Non-medical use of prescription drugs
    Non-medical use of addictive prescription drugs has been increasing 
throughout the United States at alarming rates. In CY 2005, an 
estimated 6.4 million \3\ Americans age 12 and older reported past 
month use of prescription drugs for non-medical purposes compared to 
3.8 million in CY 2000 \4\--a 68 percent increase in 5 years. 
Nationally, the misuse of prescription drugs was second only to 
marijuana in CY 2005.
---------------------------------------------------------------------------
    \3\ U.S. Department of Health and Human Services, Substance Abuse 
and Mental Health Services Administration. (2006). Results from the 
2005 National Survey on Drug Use and Health.
    \4\ U.S. Department of Health and Human Services, Substance Abuse 
and Mental Health Services Administration. (2002). National Household 
Survey on Drug Abuse: Vol 1. Summary of National Findings.
---------------------------------------------------------------------------
    Individual users can easily acquire prescription drugs through a 
variety of means, generally dependent on the type of drug. DEA and 
other data sources reveal that OxyContin and other Schedule II drugs 
are most commonly obtained illegally through ``doctor shopping'' or are 
sold illegally by registrants (e.g., doctors/pharmacists). On the other 
hand, Schedule III and Schedule IV drugs (e.g., anti-anxiety 
medications, hydrocodone, and anabolic steroids) are often purchased 
through the Internet. Many of these pharmacies are foreign-based and 
expose the purchaser to potentially counterfeit, contaminated, or 
adulterated products.
    DEA targets its investigations on domestic Internet pharmacies 
using data from available data bases, such as the Automated Reporting 
of Completed Orders System (ARCOS), to determine which retail 
pharmacies are most likely involved in distribution of large quantities 
of controlled substances over the Internet. In fiscal year 2006, 14.7 
percent of investigative work hours dedicated to open diversion cases 
were Internet cases. This is an increase of 27.9 percent from fiscal 
year 2005 when Internet cases represented 11.3 percent of the 
investigative work hours dedicated to open diversion cases, and an 
increase of 50 percent from fiscal year 2004 when 8.8 percent of case 
work hours were for Internet cases.
    During fiscal year 2006, DEA has initiated over 218 investigations 
of online sales of controlled pharmaceuticals without a prescription. 
As a result of Internet investigations, DEA seized approximately $4.9 
million in cash, bank accounts, property, and computers during fiscal 
year 2006.
    In fiscal year 2004, DEA established a specialized section within 
its Special Operations Division (SOD) to coordinate multi-
jurisdictional Title III investigations involving the diversion of 
pharmaceuticals and chemicals over the Internet. During fiscal year 
2006, DEA has coordinated over 90 Internet investigations, resulting in 
the arrest of approximately 128 individuals and the seizure of 
approximately 14 million dosage units of controlled substances and 
approximately $52.6 million in U.S. currency.
    In 2006, DEA continued to enhance the Online Investigations Project 
(OIP), which improves DEA's ability to systematically identify, 
investigate, and prosecute the owners and operators of rogue pharmacies 
using the Internet to divert controlled substances. During fiscal year 
2006, the OIP Configuration Control Board authorized the release of 71 
change request items. These improvements made significant changes to 
the functionality of the OIP system, which enabled Diversion Staff 
Coordinators assigned to Intelligence to provide effective, ongoing 
support of significant Internet investigations. The system has also 
been utilized to provide pertinent Internet data in furtherance of 
ongoing Internet investigations in the field, as well as to provide new 
tips and leads. Since the inception of the OIP Web-Check process in 
March 2005, Web-Checks were performed on 2,425 web sites and e-mail 
addresses as a result of 455 requests.
    DEA Operational Highlight--January 2007.--DEA arrested four 
individuals, resulting in the dismantlement of the Andrew RUSSO 
internet pharmaceutical drug trafficking organization. The RUSSO 
organization used illicit internet websites to sell controlled 
substances directly to consumers without a physician's medical 
evaluation. From July to December 2005, the RUSSO organization 
distributed over one million tablets of alprazolam, and six million 
tablets of phentermine through its two internet pharmacies, United Care 
Pharmacy and Kwic-Fill. In addition to the arrests, this 20-month 
Priority Target Organization (PTO) investigation has resulted in the 
seizure of $2,000,415 in U.S. currency, 11 vehicles valued at $700,000, 
and the possible forfeiture of real estate valued at $1.5 million.
    DEA Operational Highlight--December 2006.--DEA arrested seven 
individuals, resulting in the dismantlement of the Antonio QUINONES 
internet pharmaceutical drug trafficking organization. The QUINONES 
organization used illicit internet websites to sell controlled 
substances directly to consumers without a physician's medical 
evaluation. During the past two years, the QUINONES organization 
shipped more than one million dosage units of Vicodin and amphetamines 
per month from Miami, Florida, to locations throughout the United 
States. In addition to the arrests, this one-year OCDETF investigation 
has resulted in the seizure of $935,000 in U.S. currency, real estate 
valued at $4.2 million, two vehicles valued at $350,000, a watercraft 
valued at $650,000, and two firearms. The DEA conducted this 
investigation with the Internal Revenue Service and the U.S. Marshals 
Service.
            Cocaine
    Cocaine remains a major illegal drug of concern throughout the 
United States based upon abuse indicators, violence associated with the 
trade, and trafficking volume. After marijuana, cocaine continues to be 
the most widely used illicit drug among all age categories. The 2005 
National Survey on Drug Use and Health (NSDUH) found that 2.4 million 
Americans used cocaine within the past 30 days and that over 5.5 
million Americans used it within the past year. According to the 2004 
Drug Abuse Warning Network (DAWN) report, cocaine is the most 
frequently reported illegal drug in hospital emergency room visits, 
accounting for 1 in 5 (19 percent) drug related emergency room visits 
in CY 2004.\5\
---------------------------------------------------------------------------
    \5\ U.S. Department of Health and Human Services, Substance Abuse 
and Mental Health Services Administration. Detailed Emergency 
Department Tables from DAWN: 2004. April 2006.
---------------------------------------------------------------------------
    Although Colombia is the principal source of cocaine distributed in 
the United States, most of the wholesale cocaine distribution in the 
United States is controlled by Mexican drug trafficking organizations 
and criminal enterprises. Even in areas dominated by Colombian and 
Dominican drug trafficking organizations, such as the Northeast and 
Caribbean regions, the influence of Mexican drug trafficking 
organizations is increasing.
    DEA Operational Highlight--September 2006.--Consolidated Priority 
Organization Targets (CPOTs) Miguel and Gilberto RODRIGUEZ-OREJUELA 
pled guilty in U.S. District Court for the Southern District of Florida 
to conspiracy to import cocaine, and agreed to plead guilty in the 
Southern District of New York to conspiracy to commit money laundering. 
Each brother was sentenced to thirty years in prison. The brothers also 
agreed to the entry of a $2.1 billion judgment of forfeiture, and the 
forfeiture of 287 properties. Twenty-eight family members have also 
agreed to these forfeitures. The RODRIGUEZ-OREJUELA brothers ran the 
Cali Cartel in Colombia, and since 1990 imported and distributed more 
than 200,000 kilograms of cocaine from Colombia to the United States.
    DEA Operational Highlight--May 2006.--The Brazilian Federal Police 
arrested CPOT Pablo RAYO Montano in Sao Paulo, Brazil, and in an 
operation coordinated by DEA, law enforcement teams in four U.S. cities 
and five foreign countries arrested 52 individuals, resulting in the 
dismantlement of the RAYO Montano cocaine trafficking organization. 
RAYO Montano started in the narcotics business as a transporter in 
Buenaventura, Colombia approximately 20 years ago. In the last four 
years alone, the RAYO Montano organization has been responsible for the 
transportation of 15 tons of cocaine per month from South America to 
the United States and Europe. RAYO Montano has been linked to the 
notorious Norte del Valle Cartel, the Autodefensas Unidas de Colombia 
(AUC) paramilitary organization, the Fuerzas Armadas Revolucionarias de 
Colombia (FARC) terrorist organization, and corrupt high-level 
officials in the Colombian government. On February 22 and March 3, 
2006, federal grand juries in the District of Columbia and the Southern 
District of Florida, respectively, indicted RAYO Montano on money 
laundering and cocaine trafficking charges. The indictments were the 
result of Operation Twin Oceans, a three-year OCDETF investigation 
supported by the DEA Special Operations Division. Operation Twin Oceans 
has resulted in 138 arrests and the seizure of 47,550 kilograms of 
cocaine, 700 pounds of marijuana, ten kilograms of heroin, $1.6 million 
in U.S. currency, and other assets with a total estimated value of $47 
million, including three islands near the coast of Panama.
            Heroin
    The overall demand for heroin in the United States is lower than 
for other major drugs of abuse such as cocaine, marijuana, and 
methamphetamine.\6\ However, one cause for concern is the recent 
increase in heroin usage. According to the 2005 NSDUH, 379,000 people 
aged 12 and older reported using heroin during the past 30 days in CY 
2005; a slight decrease from 398,000 in CY 2004.\7\ Heroin remains 
readily available in major metropolitan areas and is the third most 
frequently mentioned illegal drug reported to DAWN by participating 
emergency departments after cocaine and marijuana, accounting for 
162,137 mentions in CY 2004.\8\
---------------------------------------------------------------------------
    \6\ U.S. Department of Health and Human Services, Substance Abuse 
and Mental Health Services Administration. (2006). Results from the 
2005 National Survey on Drug Use and Health.
    \7\ Ibid.
    \8\ U.S. Department of Health and Human Services, Substance Abuse 
and Mental Health Services Administration. Detailed Emergency 
Department Tables from DAWN: 2004. April 2006.
---------------------------------------------------------------------------
    Most of the heroin entering the United States is produced in South 
America and Mexico. Although heroin production in these areas has 
decreased in recent years, the production capacity remains sufficient 
to meet U.S. demand for the drug.\9\ In 2004, Afghanistan produced more 
than 90 percent of the world's heroin supply.\10\ However, Afghanistan 
is not currently a major heroin supplier to the United States; only 
about eight percent of the U.S. supply comes from that country. The 
majority of the heroin entering the United States is produced in 
Colombia and Mexico.
---------------------------------------------------------------------------
    \9\ U.S. Department of Justice, National Drug Intelligence Center. 
(2006). 2006 National Drug Threat Assessment.
    \10\ Ibid.
---------------------------------------------------------------------------
    DEA Operational Highlight--November 2006.--DEA arrested seven 
individuals, resulting in the dismantlement of the Shakur MUHAMMAD 
heroin trafficking organization. This organization distributed 
fentanyl-laced heroin, brand named ``Get High or Die Trying'' and 
``Burn Out,'' which was directly responsible for six deaths and 27 
overdoses. During the past two years, the MUHAMMAD organization 
distributed over three kilograms of heroin per month in the Pittsburgh, 
Pennsylvania area. This six-month OCDETF investigation has resulted in 
the arrest of nine individuals, including MUHAMMAD, and the seizure of 
one kilogram of heroin and two firearms.
    DEA Operational Highlight--June 2006.--DEA arrested 12 individuals 
in Las Vegas, Nevada, Palm Springs, California, Caguas, Puerto Rico, 
and New York City, resulting in the dismantlement of the Javier MONROY 
heroin trafficking organization. Since 2004, the MONROY organization 
has been responsible for importing more than 200 kilograms of heroin 
into the United States. MONROY is a former Bogota, Colombia police 
officer. The MONROY organization used couriers to smuggle heroin from 
several foreign countries, including Ecuador, Venezuela, Trinidad and 
Tobago, Colombia, Brazil, and Mexico, to New York for distribution. The 
organization employed more than a dozen drug couriers, many of whom 
made multiple drug trips and most of whom were based in the Las Vegas 
area. Typically, the drug couriers smuggled between three to five 
kilograms of heroin per trip concealed within the lining of clothes. To 
date, this ten-month OCDETF investigation has resulted in the arrest of 
22 individuals, including MONROY, and the seizure of 28 kilograms of 
heroin and $220,000 in U.S. currency.
            Marijuana
    Marijuana continues to be a significant threat. The 2005 NSDUH 
found that marijuana was the most commonly used illicit drug with 14.6 
million users (6.1 percent of the population 12 and older) during the 
past month in CY 2004--the same as in CY 2003.\11\ More teens seek 
treatment for marijuana dependency than for all other drugs combined 
including alcohol, and marijuana was involved in 215,665 emergency 
department visits \12\ in CY 2004, second only to cocaine among drug-
related visits.\13\
---------------------------------------------------------------------------
    \11\ U.S. Department of Health and Human Services, Substance Abuse 
and Mental Health Services Administration. (2006). Results from the 
2005 National Survey on Drug Use and Health.
    \12\ A visit to the emergency room is referred to as an episode, 
and every time a drug is involved in an episode it is counted as a 
mention.
    \13\ U.S. Department of Health and Human Services, Substance Abuse 
and Mental Health Services Administration. Detailed Emergency 
Department Tables from DAWN: 2004. April 2006.
---------------------------------------------------------------------------
    Marijuana trafficking is prevalent across the nation, with both 
domestic and foreign sources of supply. The most recent supply 
availability estimates indicate that between 10,000 and 24,000 pure 
metric tons of marijuana are available in the United States,\14\ and 
that Americans spend more than $10.4 billion every year on 
marijuana.\15\ Since the demand for marijuana far exceeds that for any 
other illegal drug and the profit potential is so high, some cocaine 
and heroin drug trafficking organizations traffic marijuana to help 
finance their other drug operations.
---------------------------------------------------------------------------
    \14\ Drug Availability Steering Committee, Drug Availability 
Estimates in the United States, December 2002.
    \15\ Executive Office of the President, Office of National Drug 
Control Policy. What Americans Spend on Illegal Drugs 1988-1998. 
December 2000.
---------------------------------------------------------------------------
    Mexican drug trafficking organizations dominate the transportation 
and wholesale distribution of the majority of foreign-based marijuana 
available in the United States and cultivate marijuana on U.S. public 
lands throughout California. High grade marijuana from Canada, commonly 
referred to as ``BC Bud,'' is also available in every region of the 
United States.
    DEA Operational Highlight--December 2006.--DEA arrested two 
individuals, resulting in the dismantlement of the Shon SQUIRE 
marijuana trafficking organization. During the past 18 months, the 
SQUIRE organization distributed 300 pounds of marijuana per month 
through its store, the Local Patient Cooperative, which was granted a 
permit to operate as a medical dispensary by the city of Hayward, 
California. The store serviced 200 customers per day, purchasing 
marijuana at $4,000 per pound and selling it at $6,500 per pound, in 
various products and quantities, for a gross profit of $750,000 per 
month. In addition to the arrests, this one-year investigation resulted 
in the seizure of 725 marijuana plants, $2 million in U.S. currency, 
five luxury vehicles and five firearms.
    DEA Operational Highlight--September 2006.--DEA arrested 30 
individuals, resulting in the dismantlement of the Manuel CARO 
marijuana trafficking organization. During the past 18 months, the CARO 
organization distributed 1,000 pounds of marijuana per month in 
Florida, New Jersey and New York. To date, this six-month OCDETF 
investigation has resulted in the arrest of 60 individuals, including 
CARO, and the seizure of 4,000 pounds of marijuana, $170,000 in U.S. 
currency, and a large amount of sophisticated indoor hydroponic grow 
equipment. Additionally, sixty residential properties are being 
reviewed for possible forfeiture action.
Enforcement Challenges
            Transit Zones
    The Southwest Border area is the principal arrival zone for most 
illicit drugs smuggled into the United States. From that area, the 
smuggled drugs are distributed throughout the country.
    Most cocaine is transported from South America, particularly 
Colombia, through the Mexico-Central America Corridor via the Eastern 
Pacific transit zone (50 percent) and the Western Caribbean zone (40 
percent). Most of the cocaine transiting these two areas is ultimately 
smuggled into the country via the Southwest Border. The remaining 10 
percent of cocaine transported from South America mostly transits the 
Caribbean zones to Florida and the Gulf Coast.
    According to the 2006 National Drug Threat Assessment, 
methamphetamine seizures increased from 1.12 metric tons in CY 2002, to 
1.73 metric tons in CY 2003, to 1.98 metric tons in CY 2004. Most of 
the foreign-produced marijuana available in the United States is 
smuggled into the country from Mexico via the Southwest Border by 
Mexican drug trafficking organizations and criminal groups, as 
evidenced by CY 2004 seizures of 1,103 metric tons on the Southwest 
Border versus 9.2 metric tons on the Northern Border.
    In CY 2004, seizures for Southwest Border points of entry included 
22.4 metric tons of cocaine, 388 kilograms of heroin, 1,070 metric tons 
of marijuana, and 2.3 metric tons of methamphetamine. By comparison, 
seizures in the Florida/Caribbean arrival zone for the same time period 
included 10.5 metric tons of cocaine, 481 kilograms of heroin, 4.9 
metric tons of marijuana and no methamphetamine.
    DEA Operational Highlight--August 2005 through October 2005.--DEA 
oversaw Operation All Inclusive (OAI) 2005-1, the first initiative 
under the DEA-developed, multi-agency International Drug Flow 
Prevention Strategy. This strategy is designed to cause major 
disruption to the flow of drugs, money, and chemicals between source 
zones and the United States through the execution of joint enforcement 
operations that attack the main arteries and support infrastructure 
nodes of the drug trade. OAI 2005-1 focused on a predictive 
intelligence-based attack of the maritime, land, financial, and air 
smuggling vulnerabilities of drug trafficking organizations operating 
within the Mexico/Central America corridor. OAI 2005-1's success 
included nearly 47 metric tons of cocaine seized, which equates to 5 to 
10 percent of the estimated quantity of cocaine that was transported 
through the transit zones to the United States during all of 2005. 
Additionally, during the 65-day period of the operation, total cocaine 
seizures in the Mexico/Central American and Caribbean Corridors 
increased 119 percent compared to the 65-day period preceding the 
operation, from 36 metric tons to 79 metric tons. At the same time, 
cocaine seizures by DEA domestic offices decreased 29 percent compared 
to the 65-day period prior to the operation, from 31,789 kilograms to 
22,669 kilograms. Further, as a result of the operation, drug 
trafficking organizations were forced to delay or suspend their drug 
operations, divert their routes, change their modes of transportation, 
and jettison loads. Other results include 346 arrests and additional 
seizures of 88.56 kilograms of heroin, 26.28 metric tons of marijuana, 
990,200 tablets of pseudoephedrine, $16 million in currency, and 104 
weapons.
    DEA Operational Highlight--March 2006 through April 2006.--Building 
upon some of the lessons learned from OAI 2005-1, the second initiative 
under the highly effective International Drug Flow Prevention Strategy, 
OAI 2006-1, was conducted. OAI 2006-1 was comprised of a combination of 
staggered and simultaneous land, air, maritime, and financial attacks 
involving synchronized interagency counter drug operations designed to 
influence illicit trafficking patterns and increase disruptions of drug 
trafficking organizations. Some of the successes for OAI 2006-1 include 
over 130 arrests and the seizure of 43.77 metric tons of cocaine; 19.65 
metric tons of marijuana; 83.6 kilograms of heroin; 92.6 metric tons of 
precursor chemicals; and $4,079,894 U.S. currency. During the course of 
both OAI initiatives, DEA was able to determine through intelligence 
sources that traffickers postponed or canceled their operations, 
modified their methods of conveyance, varied smuggling routes, and 
jettisoned loads as a result of enforcement efforts.
            Gangs
    Gangs have become an increasing and pervasive threat to our 
nation's security and the safety of our communities. Seventy-five 
percent of the United States Attorneys report that parts of their 
districts currently have a moderate or significant gang problem. Gangs 
commonly use drug trafficking as a means to finance their criminal 
activities. Furthermore, many have evolved from turf-oriented entities 
to profit-driven, organized criminal enterprises whose activities 
include not only retail drug distribution but also other aspects of the 
trade, including smuggling, transportation and wholesale distribution.
    Criminal street gangs, outlaw motorcycle gangs, and prison gangs 
are the primary retail distributors of illegal drugs on the streets of 
the United States and the threat of these gangs is magnified by the 
high level of violence associated with their attempts to control and 
expand drug distribution operations. Gangs primarily transport and 
distribute cocaine, heroin, marijuana, and methamphetamine. Authorities 
throughout the country report that gangs are responsible for most of 
the serious violent crime in the major cities of the United States.
    DEA is committed to combating the gang problem within the United 
States. The agency targets gang drug trafficking activity through 
participation in a number of anti-gang initiatives with other law 
enforcement components, such as Violent Crime Impact Teams, Project 
Safe Neighborhoods, Weed and Seed Program, Safe Streets and Safe Trails 
Task Forces and the Attorney General's Anti-Gang Coordination 
Committee. In 2006, DEA targeted violent drug gangs, such as the Hell's 
Angels, Latin Kings, Bloods, Gangster Disciples, and Crips. Through 
state and local partnerships, DEA is able to target violent drug 
trafficking organizations in areas where state, local, and tribal law 
enforcement is challenged. In fiscal year 2006, DEA initiated 31 
deployments to state and local jurisdictions. Of these, nine (29 
percent) were gang related. Additionally, 6 percent (117) of DEA's 
total active PTO investigations (2,113) were gang-involved. There was a 
36 percent increase in active PTO cases involving gangs (from 86 in 
fiscal year 2005 to 117 in fiscal year 2006); 57 percent increase in 
cases initiated (from 56 in fiscal year 2005 to 88 in fiscal year 
2006); 120 percent increase in PTOs disrupted (from 10 in fiscal year 
2005 to 22 in fiscal year 2006); and 57 percent increase in PTOs 
dismantled (from 23 in fiscal year 2005 to 36 in fiscal year 2006).
    DEA Operational Highlight--February 2007.--DEA arrested 47 
individuals, resulting in the disruption of the Laton Spurgeon crack 
cocaine and heroin trafficking organization. Since August 2005, the 
Spurgeon organization distributed one kilogram of crack cocaine and six 
ounces of heroin per month at the Hamel Housing Projects, a New York 
City Housing Authority complex in Queens, New York. Sixteen of the 
defendants were charged with at least one count of selling drugs within 
a drug-free school zone. In addition to the arrests, this four-month 
PTO investigation resulted in the seizure of two firearms.
    DEA Operational Highlight--May 2006.--DEA arrested 23 individuals, 
resulting in the dismantlement of the Winfred Lorenzo HUNT and Carlton 
POTTS crack cocaine trafficking organization. During the past three 
years, the HUNT/POTTS organization was responsible for the distribution 
of 8-12 kilograms of cocaine per month in Palm Beach County, Florida. 
HUNT has been arrested 27 times previously and charged with several 
violent crimes, including attempted murder. POTTS' record includes 30 
prior arrests on charges such as battery on a police officer, 
aggravated assault, and attempted murder. Among those arrested was an 
employee of the Palm Beach State Attorney's Office who utilized her 
position to provide law enforcement information to the HUNT/POTTS 
organization. To date, this 15-month OCDETF investigation has resulted 
in the arrest of 53 individuals, including HUNT and POTTS, and the 
seizure of more than one kilogram of crack cocaine and two kilograms of 
powder cocaine, $172,000 in U.S. currency, and eight handguns.

                     United States Marshals Service

STATEMENT OF JOHN F. CLARK, DIRECTOR
    Mr. Clark. Thank you Madam Chairman, Ranking Member Shelby, 
and members of the subcommittee. As a career deputy U.S. 
marshal, I consider it a privilege and an honor to serve as the 
ninth Director of America's oldest law enforcement agency.
    We appreciate your support of the Marshals Service and our 
programs and, thanks to the funding you have provided over the 
years together with the work of the dedicated men and women of 
the Marshals Service, we have made a significant impact on 
reducing violent crime, protecting the judiciary, and securing 
thousands of prisoners who are in our custody.
    Our fiscal year 2008 budget request addresses the Marshals 
Services' highest priority needs. In total, we are requesting 
140 additional positions and just over $25 million. These 
resources will be used to maintain the security of our judicial 
system, to handle the increased court and prisoner workload in 
the Southwest border region, and to make our streets safer for 
children.
    Protection of the judicial process remains the primary 
mission of the United States Marshals Service and deputy 
marshals protect over 2,000 Federal judges, over 5,000 U.S. and 
assistant U.S. attorneys, and many Federal employees who work 
within our courthouses. Last year, the Marshals Service safely 
handled over 200 personal protection details for Federal judges 
and Supreme Court justices and investigated more than 1,100 
judicial threats.
    However, in recent times, we have seen very violent acts 
committed against the judiciary, some resulting in death. Just 
last month a suspect pled guilty to mailing an actual explosive 
device to the courthouse in Richmond, Virginia. It was court 
security officers who discovered and dealt with both the 
explosive device and its contents, a powdery substance labeled 
as anthrax.
    Also last month, a Houston man began making numerous 
telephone calls to the chambers of a Federal judge. The man 
would not accept that his case had been dismissed and became 
angry and threatening toward the judge. After fully 
investigating the situation, deputy U.S. marshals and local 
police determined the man was a danger to himself and others. 
He was brought before a magistrate judge and, through 
psychiatric evaluation, was ordered help.
    In the last 10 years, the number of reported threats has 
increased 553 percent. To strengthen our ability to analyze and 
investigate threats against the judiciary and to adequately 
provide judicial and courtroom security, we're requesting 16 
positions and $5.3 million. The Marshals Service must maintain 
a secure courtroom environment especially when trials involve 
high profile and high threat defendants.
    Right now, there are 20 high threat trials going on in 
courtrooms throughout the country, involving defendants such as 
the Aryan Brotherhood, the Russian mafia, and the MS-13 gang. 
Last year, the Marshals Service provided security for over 130 
high threat trials. In order to continue to provide security at 
the increased number of high threat trials, the Marshals 
Service requests 17 positions and $5.1 million.
    Every day, our Southwest border districts try to determine 
how to best use our limited number of deputy marshals to 
successfully protect the Federal judiciary and safely transport 
the detainees. The average daily prisoner population at 
districts along the Southwest border has increased 78 percent 
from fiscal year 2000 to fiscal year 2006. To address this 
prisoner increase, the Marshals Service requests 53 positions 
and $7.5 million for our Southwest border district offices.
    The Marshals Service workload has also increased due to our 
newest enforcement mission. Last July, the President signed 
into law the Adam Walsh Child Protection and Safety Act which 
places the Marshals Service as the lead Federal law enforcement 
agency responsible for investigating sex offender registration 
violations. There are more than 500,000 registered sex 
offenders in the United States and estimates indicate that 
there are at least 100,000 unregistered or noncompliant sex 
offenders.
    We are requesting 54 positions and $7.8 million to more 
aggressively investigate violations of the Adam Walsh Act. With 
the requested resources, we'll also be able to partner with the 
National Center for Missing and Exploited Children at their 
national sex offender targeting center.

                           PREPARED STATEMENT

    Madam Chairman, Senator Shelby, and members of the 
subcommittee, I look forward to working with your subcommittee 
throughout the appropriation process and on behalf of the men 
and women of the United States Marshals Service, I thank you 
for your ongoing support and I'd be happy to answer any 
questions you have now. Thank you.
    [The statement follows:]
                Prepared Statement of Hon. John F. Clark
    Madam Chairman, Senator Shelby, and Members of the Subcommittee, I 
appreciate the opportunity to appear before you today to discuss the 
President's fiscal year 2008 budget request for the United States 
Marshals Service (USMS). As a career Deputy U.S. Marshal, and the 
former United States Marshal for the Eastern District of Virginia, it 
is a very great honor to represent the Marshals Service as its 
Director.
    I appreciate this Subcommittee's support for the Marshals Service 
and our programs. Thanks to the funding that you have provided over the 
years, and with the good work of the dedicated men and women who wear 
``America's Star,'' we are performing our missions with excellent 
results.
           the mission of the united states marshals service
    As you know, the primary mission of the Marshals Service is the 
protection of the federal judicial process. The nation relies on us to 
provide physical security to federal judges and U.S. courthouses; to 
protect witnesses, jurors, and members of the public; to safely and 
humanely transport and detain federal prisoners; and to catch violent 
fugitives. Our missions are diverse, and the challenges we face are 
significant. Our accomplishments are many, and I welcome the 
opportunity to share some of those accomplishments with you today.
              summary of fiscal year 2006 accomplishments
    In fiscal year 2006, the Marshals Service:
  --Investigated more than 1,100 threats and inappropriate 
        communications to the federal judiciary and others for whom the 
        USMS has protective responsibility;
  --Provided more than 230 Personal Protection Details for federal 
        judges and prosecutors under threat, as well as security for 
        nearly 200 federal judicial conferences around the country, all 
        without incident;
  --Completed home intrusion alarm surveys and pre-installation plans 
        for more than 1,600 federal judges who requested an alarm 
        system, with more than 90 percent of those installations now 
        complete;
  --Cleared more than 39,000 federal felony fugitive cases and more 
        than 55,000 state and local fugitive cases;
  --Established and began operating our sixth Regional Fugitive Task 
        Force (RFTF), located in the Gulf Coast states of Alabama and 
        Mississippi; since its inception in July 2006, the Gulf Coast 
        RFTF has made more than 2,140 arrests;
  --Conducted two successful Fugitive Safe Surrender operations, 
        resulting in the surrender of more than 2,150 individuals 
        wanted on outstanding warrants;
  --Established the Sex Offender Apprehension Program and Sex Offender 
        Investigations Branch to manage the implementation of the Adam 
        Walsh Child Protection and Safety Act and support the Attorney 
        General's ``Project Safe Childhood'' initiative;
  --Completed 685 international extraditions from a record 67 foreign 
        countries;
  --Safely handled security operations for 135 high-threat trials 
        nationwide, including the trial of convicted terrorist Zacarias 
        Moussaoui;
  --Received more than 263,000 prisoners into our custody, with a daily 
        average prisoner population of nearly 56,000;
  --Safely and securely produced an average of 3,000 prisoners every 
        day for court appearances;
  --Moved an average of 1,200 prisoners each day through the Justice 
        Prisoner and Alien Transportation System (JPATS);
  --Protected more than 17,000 witnesses and their families through the 
        Witness Security Program;
  --Hosted the first International Witness Security Symposium, with 17 
        countries participating;
  --Assigned Special Operations Group (SOG) Deputies to Iraq to secure 
        the Saddam Hussein trial, assist in other high-threat trials, 
        and provide court security training;
  --Deployed SOG Deputies to Kabul, Afghanistan, providing Judicial and 
        Witness Security training for the Counter-Narcotics Police of 
        Afghanistan, supporting the international effort to combat drug 
        trafficking, narcoterrorism, and related crimes;
  --Managed more than $1.3 billion worth of seized assets through the 
        Asset Forfeiture Program;
  --Disbursed more than $300 million worth of assets with state and 
        local law enforcement agencies through the USMS Equitable 
        Sharing program; and
  --Received and disposed of more than 17,000 seized assets.
                    fiscal year 2008 budget request
    For fiscal year 2008, the Marshals Service requests a total of 
4,486 positions, including 3,299 Deputy Marshals, and $899.875 million 
to fulfill its missions. Of this amount, 140 positions and $25.7 
million are program enhancements to address critical needs related to 
judicial threat intelligence and investigations; high-threat trial 
security; enforcement of the Adam Walsh Child Protection and Safety 
Act; and handling the increased workload in our Southwest Border 
district offices.
            judicial threat intelligence and investigations
    Protection of the judicial process--with a heavy emphasis on 
judicial security--remains the primary mission of the USMS. 
Regrettably, the attitude of a small segment of American citizens 
toward the judicial process has changed, as is evidenced by an 
increasing number of threats to federal judges throughout the country. 
As a result, the workload associated with both judicial and courthouse 
security has significantly increased in the last six years. This is 
due, in part, to the judicial families' heightened awareness of 
potential threats, which has resulted in an increase in reporting of 
such incidents to the USMS. We cannot forget what happened in March 
2005, when the mother and husband of U.S. District Judge Joan Humphrey 
Lefkow were brutally murdered in retaliation for her rulings. The 
tragic loss clearly illustrates why there is a real and continuing need 
to monitor and enhance security for all involved in the judicial 
process.
    Just last month, a Houston man began making numerous telephone 
calls to the chambers of a federal judge. The man would not accept that 
his case had been dismissed, and became angry and threatening towards 
the judge. After fully investigating the incident, Deputy U.S. Marshals 
and local police determined that the man was a danger to himself and 
others. He was brought before a magistrate judge on charges of 
threatening the federal judge and a thorough psychiatric evaluation was 
ordered.
    Potential threats against judicial participants are not always 
obvious. Because of this, Deputy Marshals must be constantly vigilant. 
Threats come not only from detainees in custody, but also from 
litigants in civil matters, members of the general public attending 
trials, and individuals related to or associated with litigants or 
trial participants. In the last ten years, the number of reported 
threats has increased 553 percent. In fiscal year 2006, the number of 
threat investigations undertaken by our Judicial Security Division 
increased 17 percent over 2005. As a result, we are making adjustments 
to our threat assessment capability to respond to this new reality.
    To strengthen our ability to analyze and investigate threats 
against the judiciary and to adequately provide judicial and courtroom 
security, we are requesting 16 positions and $5.3 million. The 
requested resources will allow the Marshals Service to hire 10 
additional Deputy Marshals to serve as District Threat Investigators, 
and five Deputy Marshals and one analyst to be assigned to the 
Technical Operations Group (TOG) to support judicial security. The 
requested funding also will allow for enhancements to our secure voice 
and data communications abilities.
    I am steadfast in my commitment to fulfill our primary mission: 
protecting the federal judiciary. I am pleased to report the Marshals 
Service has taken aggressive steps to further protect courthouses and 
secure courtrooms in order to increase our threat intelligence and 
analysis capabilities. In 2004, we established the Office of Protective 
Intelligence (OPI) to facilitate the day-to-day sharing of threat 
intelligence information with federal, state, and local law enforcement 
agencies. As a result of funds provided by Congress in the fiscal year 
2005 Emergency Supplemental Appropriations Act for Defense, the Global 
War on Terror, and Tsunami Relief, we hired 10 new Deputy Marshals and 
three intelligence research specialists to provide 24-hours-a-day/7-
days-a-week threat response capability and to analyze and investigate 
all threats to the federal judiciary and others we protect. We 
appreciate the continuing support the Subcommittee provides us in 
fulfilling this crucial mission.
    In fiscal year 2006, the Marshals Service investigated more than 
1,100 judicial threats, staffed more than 230 Personal Protection 
Details, and provided security for nearly 200 judicial conferences. The 
year ended without a single violent incident.
    Deputy Marshals protect more than 2,000 federal judges, but we also 
protect Supreme Court Justices when they travel outside of the 
Washington, DC area. Highly-publicized confirmation hearings and 
controversial decisions have increased the visibility of these 
justices, and staged protests at both private and public functions have 
increased the demand for USMS protective details. We experienced an 80 
percent increase in the number of Supreme Court Justice Protective 
Details in fiscal year 2006 over the previous year. The Marshals 
Service is in the final stages of constructing our Threat Management 
Center, which will function as the nerve center for threats and 
inappropriate communications against judicial officials and other 
Marshals Service protectees. In addition, during fiscal year 2007, we 
plan to establish the National Center for Judicial Security (NCJS). The 
NCJS will provide a wide range of services and support to federal, 
state, local, and international jurisdictions as they seek advice and 
assistance on questions of judicial security. The Center will initiate 
programs and activities directly related to threat assessment, 
training, information sharing, and technology review.
    Outside of the courtroom, the Marshals Service has made tremendous 
progress in achieving the offsite security initiative funded through 
the fiscal year 2005 Emergency Supplemental Appropriations Act for 
Defense, the Global War on Terror, and Tsunami Relief. We are grateful 
for the support provided by Congress. Through the end of 2006, 1,616 
federal judges had requested or expressed interest in having a home 
intrusion alarm system installed in their residence. Working in 
conjunction with the Administrative Office of the U.S. Courts (AOUSC), 
the Marshals Service has scheduled or completed Pre-Installation Plan 
surveys for all of those residences. Installation has been completed in 
over 90 percent of these locations. The ongoing cost of these systems 
has been funded through the enacted fiscal year 2007 Joint Resolution.
    We have stepped up our training efforts. In fiscal year 2006, the 
Marshals Service conducted training in behavioral methodologies of 
investigation for 190 Deputy Marshals and Judicial Security Inspectors 
(JSIs) at the Federal Law Enforcement Training Center (FLETC) at 
Glynco, Georgia. A Judicial Protective Training Conference for 210 
Deputy Marshals and JSIs also was held in Baltimore, Maryland. These 
training seminars were led by experts from within the Marshals Service, 
as well as the United States Secret Service; the United States 
Attorneys' Office; the Diplomatic Security Service; the Bureau of 
Alcohol, Tobacco, Firearms and Explosives; and the Federal Bureau of 
Investigation.
    I am pleased to say that we are also taking a more aggressive 
approach to training Court Security Officers (CSOs) and exploring new 
screening technologies that CSOs can use in their efforts to secure 
federal courthouses. The CSO Orientation Curriculum has been completely 
updated, and training which formerly occurred on an annual basis is now 
being conducted quarterly at FLETC. Hands-on training is being 
conducted on new and current screening equipment, with added emphasis 
on detecting disguised weapons and explosives, and on response plans 
for dealing with weapons of mass destruction. Additionally, selected 
judicial districts are being asked to test next generation 
technologies, and the data obtained from these tests will assist the 
Marshals Service to select and procure the best possible screening 
equipment to support our judicial protection mission.
                       high-threat trial security
    The Marshals Service also has an obligation to ensure that the 
highest level of security is provided at U.S. courthouses during trials 
involving high-profile and high-threat defendants. High-threat trials 
generally involve international or domestic terrorists, drug kingpins, 
violent gang members, organized crime figures, or defendants in civil 
matters with a high degree of notoriety. An increasing number of these 
trials require enhanced security efforts to secure trial participants 
from internal and external threats, such as additional personnel, use 
of armored vehicles, and establishment of security perimeters around 
courthouses.
    Due to the potential for additional terrorist attacks, threats from 
extremist groups, intense media attention, the general public's 
concerns, and global interest in these proceedings, high-security, 
high-profile events require extensive operational planning and support 
from specially-trained and equipped personnel. The complexity of the 
operations and threat levels associated with these cases require 
additional Deputy Marshals for all aspects of USMS work. In order to 
continue providing the best security for the number of high-threat 
trials that we must handle, the Marshals Service requests 17 positions, 
including 15 Deputy Marshals, and $5.1 million for cellblock security 
enhancements, Supreme Court Protective Details, and our nationwide 
security maintenance contract.
    As the former U.S. Marshal in the Eastern District of Virginia, I 
can speak firsthand about the planning and resource requirements 
necessary to prepare for a high-threat trial. In fiscal year 2006, the 
extended legal proceedings involving terrorist Zacarias Moussaoui came 
to a close. The USMS provided security for this high-profile trial from 
2002 to 2006. Assisted by our Special Operations Group, we were 
successful in producing the defendant safely and securing the judicial 
proceedings without incident. In May 2006, Moussaoui was sentenced to 
life in prison, and on May 13, 2006, the Marshals Service transported 
him to Florence, Colorado, to begin serving his sentence at the United 
States Penitentiary Florence Administrative Maximum Facility.
    While Moussaoui is perhaps the most visible terrorist to be tried 
on U.S. soil, he will not be the last. The trial of terrorist suspect 
Jose Padilla in Miami, Florida, is just another case that will test the 
resources and resolve of the USMS. Preparations include evaluating 
logistical requirements such as: increasing perimeter security, setting 
up additional barricades, coordinating with local authorities to close 
street traffic, arranging armored motorcades for prisoner transport, 
upgrading surveillance cameras, and providing additional personnel 
through several rotations of specially-trained Deputy Marshals.
    The increase in gang-related trials also presents many challenges 
for the Marshals Service. For example, in Santa Ana, California, we 
have been securing the largest capital murder case in U.S. history. 
Forty defendants affiliated with the Aryan Brotherhood have been 
charged with a variety of violent crimes, including conspiracy to 
commit murder and drug trafficking. Not only were the defendants part 
of this gang, but so were many of the witnesses and trial observers in 
the public area of the courtroom. In July 2006, the jury convicted two 
Aryan Brotherhood leaders on a host of racketeering and murder charges. 
Both leaders were sentenced to life in prison without parole. Although 
federal prosecutors continue to achieve record convictions, out of the 
40 defendants, 14 are still pending trial and remain in our custody.
    Additional gang-related trials are currently taking place in 
Greenbelt, Maryland, where several very significant prosecutions that 
involve multi-defendant, high-threat trials of members of the notorious 
MS-13 gang are underway. The defendants were charged with a variety of 
offenses, including conspiracy, RICO, murder, carjacking, kidnapping, 
firearms violations and weapon charges. Many of the defendants also 
have been charged by U.S. Immigration and Customs Enforcement (ICE) for 
being in the United States illegally. These defendants are more violent 
than our average prisoner and require extra security when transporting 
and producing them for trial and various hearings. One trial involving 
seven defendants has already been completed and the second trial is 
currently in progress. The trials are scheduled to continue throughout 
2008, and additional arrests are expected as the investigations 
continue.
    Aside from the potential threats within the courtrooms when high-
threat trials are underway, the increase in gang-related prosecutions 
and the growing number of gang members in federal detention place 
additional burdens on the Marshals Service. In many instances, we must 
not only separate co-defendants from one another, but we must also 
segregate prisoners within the courthouse cellblock due to their 
history of violence, potential violence with other detainees, or risk 
of escape. Support for the President's budget request in this area will 
assist in our ability to meet these additional responsibilities.
    High-threat trials provide special challenges for the Marshals 
Service. However, our Deputy Marshals are hard at work every day in 
every judicial district handling prisoners for court appearances. 
Agency-wide in fiscal year 2006, our personnel produced prisoners for 
642,000 court proceedings. I am proud to say that these productions 
were completed without any injury to a judge, witness, or prosecutor.
               adam walsh child protection and safety act
    I am personally honored that last July, Congress named the Marshals 
Service as the lead agency to investigate sex offender registration 
violations. This important new enforcement role, outlined in the Adam 
Walsh Child Protection and Safety Act, grants us the authority to 
protect the most innocent among us--young children. Signed into law on 
July 27, 2006, the Adam Walsh Act is landmark legislation that will not 
only change the face of our communities by making them safer for 
vulnerable women and children, but it will also, in many respects, 
change the face of the Marshals Service.
    The Marshals Service has three distinct missions pursuant to the 
Adam Walsh Act: to assist state, local, and tribal jurisdictions in the 
location and apprehension of noncompliant sex-offenders; to investigate 
violations of non-compliance; and to assist in the identification and 
location of sex offenders relocated as a result of a major disaster.
    To carry out these new missions, we established the Sex Offender 
Apprehension Program and designated a program management office (the 
Sex Offender Investigations Branch) to direct and coordinate the 
implementation of the Act within the agency. The Marshals Service also 
designated sex offender investigations coordinators in each district 
office and Regional Fugitive Task Force to establish and maintain 
effective contacts with sex offender registration authorities, 
corrections officials, and other law enforcement agencies throughout 
the country. Last month, we trained 52 of these coordinators at the 
National Center for Missing and Exploited Children (NCMEC). There are 
three additional courses scheduled for this fiscal year, which will 
bring the total number of Deputy Marshals specially trained in sex 
offender investigations to approximately 200. To date the Marshals 
Service has opened 149 cases on convicted sex offenders for violations 
of the Act and we are participating in the Attorney General's ``Project 
Safe Childhood'' initiative.
    I am proud to say that the Marshals Service has a long-standing and 
mutually supportive relationship with NCMEC, which has been enhanced by 
the enactment of the Adam Walsh Act. One Deputy Marshal has been 
assigned full-time to NCMEC as a liaison to our Investigative Services 
Division, and this year we will be assisting NCMEC with their media 
campaign to encourage compliance with sex offender registration laws. 
In fiscal year 2008, pending the availability of resources, NCMEC and 
the USMS also will establish a National Sex Offender Targeting Center 
(NSOTC) to assist in identifying and prioritizing non-compliant sex 
offenders and to provide analytical support to federal, state, and 
local law enforcement agencies.
    Full implementation and enforcement of all provisions contained 
within the Act will require additional resources. Therefore, the 
Marshals Service requests 54 positions, including 43 Deputy Marshals, 
and $7.8 million to begin staffing areas of the country having large 
numbers of non-compliant sex offenders and to staff the NSOTC in 
partnership with NCMEC.
    It is estimated that there are nearly 600,000 registered sex 
offenders in the nation and as many as 100,000 non-compliant sex 
offenders. The requested resources will allow the Marshals Service to 
identify and apprehend non-compliant sex offenders--especially those 
who commit offenses against children--and to provide analytical support 
to federal, state, and local law enforcement agencies.
                      southwest border enforcement
    With the recent investment of resources to increase illegal 
immigrant apprehension along the Southwest Border, the Marshals Service 
is facing the daily challenge of utilizing our limited number of 
personnel to successfully protect and secure judicial personnel and 
federal detainees, and to safely transport those detainees. To 
alleviate this problem, the Marshals Service requests 53 positions, 
including 40 Deputy Marshals, and $7.5 million for Southwest Border 
(SWB) district offices.
    The prisoner population levels along the United States' Southwest 
Border have been an area of particular concern to the USMS since 1994, 
the start of intensified immigration initiatives in that region. The 
addition of thousands of agents from both ICE and U.S. Customs and 
Border Protection (CBP), together with increased enforcement of 
immigration laws by federal prosecutors, has caused another significant 
increase in the number of illegal immigrants captured and detained 
along the Southwest Border, further contributing to increases in the 
prisoner population. The average daily prisoner population in Southwest 
Border districts has increased by 78 percent from 2000 to 2006 and 
there are no signs of this upward trend abating. For example, the Del 
Rio office in the Western District of Texas is now handling an average 
of 400 prisoners a day.
    The CBP's fiscal year 2008 budget request includes funding to hire 
an additional 3,000 agents which, if approved by Congress, will 
drastically increase the Marshals Service workload. Without the 
resources requested in the President's budget, the USMS will have 
difficulty managing this increased prisoner population and the prisoner 
productions that will be required. When additional Border Patrol agents 
or border enforcement resources are added, the potential exists for 
creating massive criminal prosecutions in Southwest Border judicial 
districts. Additional Marshals Service resources, including Deputy 
Marshals and administrative positions to handle the resulting criminal 
workload, will be required to meet the growing burden.
    Statistics from the Drug Enforcement Administration demonstrate 
that drug-trafficking and drug-related gang activity along the 
Southwest Border is increasing, which also affects the USMS workload. 
The Marshals Service is handling prisoner productions for high-profile 
prosecutions such as trials involving the Arrellano-Felix drug cartel 
and the ``Mexican Mafia'' in Southern California. As a result of 
stepped-up enforcement and greater cooperation from the Mexican 
government in returning these individuals for prosecution in the United 
States, the USMS will continue to play a large role in these 
proceedings.
                        fugitive investigations
    The United States Marshals Service is the federal government's 
primary agency for conducting fugitive investigations. In fiscal year 
2006, more than 39,000 federal fugitive felons were apprehended through 
USMS-led task forces and warrant squads. Working with authorities at 
the state and local levels, USMS-led fugitive task forces also arrested 
more than 55,000 state and local fugitives. The ``force-multiplier'' 
effect of the Marshals Service's network of six regional and 85 
district-based task forces provides results that are unmatched in law 
enforcement. In all, more than 135,000 federal, state, and local 
fugitives were apprehended by the USMS and its law enforcement partners 
during fiscal year 2006.
    The Marshals Service has responded to requests from the State 
Department and the Department of Justice to provide specialized 
fugitive investigative training to foreign law enforcement agencies. In 
fiscal year 2006, the USMS conducted seven training missions involving 
170 foreign police officials from ten countries. These training 
missions included courses that ranged in content from basic prisoner 
handling to advanced electronic and financial surveillance techniques. 
Since fiscal year 1999, the USMS has trained more than 400 foreign 
officers from 22 countries in fugitive investigation.
    The Marshals Service continues to improve strategies used to 
apprehend fugitives. In October 2006, we teamed with our state, local, 
and federal colleagues in the largest national round-up focused on 
violent sex offenders and gang members. Operation FALCON III (Federal 
and Local Cops Organized Nationally) resulted in the apprehension of 
more than 10,700 fugitives, including 1,629 sex offenders and 364 
documented gang members. Teamwork was the key during this seven-day 
initiative. More than 1,060 agencies participated, with an average of 
3,000 law enforcement officers working each day in Marshals Service 
districts primarily east of the Mississippi River. By removing some of 
the country's most dangerous sex offenders and gang members from the 
streets, Operation FALCON III made America's communities safer and 
contributed to the Attorney General's ``Project Safe Childhood'' 
initiative. The operation also resulted in the safe recovery of a 
missing child, the arrest of a convicted sex offender who was 
babysitting three young children at the time of his arrest, and the 
seizure of child pornography.
    This success followed an earlier initiative, Operation FALCON II, 
which occurred in April 2006 in districts in the western half of the 
United States. More than 9,000 fugitives were arrested and more than 
10,400 warrants were cleared during Operation FALCON II. Since April 
2005, the three FALCON operations have resulted in the arrests of 
30,110 fugitives and the clearance of 37,603 warrants. Of those 
arrested, 3,314 were sex offenders and 681 were gang members. These 
results are a clear demonstration of what can be accomplished when law 
enforcement agencies pool their human resources and investigative 
assets to achieve a common goal.
    The success of these fugitive initiatives has been recognized by 
the Department of Justice, which will soon announce a series of mini-
FALCONs designed to focus on violent gang members in high priority 
cities. The first of these initiatives occurred the week of February 
25, 2007, in Baltimore, Maryland. Coordinated by the USMS Capital Area 
Regional Fugitive Task Force, we worked with our state and local law 
enforcement partners to arrest 195 felons in just five days. Of this 
number, 24 were documented gang members and another 20 were suspected 
gang members. Task Force officers arrested four individuals who had 
been listed as among the City of Baltimore's Most Wanted fugitives.
    The Marshals Service also is fully engaged in the battle against 
violent crime perpetrated by gang members. We have assigned a 
supervisory criminal investigator and a criminal analyst to the 
National Gang Intelligence Center, and we are a full participant in the 
newly-formed Gang Targeting, Enforcement and Coordination Center 
(GangTECC), whose primary goal is to establish national coordination, 
intelligence, and enforcement mechanisms to disrupt and dismantle the 
most significant, violent, national and regional gangs.
    The Marshals Service's activities with regard to gangs are not 
limited to enforcement, however. I have directed our district offices 
to explore creative avenues to address prevention and have encouraged 
participation in initiatives such as the G.R.E.A.T. (Gang Resistance, 
Education, and Training) program, which focuses on providing life 
skills to students to help them avoid using delinquent behavior and 
violence to solve their problems.
    The Marshals Service intends to expand its Fugitive Safe Surrender 
program in fiscal year 2007 and fiscal year 2008. Authorized under the 
Adam Walsh Act, Fugitive Safe Surrender is a creative, non-violent, and 
highly-successful, approach to fugitive apprehension. The goal of 
Fugitive Safe Surrender is to reduce the risk to law enforcement 
officers who pursue fugitives, to the neighborhoods in which they hide, 
and to the fugitives themselves. It encourages persons wanted for non-
violent felony or misdemeanor crimes to voluntarily surrender to the 
law in a faith-based or other neutral setting. Partnering with state 
and local law enforcement, the judiciary, and the religious community, 
the Marshals Service has undertaken two successful Fugitive Safe 
Surrender operations in Cleveland, Ohio, and Phoenix, Arizona, which 
resulted in the surrender of more than 2,150 individuals wanted on 
outstanding warrants.
    The next Fugitive Safe Surrender operation will take place in 
Indianapolis, Indiana beginning on April 25, 2007. Additional cities 
looking to host the program include Milwaukee, Wisconsin; Camden, New 
Jersey; Louisville, Kentucky; Nashville, Tennessee; Dallas, Texas; 
Albuquerque, New Mexico; Montgomery, Alabama; Jackson, Mississippi; 
Richmond, Virginia; and Washington, DC.
                        witness security program
    One of the most critical, and least known, responsibilities of the 
United States Marshals Service is the administration of the federal 
government's Witness Security Program. This Program provides for the 
security, health, and safety of government witnesses and their 
immediate dependents whose lives are in danger as a result of their 
testimony against drug traffickers, organized crime members, and 
terrorists. After the events of September 11, 2001, the Witness 
Security Program has assisted in the production and relocation of 
witnesses testifying in terrorism-related cases nationwide and abroad.
    Since the inception of the Program in 1970, more than 7,900 
witnesses and over 9,700 family members have entered the program and 
have been protected, relocated and given new identities by the U.S. 
Marshals Service. The successful operation of this program is widely 
recognized as providing a unique and valuable tool to the government's 
war against major criminal conspirators and organized crime, and I 
appreciate the Subcommittee's continuing support for this critical 
mission. I am pleased to report that no program participant who has 
followed the security guidelines of the program has been harmed while 
under the active protection of the U.S. Marshals Service.
    The fundamental principle of the Witness Security Program is the 
lifelong involvement with the witnesses and their families. As the 
program has evolved, the services provided to program participants 
continue to become more complex. For example, approximately 70 percent 
of new case participants are foreign-born. Relocating foreign nationals 
and ensuring their assimilation in a new community presents a host of 
difficult issues to overcome, including language and cultural barriers.
    In addition to its primary mission related to the nationwide 
protection and relocation of witnesses, the Witness Security Program is 
currently involved in many other foreign initiatives in conjunction 
with the Department of Justice, the Department of State, and the United 
Nations. As the recognized experts in this field, during the last three 
years, personnel assigned to the Witness Security Program have assisted 
countries such as Austria, Bahamas, Bosnia-Herzegovina, Chile, 
Colombia, Guatemala, Kosovo, Mexico, Panama, Russia, Serbia, and 
Thailand in the establishment and training of witness security units.
    In July of 2006, the U.S. Marshals Service sponsored the First 
International Witness Protection Symposium in Washington, DC. 
Participants included heads of witness security units and Senior Police 
Officials representing more than 17 countries across three continents. 
Additionally, the Marshals Service, in coordination with the Department 
of Justice, has posted a team of witness security specialists at the 
United States Embassy in Bogota, Colombia, to facilitate and provide 
consultation to the Colombian witness security program.
                 2007 global war on terror supplemental
    I would like to thank the Subcommittee for your continued support 
of our law enforcement and training efforts in Iraq and Afghanistan and 
for the Senate's recent passage of our request in the Global War on 
Terror Supplemental. The funds you have approved will be used to 
enhance security for two terrorist trials, the Jose Padilla trial in 
the Southern District of Florida, and the upcoming Babar Ahmed trial in 
the District of Connecticut.
    Last year, Congress provided $1 million directly to the Marshals 
Service as part of the Emergency Supplemental to fund our activities in 
Iraq. Other funding comes to us from the Department of State. Since 
2004, we have deployed Deputy Marshals from our Special Operations 
Group (SOG) to provide expertise in five key areas: security for 
judges, security for court facilities, security for witnesses, 
investigations tied to the Regime Crimes Liaison Office and the Major 
Crimes Task Force, and police training. To date, approximately 70 of 
our 98 Special Operations personnel have served on deployments of at 
least six months to Iraq.
    When enacted, the additional funding provided in the fiscal year 
2007 GWOT supplemental will be used to continue our operations in Iraq, 
and expand the Marshals Service's role in Afghanistan, where the 
Department of Justice has a significant role in combating organized 
crime and drug cartels. Funding will be used for logistical support and 
equipment to deploy Deputy Marshals to Afghanistan to establish a 
Judicial and Witness Security Protection Unit within the Counter-
Narcotics Police of Afghanistan. The Unit will enable narcotics 
trafficking cases to be successfully prosecuted under the Afghan 
Counter-Narcotics law. Until a safe environment is created, Afghan 
judges may continue to resist holding trials because of the threats 
made against their lives. Currently, our Special Operations Group has 
four personnel assigned to Kabul for a six-month rotation.
                               conclusion
    Madam Chairman, Senator Shelby, and Members of the Subcommittee, on 
behalf of the men and women of the United States Marshals Service, 
thank you for your ongoing support of our programs. In the last year, 
we have made significant progress in addressing the legitimate concerns 
expressed to us by Members of Congress concerning judicial security, 
and we have built upon our successful track record of reducing the 
number of violent felons in our communities. We also have achieved 
positive results in our less visible program areas, such as training of 
Deputy Marshals, criminal investigators, threat investigators, and 
administrative employees.
    However, I know that there is still much to do. I am committed to 
ensuring that we are efficient stewards of the resources you have 
entrusted to us, and I look forward to working with you to improve our 
performance in areas that are critical to domestic security and to 
build upon the successes we have already achieved. I would be happy to 
answer any questions you may have at this time.
                                 ______
                                 
                  Biographical Sketch of John F. Clark
    John F. Clark was appointed Director of the United States Marshals 
Service on March 17, 2006.
    Prior to his role as Director of the Marshals Service, Mr. Clark 
was appointed by President George W. Bush on November 12, 2002 to serve 
as the United States Marshal for the Eastern District of Virginia, 
which includes the Alexandria, Richmond, and Norfolk, Virginia offices. 
Prior to his appointment as U.S. Marshal, he was the Acting Marshal and 
Chief Deputy for the Eastern District of Virginia.
    Mr. Clark is a veteran of the Marshals Service, with over 20 years 
of experience. He began his career as a Deputy United States Marshal in 
the San Francisco, California office and later served in the San Jose, 
California; Richmond, Virginia; and Alexandria, Virginia offices. In 
addition to his field experience, Mr. Clark served in the Special 
Operations Group for seven years. During his tenure with the Marshals 
Service, Mr. Clark has held numerous senior management positions within 
the Headquarters organization, including Chief of the Internal Affairs 
Division and Chief of the International Fugitive Investigations 
Division. Prior to his employment with the Marshals Service, Mr. Clark 
was employed by the United States Capitol Police and the United States 
Border Patrol.
    Mr. Clark holds a Bachelor of Science degree from Syracuse 
University and an Associates degree from Hudson Valley Community 
College. He has completed the Executive Leadership programs at the 
Center for Creative Leadership and the Aspen Institute. He is married 
and lives in Virginia.

    Senator Mikulski. Well thank you very much, each and every 
one of your testimonies is much appreciated.
    Ordinarily we focus on numbers and the financial aspects of 
your agencies, but today I think is a little bit different and 
one of the things about each and every one of your testimonies 
talks about partnership, partnership, partnership. That your 
agencies stand sentry at a variety of threats facing the 
American people.
    The marshals from threats to our judges to pedophiles 
threatening their children on playgrounds, DEA at our borders 
and outside of our borders, working in world communities and of 
course, ATF, fighting gun crime, the trafficking of illegal 
guns, the trafficking of illegal bullets, and their whole 
effort to contribute to violent crime impact teams.
    Let me go to my question because we often talk about how do 
we connect the dots and how do we connect the people? How do we 
work together to amplify Federal resources at the local level?

                <greek-l>ATF deg.VIRGINIA TECH SITUATION

    So I'm going to ask you if you could, tell me what you did 
in terms of the Virginia Tech situation. People would say what 
would the marshals be doing there? What about ATF, DEA? I'd 
like you to tell your story because I think it shows how you 
work and how you maximize your resources.
    Mr. Sullivan, why don't we start with you and just go down 
the line and then I'll have an additional question or two and 
then we'll come back to you on the issues related to innovation 
and staffing.
    Mr. Sullivan. Thank you, Madam Chairman, and I certainly 
don't want to understate the role of the State and local law 
enforcement in an event like that.
    Senator Mikulski. No, this is where we want to talk. People 
don't think of you as first responders and also the augmenting 
and appropriate role where there is no Federalization of the 
situation so we understand, we acknowledge a campus police 
force overwhelmed by an event of staggering magnitude, a local 
sheriff's department, et cetera.
    It's a series of circles that went out.
    Mr. Sullivan. Thank you for the question. ATF was notified 
shortly after the second event occurred and we responded 
immediately with 12 special agents from the Roanoke field 
office. They did a range of things that would typically happen 
in an event like this, from trying to restore some order in an 
environment where there was a lot of panic, a lot of fear, and 
a lot of chaos, partnering up with State and local partners, 
and identifying exactly where crime scenes were.
    You can imagine an event that took place over a several 
hour period with victims, both victims that were killed and 
surviving victims, had a crime scene that was extremely large. 
We tried to identify where the crime scenes are, what evidence 
might be available at those crime scenes to help in the 
investigation, and participated in interviews.
    So from a general perspective, we did everything that a 
general law enforcement response would be expected to do and 
then we focused in on some very specialized skills that ATF has 
to support State and local law enforcement in the area of gun 
tracing. We had identified at the scene two weapons that were 
believed to be used.
    The questions during the early stages of the investigation 
was whether these two crime scenes were linked, the earlier 
crime scene that happened in the dormitory and the crime scene 
that unfolded in the classrooms. So it becomes critically 
important if there is a connection between the two that you can 
make those connections with the weapons and also the ballistics 
evidence.
    So the early stages of the investigation were spent looking 
at the weapons and our ability to trace those weapons in terms 
of where they were purchased from, who purchased them, and when 
they were purchased. We also tied in the ballistics evidence, 
using representative samplings of the ballistics evidence that 
were secured during the early stages. We had an investigative 
lead based on evidence that was secured at the crime scene, a 
receipt in a backpack, that sent us to a FFL in Virginia.
    Senator Mikulski. What is an FFL?
    Mr. Sullivan. It's a Federal firearms licensed dealer.
    Senator Mikulski. Ok, just wanted to be sure.
    Mr. Sullivan. We had that investigative lead that we 
explored by going out and interviewing the FFL to determine 
whether or not there was some additional information that could 
be helpful. Beyond that, we had the two weapons and as it was 
reported in the media, the serial numbers on the weapons were 
obliterated, making it more difficult in the early stages to 
identify where those weapons were originally shipped to for the 
purpose of private sale.
    The weapons and the ballistics evidence were sent to the 
laboratory in Ammendale, Maryland, for the purposes of raising 
the serial number, and to do test firings of the weapons to 
compare ballistics evidence and establish that the two scenes 
and the two weapons were, in fact, connected.
    Senator Mikulski. Well, that's a stunning set of resources 
and I'm going to come back before our colleagues just to be 
clear that what ATF provided was people and expertise. They 
discovered there were multiple guns used in the crime. This was 
a human tragedy; the scene of human tragedy was also a crime 
scene.
    Now what was the Marshals Service doing there? Why would 
the marshals be involved in this and what were they doing?
    Mr. Clark. Thank you, Senator.
    Yes, we did have the opportunity to send several of our 
deputy marshals there. Six deputies from our Blue Ridge 
fugitive task force responded right after the shooting began 
and before the full knowledge of the single shooter became 
apparent. They were sent to help secure the crime scene, to 
support the State and local investigators that were also 
responding, and to offer our expertise in the event that this 
individual had fled the scene, before they realized that he had 
killed himself.
    We had several of our deputy marshals who responded to 
Virginia Tech. We also offered the assistance of our national 
headquarters using these additional resources to locate 
individuals, in case there was a second shooter on the loose. 
We immediately supplied some of our investigators to help. I 
would also note that they were very instrumental, during and 
shortly after the shooting ended, in helping to secure the 
crime scene, supporting the local officers, and getting injured 
victims to the hospital.
    Senator Mikulski. Well, I'm sure they thank you for it. Ms. 
Tandy, tell us about DEA.
    Ms. Tandy. DEA's work through all of our enforcement 
operations is done in conjunction with State and local law 
enforcement so as soon as the shootings occurred, DEA contacted 
the local police department as well as the State police to 
determine what kind of assistance they needed from us.
    We were told that they specifically needed us to assist the 
SWAT team in providing perimeter security as well as in 
conducting searches of the buildings and enforcement sweeps of 
the various campus buildings. DEA's entire Roanoke field office 
responded to the campus to conduct those two responsibilities. 
It's actually a small office for us in the Washington division.
    Senator Mikulski. How many were there?
    Ms. Tandy. Ten agents responded and stayed throughout the 
course until everything was secure.
    Senator Mikulski. Well, I wanted you to tell your story. 
I'm really proud of you because this was a terrible thing that 
happened and just imagine a small campus police force, a local 
community with a sheriff police force and rural communities who 
are never overstaffed. They had a tragedy unfolding of enormous 
proportion and needed outside help.
    They had to protect the students. They had to deal with the 
crime scene. They didn't know if there were multiple killers 
and they had to deal with the panic that was occurring. The 
fact that you all work together on a day-to-day basis on other 
issues, whether it's meth, drugs or other areas related to 
violent crime. You all knew how to react in mutual response. Is 
that right?
    So when you all came in they weren't suspicious of you. 
They knew you and were eager to have you.
    Well, I think what this shows though is several things, 
number one, really the job that you do. This is one of the 
reasons I wanted to have this hearing. I think you're 
undervalued and often overlooked in the Federal budget.
    I'm going to come back, others have questions that will go 
then to your budget because we need to support you so you can 
do your national mission and play such a unique role to local 
communities in terms of our community safety. Whether it's the 
brilliant forensics that's going on right in Maryland to 
identify the guns, the bullets and so on with their unique 
tracing to the staffing that provided and at the end of the day 
you could go back to your other jobs while this community is in 
the process of recovery and healing.
    I do have specific budget questions but I wanted you to be 
able to tell your story and with that I'm going to turn to 
Senator Shelby.
    Senator Shelby. Thank you Senator Mikulski. Director Clark, 
I understand that a former marshal's daughter was wounded in 
the shootings in Virginia Tech last Monday and that also her 
efforts saved the lives of some of her classmates. I believe 
the marshal was Jim Carney, former marshal. Tell us that story; 
tell us what happened from what you know.
    Mr. Clark. It's a remarkable and a scary story. I had a 
chance to talk to Jim Carney, the retired deputy marshal. His 
daughter was among the individuals who were in the classroom, a 
German class, where most of the individuals, regrettably were 
killed.
    His daughter was one of only four who survived in that 
particular room. She was struck in the hand and one bullet 
grazed her head. I'm told that she is due to be released from 
the hospital today so, thankfully, she is making a quick and 
steady recovery. She also is credited with the other three who 
survived by helping to block the doorway to the gunman who had 
returned and was intent on finishing them off. They were able 
to hold the door back and to stave off his attempts to get back 
into the classroom.
    When I heard the story and I talked to Mr. Carney 
personally, I just could not believe the story and, of course, 
was glad that his daughter was going to recover. He was quite 
broken up by the whole event so my heart went out to him and 
the many victims of who were caught in that terrible event.

 <greek-l>ATF deg.NATIONAL CENTER FOR EXPLOSIVES TRAINING AND RESEARCH

    Senator Shelby. Director Sullivan, the National Center for 
Explosives Training and Research, what's the status of this 
project at the moment? I believe that we had gotten $10 million 
and you need $40 million, is that correct?
    Mr. Sullivan. I think we've estimated that the total cost 
for the project is somewhere between $40 to $45 million and the 
2006 budget, thanks to your leadership, had $5 million set 
aside specifically to do some early stages of site selection 
and development. We're extremely excited. We think this is 
really visionary.
    Senator Shelby. What will it add to ATF's ability to work 
in this area?
    Mr. Sullivan. I think when you're looking at the potential 
future threat of explosives, we have to do everything we can, 
within our ability, to protect the American public and we have 
to do it on multiple fronts.
    Obviously, in the whole area of explosives, detection is 
critically important, as are research, regulation, and post 
blast investigation. The post blast investigation reflects 
failures of the regulatory piece that protects the explosives 
material and the detection piece. The NLETR project brings a 
wealth of expertise to one location that we can use for 
research and development and sophisticated training, not only 
for Federal law enforcement agencies but for all of our State 
and local partners. There's a huge demand for training in these 
areas.
    Senator Shelby. Absolutely.
    Mr. Sullivan. Because locals recognize the vulnerabilities 
concerning explosives, I think once this center is up and 
operational, it's going to draw our resources together from all 
around the country, specialized resources that we can share 
with others that require this training. Even though this is 
very preliminary, we haven't even done groundbreaking at this 
stage of the game, we already have 11 agencies that are 
committed to sharing their expertise as part of this model. So 
it's visionary. It's something I hope will be a legacy of mine.
    Senator Shelby. Sure.
    Mr. Sullivan. Thanks to your leadership, we would hope to 
have this facility fully funded at some point in time to go 
forward.
    We have done site selection, as you know. We think the 
location at Redstone is the most appropriate location because 
of all the other expertise that's there. We have sufficient 
funding at this point in time to do some work at a range to 
allow us to use a range facility on site, to construct, not 
sophisticated classroom space, but a modified building where we 
could do some classroom training, and we have some money 
available to do some parking facilities but certainly we don't 
have sufficient funding at this point in time to do everything 
that you say that you'd want the site to have.
    Senator Shelby. Absolutely. This would carry you to another 
dimension at ATF as far as explosives, detection and everything 
else is concerned. Is that correct?
    Mr. Sullivan. Absolutely. It recognizes the expertise that 
the ATF has developed in this area over the last number of 
decades, focusing on explosives detection because of the 
threats posed by domestic and international terrorism. The 
NLETR project would bring us to that next significant level in 
terms of continuing to develop that expertise, staying several 
steps ahead of those folks that have an interest in posing a 
threat to us and to our country and capitalizing and sharing 
our resources and expertise with our partners at the State, 
local, and Federal levels.
    Senator Shelby. And also you have synergy with the Army 
there and the FBI. Is that correct?
    Mr. Sullivan. Absolutely and both have been extremely 
supportive with regards to the concept, the location and 
willingness to be part of a joint effort in the area of 
developing and sharing that expertise.
    Senator Shelby. Thank you. Madam Chairman.
    Senator Mikulski. Thank you, Senator Shelby and Senator 
Lautenberg thank you. I was concerned that, I know that you 
have to get to the Holocaust Memorial service.
    Senator Lautenberg. I did want to, Madam Chairman, if I 
can.
    Senator Mikulski. Yes.
    Senator Lautenberg. If I can take a quick couple of 
minutes?
    Senator Mikulski. Yes, yes.
    Senator Lautenberg. Is that acceptable to Senator Stevens?
    Senator Mikulski. Yes.

                     <greek-l>ATF deg.VIRGINIA TECH

    Senator Lautenberg. Thank you very much. I look at what 
we're witnessing here Madam Chairman and in these days of gloom 
and shock pervades our country. There can't be anyplace on our 
soil that doesn't share a feeling of personal mourning as we 
look at this incredible tragedy, almost impossible to imagine. 
Friends, when I look at the departments that each of you is 
responsible for, I salute you and the people who work in those 
departments.
    We have this acceleration of crime in all phases whether 
it's from drugs or guns and I look at the budget and the 
request for all of the Departments of Justice within Justice 
and we have about a 1\1/2\-percent increase. The request is 
$21.8 billion for 2008 and the war in Iraq costs us $3 billion 
a week, a week, so we've got 7 weeks of that cost devoted to 
all of our internal law enforcement projects that you folks are 
responsible for. We've cut out the COPS program essentially 
that's down from a level of $432 million down to nothing. Madam 
Chairman, you know how valuable that COPS program has been.
    We have to examine the terrible events at Virginia Tech and 
it needs to be done perhaps in a more sober moment entirely 
devoting our energy at that hearing to that. What did we learn 
from that? We learned that mad people, insane people, deranged 
people can do such damage. I don't understand why we continue 
to require data derived from gun purchases to be destroyed in 
24 hours. Why it is that we have 3 days to approve or deny a 
gun sale when perhaps there is more time needed.
    These aren't criminals. I'm not saying that everybody that 
buys a gun is a criminal, heavens no. And I'm not saying that 
we should wipe out the ownership of guns. I'm saying that it 
should be responsibly done and we shouldn't be trying to hide 
information, for what purpose?
    I wrote a law in 1996 that said that any spousal abuser 
should not be permitted to own a gun. It was a tough fight and 
Senator Mikulski, Senator Shelby know that I put that into a 
budget to a supplemental bill so it was must-pass legislation. 
Fought like the devil to find a way to get it through.
    We have kept 150,000 guns out of the hands of bullies. Can 
you imagine anybody who can get into that kind of a rage that 
they want to beat up their wife or beat their kids or abuse 
them in any other way, if they had been able to get their hands 
on a gun conveniently? What might have happened?
    America, wake up, wake up. We've had 11,000 deaths, 
homicides in a single year of measurement and what we found is 
that four countries, Great Britain, Germany, Japan, and Canada 
had 650 deaths and what I did was took a group that population 
is approximately ours and they had 650 deaths from handguns, 
weapons. We had 11,000 in the same year, 11,000. Why? Why did 
more than 10,000 of our citizens perish because we have these 
rules.

                   <greek-l>ATF deg.CRIME GUN TRACES

    I ask you Mr. Sullivan, and I'm grateful to my colleagues 
for allowing me this time. I wrote to your agency last year 
requesting the number of crime gun traces of the five-seven 
pistol. We know what a terrible weapon that is, can penetrate 
body armor; a number of those guns were recovered in New 
Jersey.
    The answer I received was, ``ATF has determined that the 
requested information cannot be disclosed to you.'' Mr. 
Sullivan, do you agree with the policy of restricting gun trace 
information this way and are you concerned that this policy 
will limit efforts to fight illegal gun trafficking.
    Mr. Sullivan. Senator, thank you for the question, is it 
specifically to the information that you were requesting and 
limiting the information to you as a Member of Congress?
    Senator Lautenberg. The number of crime gun traces of the 
five-seven pistol, weapon that's out there and can penetrate 
body armor.
    Mr. Sullivan. I'm of the opinion that that information 
could be shared with you and with this subcommittee. I think 
you have a legitimate interest in learning that information.
    In terms of restricting gun tracing information, from my 
experience as a prosecutor, a State prosecutor, and more 
recently as a U.S. attorney, I think gun tracing information 
should be considered law enforcement sensitive information and 
should only be shared with law enforcement agencies that have a 
need to know that information. That's been my approach in 
dealing with law enforcement sensitive information generally 
and it's my approach in terms of dealing specifically with gun 
tracing information.
    Now, having said that, I don't see anything, in my 
understanding or interpretation of statutory language, that 
prohibits me from sharing the gun tracing information with law 
enforcement agencies that have ongoing investigations as it 
relates to gun trafficking, patterns within their jurisdiction 
or specifically as it relates to gun tracing data based on 
weapons that they've asked ATF to trace.
    So I would hope and I'm not aware that we aren't doing 
this, but I would hope that ATF is sharing as much gun tracing 
information with law enforcement agencies that are requesting 
that information to enhance their ability to protect the people 
within their jurisdiction.
    Senator Lautenberg. And not to be shared with the Congress 
of the United States?
    Mr. Sullivan. I'm sorry?
    Senator Lautenberg. And not to be shared with Senators or 
Representatives in our Government?
    Mr. Sullivan. No, I think I said earlier, Senator, the 
information.
    Senator Lautenberg. I heard what you said, Mr. Sullivan and 
then I heard you kind of make sure that that information 
continued to be restricted.
    Mr. Sullivan. As I understand the other question you asked 
Senator, and I apologize because I did not.
    Senator Lautenberg. That's alright.
    Mr. Sullivan. Because I did not study the letter you sent. 
I did have the opportunity to read it and the response that was 
provided by ATF. I think that's more general information as 
opposed to specific law enforcement trace information. That 
type of general information, if you and this subcommittee had 
an interest in learning about what's happening generally with 
regard to types of weapons that are being traced, unless I'm 
told otherwise, could be shared with you and the members of 
this subcommittee.
    [The information follows:]
                 <greek-l>ATF deg.Trace Data Disclosure
    As it is ATF's policy that aggregated firearms trace data may be 
shared with members of congressional committees with jurisdictional 
authority over the Bureau, a policy consistent with current law, ATF 
will be providing the information the Senator has requested.

    Senator Lautenberg. Madam Chairman, forgive me and I have 
such respect for Mr. Sullivan, his record and law enforcement 
but the reason that this information is not available is 
because a Congressman decided that every year he would put that 
into a bill, to an appropriations bill and there is no earthly 
reason in my view that that single person should be able to 
restrict this information.
    We want to find out everything we can about this instance, 
but this is only one of many, it's just the largest of them 
all. We start with Columbine High School and go through 
shocking events in our history and we've got to find out ways 
to stop this. Thank you very much and thank you also.
    Senator Mikulski. Mr. Sullivan, of course our colleague is 
referring to the Tiahrt legislation and one suggestion is if 
you can take the Lautenberg letter and look at it in terms of 
the consequences of implementing the Tiahrt. We'll talk about 
the Tiahrt later.
    The Senator raises questions not about, what he wants to 
know, about an individual case. Rather he wants to have the 
epidemiology of information, data.
    We're now going to move on though, our two other colleagues 
have been waiting, Senator Stevens and then Senator Domenici. 
And Senator Domenici, I'll stay here as long as you need us to 
stay.
    Senator Stevens. Senator Domenici doesn't have a timeframe, 
I do.
    Senator Mikulski. Okay.
    Senator Stevens. I do want to join in congratulating you. I 
think there's been a really upbeat feeling about law 
enforcement recently because of the successes you've had.
    It's unfortunate and we all mourn the situation down in 
Virginia but from the point of view of what was going on, I 
think that your people have all been doing a much better job in 
really trying to get to the bottom of many of the problems we 
face.

            <greek-l>DEA deg.METHAMPHETAMINE LABS IN ALASKA

    However, I am, Ms. Tandy, a little disturbed that the 
statistics show there are fewer meth labs in my State, our 
State, Alaska, now but there's a higher level of meth in the 
State. I talked to some of your people in Anchorage. I found 
that they feel that a great deal of that is coming in now from 
the islands of the Pacific and people aren't using labs anymore 
because it's cheaper just to bring the stuff in from some 
enormous lab that's really not even looked at as far as the 
Pacific Islands are concerned. Do you have people who check 
places like Samoa and other places that we believe a lot of 
this meth is coming from? Are you attentive to the problems of 
the west being now inundated by imported meth?
    Ms. Tandy. I share your concerns about the shift in local 
domestic production of methamphetamine, which has dropped 
through the basement, which is a great thing in terms of the 
environmental risks and social child services issues, to the 
shift to the production of methamphetamine elsewhere outside of 
this country and the smuggling into this country from outside.
    Most of that is being produced in Mexico and elsewhere. The 
production in the Pacific and the areas outside of China, 
Malaysia, Indonesia, the Philippines are all matters that DEA 
is focused on. We have the largest law enforcement presence of 
any U.S. law enforcement agency outside of this country. We 
have focused our resources on the foreign side in the very 
areas that you've talked about as well as in the western 
hemisphere and beyond.
    The production of methamphetamine by foreign trafficking 
organizations has been fueled by the fact that the precursor 
chemicals for the most part come from China and are then 
diverted and used to fuel those labs in the areas that you've 
mentioned as well as in Mexico and elsewhere.
    We conduct our investigations.
    Senator Stevens. I thought we were entitled to 7 minutes? 
The set there seems to be running awfully fast.
    Senator Mikulski. You can take your time.
    Senator Stevens. I don't want to interrupt you, but I am 
limited and I do have the problem about the number of people in 
the State like mine.
    We're one-fifth the size of the United States, have the 
largest cargo landing airport now in the country and we feel a 
lot of the meth is coming in by cargo and somehow or other 
getting off of those planes that come through our Anchorage 
airport.
    I would urge you to take a look at that because I think 
with the decrease in the number of meth labs your people 
generally felt happy about it and reduce some of the effort in 
our State but the good news was as you say the fewer labs but 
the bad news is there's an overwhelming amount of meth.
    Ms. Tandy it's in small villages of 20 and 40 families. 
It's finding its way all the way through the 240 small native 
villages in my State and it is the number one problem that we 
face. I would urge that somehow you take a look at the concept 
of how many agents you have left. You only have 11 agents left 
in the whole State now.
    Ms. Tandy. I understand Senator and this has been part of 
DEA's problem. We are in a hiring freeze and are unable to 
expand our agent presence. To the contrary we are having to 
reduce our number of agents in order to meet our budget. The 
agents in Alaska, to the extent that, actually beyond Alaska, 
everywhere in the United States, those agents that were focused 
on domestic labs have shifted their focus to assisting in these 
investigations for the smuggling of finished meth into Alaska 
and elsewhere in the United States but I appreciate the point 
that you're making. It has been a concern to all of us.
    Senator Stevens. Well, I would hope that you would take a 
look at the concept of working out some cooperation with the 
various local people. This meth has to be getting out to these 
small villages through the post office. The only thing that 
goes into those villages is what we call bypass mail. Now 
somewhere someone is putting together packages that contain 
meth and we're subsidizing the transportation of that package 
into every village in the State.
    I do think it's a matter of investigation and believe me 
those villages are primarily supported by the Federal 
Government. They're native people, unemployment is about 85 
percent. How they're getting this stuff is driving us nuts and 
those kids get on this meth and they start coming into town. 
They will come to the nearest town and then they'll try to find 
their way to Anchorage or Fairbanks and they're committing 
horrendous crimes. We've got drive by shootings that we've 
never had before. We have enormous, just enormous theft and 
burglary and attacks on the person and it's coming, we believe 
because of this just overwhelming presence of meth.
    I know the rest of the country has the same problem but 
it's accentuated in our State. They must be giving it away in 
those villages in order to get them on to this habit and they 
come to town to steal and commit crimes to get money to 
continue it. So I urge you to do something about finding a way 
to work out a cooperative program to get to the bottom of this 
thing. It's taken off in the last year to the point where it is 
really crisis stage.
    I think you probably add up all the crimes that these young 
people have done, committed in our State in the last year and 
it would equal the number of deaths that took place in 
Virginia. I'm serious. It's a very serious situation in Alaska 
and we end up with 11 agents. We end up with 15 marshals and 
eight ATF officers in an area one-fifth the size of the United 
States. They can barely take care of Anchorage alone.
    I understand what you're saying and we're going to do 
something about that freeze. I don't like that freeze at all.
    Senator Mikulski. Well, if I might just comment to the 
Senator. First of all, just know that we're sympathetic to your 
situation.

                     <greek-l>DEA deg.HIRING FREEZE

    The second thing is in the supplemental, we lift the hiring 
freeze. Working with the administration and DEA we lifted the 
hiring freeze and have provided DEA with an additional $25 
million. So that's just as a point of reference to you Senator, 
but second, we would encourage Ms. Tandy meet with the 
Senator's very able staff because he really raises something 
that's rising to a, I think, a crisis situation.
    So know we're working with that and then anything that we 
can be doing because we don't think you should have a hiring 
freeze.
    Ms. Tandy. Thank you.
    Senator Mikulski. And we'll come back to that even to talk 
about it in a more substantial form.
    Senator Stevens. Added to that is the problem of increased 
illegal immigration into our State. We've never had that 
before, but all of a sudden now we are just inundated with 
illegals following this meth. I think meth is the key so I 
appreciate your comments.
    Senator Mikulski. Senator, any way we work with you, we're 
happy to do it because I think it's also a story that's 
happening around the country. You bet, you bet.
    Senator Stevens. Those planes come right down to this, 70 
percent of the air cargo that's coming through from the Pacific 
is coming through Anchorage now. It's coming into the rest of 
the country. This is the place to shut it off. Thank you very 
much.
    Senator Mikulski. You are welcome, sir. Senator Domenici, 
we're glad to have you back.
    Senator Domenici. Thank you very much, Madam Chairman. I'm 
delighted to be back and I don't frequent this subcommittee as 
you know while I serve on it for quite some time, but meth 
brings me running over here because New Mexico as a border 
State is having an absolute.
    There's a rage occurring in reference to meth and New 
Mexico and I think most of you who are participants in anything 
to do with meth you know that our Congressman Pearce has a done 
a pretty good job at bringing that meth problem to the surface 
in New Mexico and it is not, there's not the same problem of 
marijuana.

   <greek-l>DEA deg.SOUTHWEST BORDER AND METH ENFORCEMENT INITIATIVE

    Marijuana may be bigger in numbers and the like and alcohol 
might be but this one is one of the worst we've ever seen. You 
know that. It's going after all kinds of people including many 
women and they're not young women. They're women with children 
whose children have been taken away because they can't maintain 
them and so you see women truly in terrible shape, who've had 
their children removed, who are living in isolated places and 
we just have to move with a little more resources and a little 
more knowledge to try to do something about it and I understand 
that the DEA is requesting $29 million for the Southwest border 
and meth enforcement initiative. Is that correct?
    Ms. Tandy. Thank you Senator. It is correct and that 
consists of aircraft as well as technology as well as 
surveillance enhancements, intelligence sharing, pieces also 
form part of that budget request that are specifically directed 
to methamphetamine and the trafficking, production, and 
transportation of that into the United States.
    Just to put into context, Senator, there have been a number 
of improvements along the way with this shift that has really, 
it's a recent shift of the production of methamphetamine 
outside the country and even with that we have seized two 
metric tons of methamphetamine just over the past year. That is 
an increase of 129 percent in seizures of meth along the 
Southwest border.
    In addition to that we have a partnership now with Mexico 
that frankly we have not enjoyed at this level at any time 
previously, where we are conducting joint operations, as well 
as targeting meth organizations. DEA has sent to Mexico eight 
clan lab trucks to assist in the meth production operations 
against these organizations, along with some of the other 
enforcement operations that have already been addressed at this 
hearing.
    Senator Domenici. Well, I'm very much appreciative of all 
of the effort that's taking place and I congratulate all of you 
for the extra effort that meth has added to your very strong 
and difficult task.
    I'm also concerned about the Native Americans. I think that 
we're just beginning to move into those areas where our Native 
Americans live and finding, it should not have been a surprise, 
but it was to many of us that meth has entered the Native 
communities in abundance and it's because it is cheap and 
quick. If they're looking for a fix, it's quick. If they're 
looking for the results, it's not very quick. It's everlasting 
it seems like, very hard to cure, but I want to thank you for 
that and I know.
    Mr. Sullivan, I don't know you, but I have gathered that 
congratulatory remarks are in order and I would feel remiss if 
I didn't join in saying the best of luck to you.
    Madam Chairman and my good friend from Alabama, let me 
choose to give you an observation and a prediction. I shouldn't 
do this but, starting 5 years ago because of my work with the 
mentally ill and we have accomplished a great number of things. 
We're waiting now for the last bill to get passed on parity.
    I've been privileged to work with some of the smartest 
people in the United States on what's going wrong with the 
mentally ill and the commission of serious crimes such as 
murder by those who are mentally ill and have been committed to 
the institutions for care and maintenance and I will predict 
for you that the final result of this investigation will be 
twofold.
    The United States of America does not have enough centers 
for taking care of people who are mentally ill who are assigned 
to inpatient clinics by judges. We have a total lack of 
facilities across this land because when we decided to go from 
the places where we held the mentally ill we did have; no new 
facilities were built as contemplated by then President 
Kennedy.
    Congress baulked and we built none essentially. We're 
living in a kind of hand to foot creation of facilities. We got 
policemen who house more mentally ill than do any facilities. 
You know that as of this morning, more of the serious mentally 
ill are in police stations and being assigned to police cells 
than anyplace else in any other facilities.
    So number one the report is going to say what's wrong with 
America. We better build inpatient facilities on some kind of a 
partnership with our States so we have a place to take care of 
the mentally ill.
    The second thing that's going to come out unequivocally is 
that the States have not worked together to find a simple 
approach to how you get people committed and how you keep them 
committed until they get well. Right now they get out very 
quickly. When they get out is that period of time that things 
like this happen.
    We're going to have to work on it and we won't escape it. 
The States will be criticized heavily and this State in which 
it happened will be looked at very much to see what they did 
and didn't do, but eventually we're going to have to have a big 
program to build facilities in conjunction with the States and 
we're going to have to have some uniformity of in-house 
commitment where people with serious mental illnesses will stay 
in facilities rather than be released so quickly and so easily 
because we don't want to exercise jurisdiction over sick people 
but that's going to have to happen.
    I regret this day as if it was 5 years ago when I started 
reviewing the best article ever written was by the New York 
Times where they reviewed some hundred plus cases of the type 
I'm telling you about and they found that's what precisely was 
happening that most of these murders were being done by sick 
people who were released too early under the most grotesque of 
facts.
    The neighbors knew they were doing things crazy, wild, all 
kinds of things to their relatives and nonetheless nobody could 
do anything about it because they could not get the kind of 
cooperation between law and those who wanted to help put them 
away and that's going to change within the next 1\1/2\ or 2 
years in my opinion big time and we'll be in the middle of it 
because we can't leave it up solely to the States.
    I look forward to presenting some more issues to talk about 
to this subcommittee as we move ahead. Thank you very much.
    Senator Mikulski. Senator we'd welcome that. First of all 
we want to salute you because you have been a long time 
advocate for mental health services. We note with affection 
your special relationship you had with our lately departed 
colleague, Senator Wellstone, on this issue. You continue to 
carry the torch. You're exactly right. We need to be looking at 
that, the whole Congress, in a variety of our subcommittees.
    The second thing is that at this time, this is not the time 
for finger pointing. This is the time for pin pointing what 
happened here and how we can make sure that it never happens 
again.
    Each and every man and woman in this room has made a 
difference but you know, and they make a difference every 
single day in terms of protecting our country from again, 
community security or national security, which you know if we 
all worked together. You've made a difference, Senator Shelby, 
all of us in this room. You know when we all work together we 
can make change and that's why we wanted to hear you today.
    We could talk so much again about your individual missions 
of the agency, the particular budget needs that have been 
raised by my colleagues and myself but know that we're on your 
side. We want to help you be you, and we know you have a tough 
job. You come in after everything goes wrong and whether it's 
people trying to kill our troops in Afghanistan and Mr. 
Sullivan, we know that you're there and in Iraq, where Ms. 
Tandy, fighting drugs, we know you're there. You U.S. marshals 
have to guard terrorists and give them the rights that they 
wouldn't give anybody and so we're ready to work with you.
    We also have discussed among ourselves, Ms. Tandy, that 
there's certain elements of your testimony we think would be 
better addressed in a closed or classified situation. We'll 
notify you of that because we would like to pursue some of 
these issues related to the international dealing of drugs as 
well as what this means to our borders.
    There's many questions we could ask today and they can go 
to everything from gun control to border control to self 
control, but I think we've covered our topics today unless the 
panel has anything else. We will recess until next week with 
the FBI.
    Senator Shelby. Madam Chairman.
    Senator Mikulski. Senator Shelby.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Shelby. Madam Chairman, I have a number of 
questions for the panel that I'd like to submit for the record 
and I would also, Madam Chairman, think it might be in order at 
the proper time sometime to have Director Sullivan in a 
classified hearing and that might cover some of the ground that 
Senator Lautenberg had raised because what you're talking about 
is very sensitive stuff in that area, are you not, Mr. 
Sullivan? Thank you, Madam Chairman.
    Senator Mikulski. My colleague raises a new point. In terms 
of the Tiahrt, would that be better in a round table or would 
it be better if, because there are classified things to talk 
about.
    Why don't you talk with us afterward about what is the best 
mechanism because what we want to do is, we want to have the 
right policies and we want to have those policies rightly 
restored?
    That's why we want to lift these freezing caps and get you 
the people you need, you need new technologies because the bad 
guys have new technologies and you've got to be, we've got to 
help you be as fit for duty as you can.
    Did you want to?
    Senator Domenici. Yes, I just want to say I hope my 
observations were not construed to be pin pointing.
    Senator Mikulski. No, please, Senator, that's what I was 
saying. No, you were pin pointing, you weren't finger pointing. 
You were saying we got to get real about providing a continuing 
of service for mental health.
    As you know sir, my professional background is that of a 
social worker and also my involvement whether it's been in 
preventing domestic violence to worrying about our police 
officers, I've got a well known and beloved police officer in 
Maryland 3 weeks before retirement, a guy shot through the door 
and killed him because he didn't take his meds.
    So, I mean, no, no, your points were well taken. They were 
right on the mark and we think that not only this subcommittee 
but the entire Senate.
    Senator Domenici. Oh, yes.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
               Questions Submitted to Michael J. Sullivan
           Questions Submitted by Senator Barbara A. Mikulski
                            tiahrt amendment
    Question. Since 2004, the CJS Bill has included language known as 
the Tiahrt Amendment, which restricts the sharing of ATF gun trace 
information. The President's budget continues this language with a 
modification.
    Please explain the Tiahrt language.
    Answer. Since 2003, ATF's annual appropriation has contained a 
nondisclosure provision applicable to firearms trace data which is 
referred to as the ``Tiahrt Amendment.'' This language prohibits ATF 
from expending funds to disclose any of the contents of the Firearms 
Tracing System (FTS) or any required Gun Control Act (GCA) information 
to anyone other than a law enforcement agency or a prosecutor solely in 
connection with and for use in a bona fide criminal investigation or 
prosecution, and then only such information pertaining to their 
geographic jurisdiction.
    As originally drafted, the Tiahrt Amendment codified ATF's 
longstanding policy to provide access to firearms trace results to the 
law enforcement agency that has jurisdiction over the trace request 
while safeguarding those results from third parties. This policy, which 
is supported by law enforcement organizations such as the Fraternal 
Order of Police, recognizes ATF's interest in deciding how to utilize 
and whether to disseminate its sensitive law enforcement information, 
since premature and indiscriminate disclosure of firearms trace results 
could compromise criminal investigations and potentially jeopardize the 
safety of witnesses, informants, and law enforcement personnel. 
Moreover, once law enforcement agencies receive trace data from ATF, 
they remain free to share their firearms trace data with other law 
enforcement entities, since such sharing is consistent with this 
policy.
    Question. How does the President's budget request modify the 
language?
    Answer. The revised language first clarifies and confirms that 
firearms trace data may be shared with tribal and foreign law 
enforcement agencies. This corrects an unintentional drafting error and 
is wholly consistent with ATF's law enforcement mission and the express 
purpose of the Gun Control Act.
    The revised language also clarifies and confirms that firearms 
trace data may be shared with Federal agencies for national security 
purposes. In the Department's view, Congress never intended to prohibit 
intelligence or security agencies from requesting firearms traces in 
the course of anti-terrorist or homeland security investigations. 
Sharing of information pursuant to such requests is wholly consistent 
with the Department of Justice mission.
    The revised language also removes the ``geographic jurisdiction'' 
limitation. The current appropriations restriction allows ATF to share 
information ``as it pertains to the geographic jurisdiction of the law 
enforcement agency requesting the information.'' This requirement was 
removed to make clear that state and local law enforcement agencies 
that receive trace information may lawfully disclose that information 
to other law enforcement agencies within their investigative 
discretion. Despite the removal of the ``geographic jurisdiction'' 
limitation in the President's fiscal year 2008 budget language, ATF 
will continue its longstanding policy of disclosing firearms trace 
results only to the law enforcement agency that requested ATF to trace 
the firearm. This policy prevents any indiscriminate disclosure of 
trace information that could jeopardize pending investigations and the 
safety of witnesses, informants, and law enforcement personnel.
    Finally, the revised language requires that law enforcement 
agencies or personnel ``certify'' that the trace information is being 
sought in connection with a bona fide criminal investigation or 
prosecution. The Department of Justice's position is that this 
requirement to ``certify'' does not impose any new responsibilities on 
law enforcement. Under the Gun Control Act, ATF can only require that 
federal firearms licensees respond to ATF with records for determining 
the disposition of firearms (i.e. ``trace information'') when ATF's 
request is connected to a legitimate law enforcement investigation. As 
a result, there has always been a requirement that local law 
enforcement trace requests to ATF also be connected to a legitimate law 
enforcement investigation. The current trace request form, which 
requires the requesting agency to enter an NCIC crime code, is already 
a form of certification that satisfies the requirement in the fiscal 
year 2008 budget request. If a law enforcement officer presently 
falsifies information on the trace data request form, he could be 
subject to prosecution under 18 U.S.C. 1001 in the same manner as 
others who violate the statute by lying on a federal form. That is true 
independent of the appropriations language.
    Question. As I understand the President's proposal--it is very 
detailed permanent authorizing language including--is that correct?
    Answer. The proposal does contain ``language of futurity'' which 
applies to the fiscal year in question and thereafter. Such language of 
futurity has also appeared in previous iterations of the Tiahrt 
Amendment.
    Question. Is the Administration working with the authorizing 
committees on this language?
    Answer. The Department of Justice is not currently, but would be 
pleased to work with the authorizing committees on this language.
                       federal firearms licensees
    Question. What are the tools available to put corrupt gun dealers 
out of business?
    Answer. Under 18 U.S.C. 923(e), ATF has the authority to revoke a 
Federal firearms license if a dealer commits a willful violation of the 
Gun Control Act of 1968 (GCA). ATF conducts FFL inspections to verify 
that FFLs are complying with the provisions of the GCA and its 
implementing regulations, and to detect and prevent the diversion of 
firearms from legal to illegal commerce. ATF also investigates any 
substantive information regarding illegal activity by a Federal 
firearms licensee (FFL), and may recommend criminal prosecution for 
willful violations of the GCA.
    Question. Isn't suing them an effective way of shutting them down?
    Answer. Suing an FFL is not an option available to ATF nor do we 
think it would be an effective tool for overseeing and regulating the 
firearms industry. ATF meets its statutory and regulatory obligations 
through criminal investigation of FFLs that commit illegal acts and 
through its regulatory inspection program. Therefore, an FFL that is 
not meeting its statutory and regulatory obligations could be ``shut 
down'' through criminal investigation and subsequent prosecution and 
through an administrative remedy, such as license revocation.
    Question. What is ATF doing to put these gun dealers who sell 
illegal guns out of business?
    Answer. ATF is committed to enforcing the Federal firearms laws as 
enacted by Congress. As allowed under the GCA, ATF revokes Federal 
firearms licenses for willful violations of the Act. Over the past 
several years, there has been an increase in license revocations, 
partially due to additional training for field managers, improved 
guidelines for conducting inspections, and better utilization of 
information to identify which licensees should be inspected. ATF 
typically revokes licenses where the FFL has willfully and repeatedly 
failed to account for firearms or to ensure buyer eligibility. In 
addition to these administrative actions, under certain circumstances, 
ATF may investigate firearms dealers for criminal violations of the 
GCA.
    ATF works on a daily basis to assist FFLs in their compliance 
obligations. The vast majority of inspections in which licensees are 
cited for violations do not result in revocation. In fact, the 
inspection process usually results in greater compliance and fewer 
violations during subsequent inspections. Overall, ATF revokes only a 
small percentage of FFLs where violations are found. In 2006, ATF 
revoked 115 licenses out of 7,000 inspected (1.4 percent) and a 
licensee population of approximately 108,000. The Department is 
currently developing a legislative proposal, the Violent Crime and 
Anti-terrorism bill, which proposes graduated sanctions for use against 
FFLs that are in violation of certain GCA provisions, but which do not 
rise to the level of license revocation. ATF believes that this will 
also promote greater FFL accountability and compliance.
    A review of the most current data in our case management systems 
indicates that the following number of criminal charges were brought 
against FFLs since fiscal year 2000:

------------------------------------------------------------------------
                                                                 Number
------------------------------------------------------------------------
Fiscal year:
    2000.....................................................         14
    2001.....................................................         17
    2002.....................................................         20
    2003.....................................................         33
    2004.....................................................         42
    2005.....................................................         31
    2006.....................................................         32
------------------------------------------------------------------------

    Citations: 18 U.S.C. 1001; 18 U.S.C. (2); 18 U.S.C. 47; 18 U.S.C. 
111; 18 U.S.C. 371; 18 U.S.C. 844(h)(1); 18 U.S.C. 844(i); 18 U.S.C. 
922(a)(1)(A); 18 U.S.C. 922(a)(2); 18 U.S.C. 922(a)(5); 18 U.S.C. 
922(a)(6); 18 U.S.C. 922(b)(2); 18 U.S.C. 922(b)(3); 18 U.S.C. 
922(d)(1); 18 U.S.C. 922(d)(3); 18 U.S.C. 922(d)(5)(B); 18 U.S.C. 
922(d)(9); 18 U.S.C. 922(g)(1); 18 U.S.C. 922(g)(3); 18 U.S.C. 
922(g)(8); 18 U.S.C. 922(j); 18 U.S.C. 922(k); 18 U.S.C. 922(l); 18 
U.S.C. 922(m); 18 U.S.C. 922(o); 18 U.S.C. 922(s); 18 U.S.C. 922(v)(1); 
18 U.S.C. 922(w)(1); 18 U.S.C. 924 (a)(1)(A); 18 U.S.C. 924(c); 18 
U.S.C. 1341; 18 U.S.C. 1343; 18 U.S.C. 1503; 18 U.S.C. 1956(a)(1); 21 
U.S.C. 841(a)(1); 26 U.S.C. 5861(d); 26 U.S.C. 5861(e); 26 U.S.C. 
5861(f); 26 U.S.C. 5861(g); 26 U.S.C. 7206;
    Question. Does ATF have all the resources it needs to go after 
these corrupt gun dealers?
    Answer. After the implementation of the Safe Explosives Act in 
2002, ATF increased its total number of field IOIs from 420 to 650 
(fiscal year 2004-2005), and currently ATF has 594 IOIs on board. The 
Safe Explosives Act requires that ATF inspect each explosives industry 
member at least once every three years. This requirement places a 
significant demand on ATF's inspection force and it requires ATF to use 
flexibility in adjusting the total number of inspector hours dedicated 
to the firearms industry. ATF regularly reviews its programs and 
results to reduce inefficiency and increase effectiveness. This process 
includes the evaluation of all of our inspection procedures. In this 
way, ineffective procedures can be identified, and ATF's inspection 
efficiency is maximized.
    Recall inspections of FFLs have shown a resulting increase in 
compliance for those licensees who have previously been inspected. The 
increased compliance has resulted in fewer violations and license 
revocations. Fiscal year 2006 recall inspections resulted in an 
increased compliance rate of 91 percent for inventory discrepancies and 
an increased compliance rate for 64 percent for total violations.
    Question. What are the statistics on the number of rogue dealers 
selling illegal guns to criminals?
    Answer. A review of current data in our case management systems 
indicates that in fiscal year 2006, 32 gun dealers had criminal charges 
brought against them for violating Federal gun laws. In addition, 115 
licensees had their FFL revoked through the regulatory inspection 
process. It is important to note that the revocation of a FFL is not 
indicative of criminal activity. The graduated sanctions for FFLs 
proposed in the Department's draft ``Crime bill'' will help address 
this issue and revocations will continue to be reserved for the worst 
licensee violations. Below is a chart that shows the number of 
revocations for the past several years.

------------------------------------------------------------------------
                                                           FFLs Revoked
                          Year                               National
                                                              Totals
------------------------------------------------------------------------
2004....................................................              54
2005....................................................             104
2006....................................................             115
------------------------------------------------------------------------

                                 ______
                                 
            Questions Submitted by Senator Richard C. Shelby
                           funding shortfall
    Question. Your fiscal year 2008 budget requests were developed long 
before passage of the Joint Resolution.
    Can each of you tell this Committee if the 2008 budget request will 
meet your current operating needs? If not, can you tell the Committee 
if the Department has begun to engage in any cost savings to mitigate 
any negative impacts from 2007 to 2008?
    Answer. ATF supports the fiscal year 2008 President's budget 
request that is currently pending approval with Congress. The 
President's request was the result of an extensive deliberative process 
and strongly supports ATF's and the Department of Justice's mission to 
reduce violence and protect our citizens.
    Question. Do you expect to submit a budget amendment to ensure that 
your critical law enforcement operations are not negatively affected by 
any funding shortfall in your 2008 request?
    Answer. No.
                       gangs and gun trafficking
    Question. Mr. Sullivan, in 2006 the ATF referred more gang related 
defendants for prosecution than any other Federal law enforcement 
agency.
    Can you tell us more about ATF's success in going after gangs?
    Answer. ATF has approximately 2,000 special agents dedicated 
exclusively to investigating violent crime and gangs. In fiscal year 
2006, ATF initiated 2,023 gang related cases. This represents an 
increase of 157 percent from 2002. Additionally in fiscal year 2006, 
1,680 defendants in gang related cases initiated by ATF were convicted, 
an increase of 289 percent from fiscal year 2002. In total, ATF has 
referred more than 10,000 gang members for prosecution between fiscal 
year 2003 and fiscal year 2006.
    ATF has long been involved in investigations of groups such as the 
Mara Salvatrucha (MS-13), organized criminal Asian gangs, violent white 
supremacists, and outlaw motorcycle organizations such as the Hell's 
Angels and the Banditos. For example, an ATF-Baltimore investigation 
led to Racketeer Influenced and Corrupt Organization Act (RICO) charges 
in a MS-13 gang case against 23 subjects who have been arrested and 
indicted. The April 2006 indictment charged numerous RICO predicate 
acts including seven homicides and numerous shootings, beatings, and 
other violent crimes in aid of racketeering. ATF coordinates efforts of 
Federal, State and local law enforcement working through the Regional 
Anti-Gang Enforcement Task Force to combat violent Latino gangs in 
Maryland's Prince George and Montgomery Counties. Twenty-three MS-13 
gang members have been charged in a 36 count federal indictment 
including numerous shootings and other assaults, kidnapping, seven 
homicides, kidnapping, witness intimidation and other violent crimes.
    In January 2007, 13 members of the MS-13 street gang were arrested 
and indicted following a year-long joint investigation conducted by ATF 
and the Nashville Metropolitan Police Department. During the 
investigation, information was developed linking Nashville-based MS-13 
members and associates with seven shootings, three alleged murders, 
several planned murders, threats and intimidation, and other violent 
crimes that occurred in 2006. The defendants were indicted on 
racketeering conspiracy charges. If convicted, the defendants face a 
maximum penalty of life in prison on the RICO conspiracy charges.
    Question. What type of operational intelligence does ATF use to go 
after these criminals?
    Answer. ATF partners with other Federal law enforcement agencies 
and State and local law enforcement to investigate the most egregious 
violent criminals and violent criminal organizations. ATF special 
agents work with local police to try and identify the ``worst of the 
worst'' gang members and target these violent offenders first--using 
undercover operations, surveillance, wiretaps, and the controlled 
purchase of drugs, guns, explosives, and other contraband to identify 
and attack the gang's hierarchy. For example, in Chicago, ATF has used 
Title III wire taps in numerous gang investigations and recently 
completed a RICO case against the Aurora Insane Deuce gang. This case 
has been described by personnel at the U.S. Attorneys Office in Chicago 
as the template for future RICO gang investigations.
    ATF is also an active participant in the National Gang Targeting, 
Enforcement and Coordination Center (GangTECC), which is a DOJ-led task 
force with a mission to disrupt and dismantle the most violent gangs in 
the United States in the interest of national security, border 
protection, and public safety. Three ATF special agents, including one 
who is serving as the first Deputy Director, are supporting GangTECC 
activities. GangTECC serves as a central coordinating center for multi-
jurisdictional gang investigations involving Federal law enforcement 
agencies.
    ATF's 23 Field Intelligence Groups (FIGs) provide intelligence 
services and support to ATF field offices throughout the United States. 
These Field Intelligence Groups are comprised of Special Agents, 
Intelligence Research Specialists, and Investigative Analysts who 
provide specialized support by producing crucial tactical and strategic 
intelligence products and other analytical services. FIGs provide 
investigative leads using gun trace data, multiple firearms sales, and 
firearms theft reports. Field Intelligence Groups also compare and 
share Tactical Intelligence collected in support of investigations with 
OSII IRS and National Gang Intelligence Center staff to help build on 
Strategic Intelligence that benefits gang investigations across the 
United States. They also serve as the conduit of information between 
field personnel assigned to the local Joint Terrorism Task Force (JTTF) 
and ATF.
     national center for explosives training and research--redstone
    Question. ATF now has $10 million of the more than $40 million 
necessary to build a permanent site for the National Center for 
Explosives Training and Research NCETR (pronounced N-seed-R).
    Can you tell us the status of this project?
    Answer. ATF has been working closely with the Redstone Department 
of Public Works and the Army Corp of Engineers on this project. An 
Exhibit 300 (Capital Asset Plan and Business Case Summary) for the 
NCETR project has been completed and submitted via the electronic 
Capital Planning and Investment Control (e-CPIC) system. ATF is 
finalizing the design for the National Center for Explosives Training 
and Research (NCETR) with the Army Corps of Engineers and is 
anticipating a final product in early July. Additionally, ATF is 
awaiting an environmental assessment to be completed by Redstone 
Arsenal. Once the environmental assessment is complete, ATF will begin 
construction of an explosives range on the south end of the base, as 
plans for the range have been completed. Upon completion, ATF will 
begin explosives training courses at Redstone.
    Question. Once completed what will this training center provide to 
the ATF that does not exist today?
    Answer. ATF is tasked with being the lead Federal agency on 
explosives incidents and has developed expertise and fostered a strong 
reputation on such matters. The demands placed upon ATF for Federal, 
State, local, international and military training and research are 
many. NCETR will ensure that we meet those demands.
    NCETR will provide a physical infrastructure for the experts in the 
explosives field to conduct advanced research, exploit intelligence 
related to explosives and improvised explosives devices, and train in 
the most advanced techniques to deter and prevent the criminal misuse 
of explosives. The number and types of classrooms and the range space 
at NCETR will allow ATF to substantially increase its training 
capacity. For instance, at our current facility we are generally 
limited to detonating explosives of 50 pounds or less. However, the 
future facility at Redstone will allow us to detonate a 500 pound 
explosive, which is equivalent to a vehicle bomb. This would give us 
the ability to train for real world applications. In addition, NCETR 
will provide a location to leverage our partnerships on a full time 
basis for training and research opportunities.
    Furthermore, this facility will provide the explosives community in 
law enforcement and DOD something that does not exist today. Current 
Federal resources primarily address render safe capabilities and only 
cover approximately 20 percent of the explosives field. NCETR will 
provide the venue and capacity to impact the other 80 percent of the 
explosives field, including advanced training, research, intelligence 
and investigations. ATF is uniquely positioned, as a result of its 
broad explosives related expertise, to manage and deliver comprehensive 
and progressive training programs with offerings of introductory, 
advanced, and specialized fire and explosives training programs to a 
diverse audience of domestic, military and international students. 
These students comprise a broad spectrum of learners, from first 
responders to prosecutors. The NCETR facility will be the first of its 
kind in size and scope related to explosives training.
    Question. Do you believe this center will add to ATF's operational 
expertise?
    Answer. Yes. As stated above, this facility will provide ATF with 
the opportunity to advance our explosives expertise through research 
partnerships, and share the results of that research with our law 
enforcement and military partners.
    NCETR, through collaboration, will further our understanding of 
explosives scenes to train crime scene personnel to identify, collect 
and process evidence necessary for a conviction of a suspected 
terrorist or other crime suspect. The ATF United States Bomb Data 
Center (USBDC), a nationwide and international database at the 
forefront of data collection and dissemination, also will be located at 
Huntsville. Finally, through our regulatory authorities, ATF will share 
its expertise with State and local entities to ensure consistency in 
reporting and gathering data.
                               explosives
    Question. Director Sullivan your agency's fiscal year 2008 budget 
request includes $10 million to support ATF's arson and explosives 
programs.
    Answer. The $10 million in the fiscal year 2008 President's budget 
for the Explosives User Fee Offset is an increase that targets ATF's 
highest priorities which include Explosives Enforcement Activity, 
Explosive Industry Operations, Canine Enforcement Activity and Safe 
Explosives Act implementation.
    Question. Can you tell us more about ATF's role in enforcing 
Federal laws as they relate to destructive devices, explosives and 
arson and how this request will assist your agency in its critical 
mission requirements?
    Answer. ATF is the primary Federal agency responsible for 
administering and enforcing the regulatory and criminal provisions of 
the Federal laws pertaining to explosives, bombs and other destructive 
devices, and arson. ATF's mission includes deterring and investigating 
violations relating to destructive devices, explosives and arson. ATF 
is in a unique position to not only investigate arson and explosives 
related crimes and regulate commerce in explosives but also to provide 
intelligence and training to other law enforcement partners on these 
critical matters.
    Since 1978, ATF has investigated more than 28,000 incidents 
involving explosives. Since 1978, ATF has investigated 79,161 arson and 
explosives incidents. In fiscal year 2006, ATF initiated 4,060 arson 
and explosives investigations, of which 2,222 were explosives cases. 
These cases involved the investigation of over 13,000 bombings and 
15,000 incidents involving recovered explosives, including homemade 
explosives and improvised explosives devices. ATF initiated over 3,500 
investigations concerning thefts of explosives and explosives materials 
and has conducted thousands of regulatory inspections of licensed 
explosives dealers and manufactures. ATF personnel have also been 
involved in virtually every bombing incident in the United States 
including the 1993 World Trade Center Bombing; the UNABOMB 
investigation; the Oklahoma City Alfred P. Murrah Federal Building 
bombing; and the Centennial Park Bombing.
    Our Fire Research Laboratory (FRL) provides state-of-the-art 
forensic fire science expertise to aid fire investigations. The FRL has 
the capability of simulating fire scenarios approaching a quarter-acre 
in size, to scale, under controlled conditions, which allows for 
detailed analysis. It is the only such facility in the United States 
dedicated to providing case support in fire investigations using 
forensic fire science.
    All arson and explosives incident databases within the Department 
of Justice have been consolidated by ATF into the Bomb Arson Tracking 
System (BATS) which now has over 42,000 records from over 700 agencies 
and is accessible to Federal, State and local law enforcement agencies. 
In addition to its use as an incident database, BATS serves as a case 
management system by arson and explosives incident investigators at all 
levels of government.
    This budget request will ensure that the most advanced training 
opportunities will continue to be offered to all military and law 
enforcement agencies in the United States. Currently, several Federal 
entities, including the Hazardous Devices School (HDS) operated by the 
United States Army on behalf of the FBI, offer explosives related 
courses. However, these training facilities offer curricula that are 
narrowly focused along specific occupational requirements. For example, 
the HDS trains bomb technicians exclusively on basic electronics and 
how to render safe an explosive device. The NCETR training model will 
compliment these existing facilities through the delivery of training 
programs not available elsewhere and through applied research projects 
that will enhance the programs offered at other existing facilities.
    ATF provides specialized resources to train and assist other 
Federal, State, local and foreign law enforcement agencies in fire and 
explosives investigation, as well as explosives disposal. These 
training programs address all aspects of fire and explosives 
investigations including statutory and regulatory requirements, first 
responders, bomb technicians, post-blast reconstruction and 
investigation, forensic analysis, improvised explosives mixtures, IED 
electronics, explosives disposal, chemistry, and courtroom techniques.
    ATF has also partnered with DOD's Joint IED Defeat Organization to 
produce the Military Post Blast Investigation course provided to 
military EOD personnel preparing for deployment to combat. Currently, 
DOD funds ATF's detailee stationed at JIEDDO in Fort Irwin, California. 
DOD provides housing and per diem and finances all travel expenses 
related to JIEDDO training. ATF currently has one Special Agent 
Certified Explosives Specialist (SACES) on a not to exceed 1 year 
detail to Fort Irwin. Subsequent to the 1 year assignment, ATF will 
either PCS or detail another SACES to Fort Irwin. It is anticipated 
that DOD JIEDDO will fund any PCS costs, per the DOD/ATF MOU.
    ATF inspects the explosives industry to ensure compliance with 
storage, safety and security related requirements of federal law. ATF's 
relationship with the explosives industry also provides unique 
investigatory and technology resources to the Agency. ATF investigators 
are ideally positioned to thwart criminal activity at every level from 
the theft or illegal purchase of explosives to the interdiction and 
neutralization of these explosives.
    With this budget request, ATF will continue to utilize its 
expertise to help the explosives industry comply with federal law, 
prevent the unlawful acquisition of explosives, and promote industry 
and law enforcement partnerships to reduce public safety risks. ATF 
will also continue to draw upon its expertise in fire and explosives 
investigations to assist other Federal, State, local and foreign law 
enforcement agencies with training and investigations.
    Question. ATF trains canines to not only detect explosives but also 
to assist in the detection of accelerants used to start fires. Can you 
tell us more about the arson and explosives canine program?
    Answer. ATF trains accelerant detection canines for State and local 
fire departments, police departments, and State fire marshal's offices. 
Currently, there are 85 active accelerant detection teams in the United 
States. These canine teams are utilized in fire investigations to help 
identify potential points of origin started by ignitable liquids. Each 
year in the United States, deaths, injuries, and millions of dollars of 
property damage are caused by intentionally set fires. ATF-certified 
accelerant canines are an essential tool in detecting minute traces of 
substances which have been used to start fires. Accelerant detection 
canines also serve as a critical part of ATF's National Response Teams. 
These highly-trained canines serve side by side with trained fire 
investigators and forensic chemists to help solve some of the nation's 
costliest and deadliest arsons.
    ATF's canine programs produce extremely reliable, mobile, accurate, 
and durable explosives and accelerant detection tools, capable of 
assisting law enforcement and fire investigators with the escalating 
threat faced by communities worldwide. ATF has trained 519 explosives 
detection canines and 113 accelerant detection canines.
    In 1997, ATF began training explosives detection canine teams for 
State, local, and other Federal agencies. As of April 30, 2007, there 
are 120 active ATF-certified explosives detection canine teams working 
throughout the United States. Thirty-four of these teams include ATF 
special agent canine handlers, and 86 are explosives detection canine 
teams for other federal, State, and local agencies. ATF also trains and 
provides explosives detection canines for foreign countries, in 
conjunction with the U.S. Department of State, Office of Anti-Terrorism 
Assistance, to protect U.S. citizens and interests abroad. To date, ATF 
has trained 339 explosives detection canines for the following 17 
countries: Israel, Italy, Argentina, Cyprus, Greece, Chili, Egypt, 
Jordan, Malaysia, Australia, The Czech Republic, Poland, South Africa, 
Thailand, Bahrain, Qatar, and Mexico.
                                 ______
                                 
                 Questions Submitted to Karen P. Tandy
            Questions Submitted by Senator Patrick J. Leahy
                     dea state and local assistance
    Question. The Justice Department's Edward Byrne Memorial State and 
Local Law Enforcement Assistance Formula Grant Program (``Byrne 
grants'') helps state and local governments address the law enforcement 
needs in their own communities. Historically, a large share of this 
grant funding has targeted investigating and prosecuting major drug 
dealers, as well as fostering multi-state operations to support 
national efforts to reduce drug crimes.
    Since fiscal year 2002, funding for justice assistance programs in 
the Justice Department has fallen dramatically from $2.2 billion to 
$800 million--a cut of more than 63 percent. While reductions in crime 
and drug use rates over the past 10 years have been significant, they 
have leveled off in the past several years and, in some instances, have 
even begun to creep higher. The majority of the reductions occurred 
when state and local law enforcement assistance accounts were funded at 
high levels.
    State and local law enforcement have always been the lynchpins of 
community safety. Are you concerned that reducing federal involvement 
in Byrne assistance grants to state and local entities will lead to 
less effective law enforcement?
    Answer. Despite the reduction, we will continue to work side-by-
side with State and local law enforcement through our domestic offices 
and task forces. We will also continue to share intelligence with and 
provide training to our State and local partners.
    There are two narcotics task forces in the State of Vermont--the 
Vermont State Police Task Force and the DEA Task Force. The Vermont 
State Police Task Force is made up of three squads--Southern, 
Northeast, and Northwest. It is staffed as follows:
  --2 State Trooper positions funded by the State of Vermont;
  --6 State Trooper positions funded by the federal Meth Grant;
  --3 State Trooper positions funded by the Byrne Grant;
  --4 local Police positions funded by the Byrne Grant;
  --2 local Police positions funded by the federal Meth Grant; and
  --3 local Police positions funded by the State of Vermont.
    The DEA Task Force is located in the Northwest part of Vermont. It 
includes two HIDTA positions and is staffed as follows:
  --6 DEA Special Agents;
  --1 Burlington Police Detective;
  --1 State Trooper (included in the above 20 positions);
  --1 Essex County Sheriff's Deputy;
  --1 Lamoille County Sheriff's Deputy; and
  --1 Border Patrol Agent.
    Although more difficult, DEA will seek to maintain the necessary 
coverage throughout the State and service the needs of the communities 
as drug cases expand. In a state such as Vermont, DEA relies heavily on 
State and local counterparts for assistance, therefore a reduction in 
the Byrne Grant positions will likely impact State and local 
participation. However, DEA has a strong partnership with State and 
local law enforcement and these relationships will work to service the 
communities of Vermont with or without the positions. State and local 
law enforcement organizations have always demonstrated a commitment to 
working with DEA, and this will not change.
    DEA will continue work with its task force and the remaining 
Vermont State Police Task Force positions. Currently, the Southern 
Vermont State Police Task Force conducts narcotic investigations in the 
Southern part of the state. The work of this task force has been 
extremely helpful to DEA because drug trafficking organizations come 
from Massachusetts or New York, conduct business in Southern Vermont, 
and then return to their originating states. Once these individuals 
have been identified, the U.S. Attorney's office becomes involved, 
along with DEA, and the investigation continues back into the source 
States resulting in the indictments of these individuals and groups 
impacting Vermont.
    The Northeast Vermont State Police Task Force conducts 
investigations along the I-91 corridor and they also coordinate with 
the U.S. Attorney's office and with DEA on apprehending the cross state 
and cross Canadian border drug traffickers. The Northwest State Police 
Task Force conducts investigations within the same immediate area as 
the DEA Task Force. When investigations overlap the two task forces are 
adept at coordinating, however they seldom cross paths, demonstrating 
the amount of work to be done in the area.
    Question. In Vermont, state and local entities have long 
collaborated with the national government in fighting drugs. How can 
state and local anti-drug entities partner with DEA to curb drug 
trafficking when your fiscal year 2008 budget request reduces federal 
assistance to states in this area?
    Answer. Despite the elimination of the MET program in fiscal year 
2008, DEA will continue to work side-by-side with our State and local 
law enforcement partners by sharing intelligence, providing training, 
and participating in task forces. DEA assists State and local law 
enforcement in many ways, for example:
  --DEA's EPIC Open Connectivity Project provides web-based access to 
        approximately 1,800 Federal, State, and local partners on an 
        annual basis. Users can query and access law enforcement data 
        maintained by EPIC.
  --In fiscal year 2006, DEA shared $274 million in State and local 
        proceeds with State and local law enforcement, a 25 percent 
        increase over the $219 million shared in fiscal year 2005, 
        including a 40 percent increase in the funds shared with 
        Sheriffs. This level of sharing is expected to continue.
  --In fiscal year 2006, DEA trained over 41,000 S&L officers, 
        including over 1,000 in meth lab clean up and training.
  --By the end of 2008, DEA plans to complete a clandestine laboratory 
        training facility to better train more State and local 
        officers.
    DEA will also continue to support State and local law enforcement 
through our domestic offices and task forces. DEA leads over 200 State 
and local task forces, including over 1,600 DEA Special Agents and over 
2,100 State and local task force officers, all of whom are dedicated 
full time to address drug trafficking, including trafficking in our 
local communities.
                        prescription drug abuse
    Question. In December 2006, the University of Michigan released a 
national survey, called ``Monitoring the Future''--the largest and most 
in-depth survey of youth drug use in the nation measuring drug, alcohol 
and cigarette use and related attitudes among teenagers. The study 
revealed, among other things, that there was a thirty percent increase 
in the use of the prescription drug OxyContin last year. I understand 
that in April of 2001 the DEA implemented a comprehensive National 
Action Plan to reduce the diversion and abuse of OxyContin.
    How many DEA investigations and arrests have led to successful 
prosecutions in OxyContin cases since 2001?
    From April 2001, when the OxyContin National Action Plan was 
implemented, to the end of fiscal year 2006, DEA initiated 970 
OxyContin (both brand name and generic) investigations and made 912 
OxyContin-related arrests. Though DEA databases do not comprehensively 
track prosecutions, the majority of DEA arrests result in successful 
prosecutions. The following are two examples:
  --On July 10, 2006, Thomas Merrill, MD was sentenced in the Northern 
        District of Florida in Pensacola, to life imprisonment on six 
        counts of over-prescribing OxyContin and other controlled 
        pharmaceuticals resulting in the deaths of five individuals. He 
        was also sentenced to concurrent twenty, ten, and five year 
        terms of imprisonment on an additional 92 counts including wire 
        fraud and defrauding health care benefits programs.
  --On September 1, 2004, Fred J. Williams, MD was sentenced in the 
        Northern District of Florida to life imprisonment following 
        conviction on 94 counts of drug offenses arising out of his 
        illegal dispensing of OxyContin. Williams was writing 
        prescriptions for known drug abusers using several variations 
        of a patient's name in an apparent attempt to avoid attracting 
        attention at local pharmacies. Williams wrote over 600 
        prescriptions to 150 people, none of whom were identified as 
        patients. At the time of sentencing, the judge admonished Dr. 
        Williams for wreaking havoc on the community and destroying 
        lives.
    Question. In 2002, the Justice Department Inspector General found 
that despite the widespread problem of controlled pharmaceutical 
diversion and abuse, ``the DEA had been slow to commit resources to 
address this problem.'' In a July 2006 follow up review, the Inspector 
General found that ``from fiscal year 2002 to fiscal year 2005, the DEA 
increased the percentage of time that diversion investigators spent 
investigating Internet diversion from 3 percent to 11 percent.''
    What percentage of time has DEA diversion investigators spent 
investigating Internet diversion from fiscal year 2005 to the present?
    Answer. Since the 2002 OIG report, DEA has worked diligently to 
address the growing problem of pharmaceutical drug abuse in the United 
States. DEA attempts to leverage all of its resources to address this 
serious problem. In addition to having Diversion Investigators conduct 
Internet and other types of diversion cases, Special Agents, 
Intelligence Analysts, and Task Force Officers routinely work on these 
types of investigations. DEA also prides itself in working shoulder-to-
shoulder with our state and local counterparts on all investigations 
including diversion investigations.
    In fiscal year 2005, 11.4 percent of Diversion Investigator (DI) 
work hours were spent on Internet cases. During the first half of 
fiscal year 2007, 16.8 percent of DI work hours were spent on Internet 
cases, an increase of 47 percent over fiscal year 2005.
    In addition to investigative work, DEA has devoted significant 
resources to targeting efforts using ARCOS and SearchPoint, taking 
administrative action, such as Immediate Suspensions and Show Cause 
Orders, on pharmaceutical wholesalers and distributors found to be 
supplying Internet pharmacies. Further, DEA is also working closely 
with legitimate Internet-related businesses, such as credit card 
companies, express parcel carriers, and Internet Service Providers, to 
solicit their cooperation in shutting down illegal Internet pharmacies.
    Question. In its 2006 report, the Inspector General examined 
several investigative tools that are part of DEA's overall operational 
strategy, including the Online Investigations Project (OIP), telephone 
and online hotlines, undercover equipment, and training in conducting 
Internet diversion investigations. The Inspector General found that 
although the OIP has become a valuable investigative tool, ``it cannot 
automatically identify web sites with the highest volume of suspect 
pharmaceutical sales as originally intended.''
    Are you concerned that, contrary to the original intent of OIP, DEA 
may not possess the resources or capacity to identify rogue online 
pharmacies with the highest volume of suspect sales?
    Answer. Although the OIP has not provided DEA the originally 
intended capabilities to proactively search the Internet and identify 
major violators, it is used daily to provide background information on 
suspect websites. In addition, DEA analysts and diversion investigators 
have demonstrated a limited capability to produce more detailed link 
analyses of groups of related websites.
    DEA has recognized and acted upon the continuing requirement to 
proactively and efficiently search the Internet and identify illicit 
online pharmacies that are selling the greatest amounts of controlled 
pharmaceuticals. To this end, DEA in March of this year initiated a 
contract with an Internet search and analysis company to provide this 
capability. Although the identity of this company cannot be included in 
this response for reasons of investigative confidentiality, the company 
has over the past two years developed an excellent reputation providing 
Internet search and analysis services to leading credit card companies, 
Internet companies, and major banks for the purpose of enforcing 
company due diligence responsibilities in the field of Internet 
pharmaceutical sales, as well as several other areas of illegal 
commerce over the Internet. In particular, the company has been the 
leading provider of Internet search and analysis services to a 
coalition of financial companies working closely with the National 
Center for Missing and Exploited Children to identify and refer for law 
enforcement investigation Internet purveyors of child pornography--a 
more difficult Internet investigative challenge but also one that 
shares significant common traits with illicit Internet sales of 
controlled pharmaceuticals.
    This contract for Internet search and analysis services includes a 
four-month initial performance period with options for an additional 
eight months as well as a subsequent year. The contractor recently 
provided DEA an initial list of six prospective website targets along 
with an initial list of affiliated websites. These targets have already 
been evaluated by our Special Operations Division and forwarded to 
several DEA Field Divisions. Significantly, this contract requires, and 
the contractor has expressed confidence in its ability to deliver, 
identification of the leading Internet controlled pharmaceutical 
trafficking networks. This includes all associated payment websites, 
affiliate or portal websites, registration, web hosting, and server 
identifications, as well as key financial links including payment 
processors and merchant banks that provide website operators access to 
major credit card networks. If successful, this contract by March of 
2008 will have conclusively identified and mapped out the Internet 
``footprint'' of the largest Internet controlled pharmaceutical 
trafficking organizations and DEA will have initiated investigations 
against those same organizations.
    Question. Do you believe that a DEA or a nongovernmental 
organization should regularly search the Internet to identify these 
websites and other locations that offer to sell controlled substances 
without a prescription?
    It is vital that the DEA and relevant private sector companies work 
together to proactively search the Internet to identify websites that 
are illegally selling controlled pharmaceuticals. Because the Internet 
is constantly changing, the search for illicit websites is inherently 
complex and must be undertaken on a proactive basis, not reactive.
    Question. Since 2002, the DEA has established telephone and online 
hotlines for reporting suspicious Internet pharmacies. The Inspector 
General's 2006 report found that ``these hotlines have yielded few 
leads that resulted in diversion investigations.'' Equally troubling, 
the Inspector General found that while the DEA has started to provide 
undercover equipment to its diversion groups, ``as of May 2006 most 
diversion groups still did not have this equipment.''
    Are you concerned that DEA lacks the resources to ensure that its 
intelligence, technological, and investigative tools operate 
effectively?
    Answer. DEA is working hard to integrate and optimize its 
intelligence, technology, and investigative resources for Internet 
pharmaceutical investigations. The technological and analytical 
challenges posed by Internet pharmaceutical investigations are many and 
complex, and have required DEA to reach out to the private sector for 
Internet expertise for search, analysis, and training support. 
Moreover, much of the available intelligence for identifying and 
targeting violators resides in the private sector among key industry 
groups whose services are used by online traffickers of controlled 
pharmaceuticals. This has placed a premium on fostering effective 
working relationships with leading Internet, financial, and parcel 
delivery companies. In this time of constrained budgets, both manpower 
and funding limitations directly impact Internet investigations, which 
require unusually large commitments of these resources.
    DEA has provided all field divisions with undercover credit card 
accounts in order to make online purchases of controlled 
pharmaceuticals for use as evidence in Internet investigations. DEA has 
also deployed undercover Internet workstations to all domestic field 
divisions.
    Question. What percentage of diversion investigators receive 
specialized training that can prove useful for conducting Internet 
investigations?
    Answer. As of March 1, 2007, 369 of the 520 (71 percent) on-board 
Diversion Investigators have completed Internet training conducted by 
DEA's Special Operations Division (SOD). Additional training classes 
have been scheduled during the remainder of fiscal year 2007. DEA is 
also developing an Advanced Internet Investigations course that is 
scheduled to begin in August of 2007. DEA has also added two Financial 
Techniques courses into the fiscal year 2007 training schedule that is 
designed to provide employees with the skills and knowledge to enhance 
their investigative skills to conduct financial investigations. DEA 
will also provide Diversion Investigators with courses on Complex 
Conspiracy Investigations.
    Question. I am concerned that curbing Internet prescription drug 
abuse may take collaboration between law enforcement and private sector 
companies (i.e., credit card companies, payment systems, Internet 
Service Providers, common carriers, etc.)
    What current methods of collaboration with private sector entities 
does DEA use to combat rogue online pharmacies?
    Answer. For the past two years, DEA has actively developed 
relationships with leading financial, Internet, and express parcel 
delivery companies whose services are used by Internet controlled 
pharmaceutical trafficking organizations. The purpose of this outreach 
has been threefold: (1) to raise awareness of the growing problem of 
pharmaceutical diversion via the Internet; (2) to elicit voluntary 
efforts to restrict legitimate business services from being used by 
illicit Internet controlled pharmaceutical traffickers; and (3) to 
identify potential sources of data maintained by businesses that may 
aid in targeting enforcement efforts against the largest illicit 
Internet drug trafficking organizations.
    These relationships provide an opportunity for government and the 
private sector to reach a better understanding of relevant federal laws 
and explore areas of cooperation and voluntary industry action to curb 
the expanding illicit sale of controlled pharmaceuticals over the 
Internet. The level of cooperation enjoyed by DEA with the various 
industries involved with Internet pharmacies is excellent. They 
understand the gravity of the problem and have been extremely 
cooperative with DEA's inquiries. These relationships are maturing even 
further around a systematic industry-based Internet search and analysis 
effort that will incorporate selected data inputs from key Internet, 
financial, and parcel carrier companies to proactively identify and 
target the largest Internet controlled pharmaceutical trafficking 
organizations. A coalition of leading financial companies is 
spearheading this effort.
    Question. Information sharing between private sector entities and 
the DEA may be critical to preventing online prescription drug abuse. 
While the number of occasions may be limited, the willingness for 
private sector entities to share information with DEA about locations 
to sell pharmaceuticals illegally and to act upon them may be 
diminished by the threat of law suits.
    Do you think that the private sector can play an important role in 
assisting DEA reduce online drug abuse?
    Answer. Yes. Private sector involvement is critical for two 
reasons. First, the private sector--most especially the Internet, 
financial, and express parcel delivery companies whose services are 
used by Internet traffickers of controlled pharmaceuticals--must 
establish rigorous business practices to preclude this illicit use of 
their services and then rigorously enforce those standards through 
internal fraud prevention efforts. Second, these same companies, which 
all rely intensively upon the Internet for their business, possess 
invaluable data needed to proactively identify, target, and investigate 
violators.
    Question. Do you support immunity from civil or criminal action for 
private sector entities that mistakenly identify websites in good 
faith? And do you support immunity from civil or criminal actions for 
private sector entities that refuse to do business with any 
organization mistakenly identified in good faith as offering to 
illegally sell a controlled substance?
    Answer. Yes, DEA would support legislation that furthers the 
ability of private sector companies to deny services to other companies 
involved in suspect activities, while minimizing liability for any 
mistaken actions made in good faith. It is vital that relevant 
Internet, financial, and parcel delivery companies aggressively police 
their own operations in this area of illegal commerce. This support 
from the private sector strengthens DEA's overall enforcement strategy. 
Private sector entities are acutely aware of their legal liability for 
denying services to suspect websites whose operators have not been 
legally convicted. For example, MasterCard has in the past two years 
denied services to several hundred suspect pharmaceutical website 
operators working through the merchant banks that issued the credit 
card retail accounts. FedEx suspended truck deliveries of suspect 
packages containing pharmaceuticals within portions of eastern Kentucky 
when it became apparent that illicit Internet sales of controlled 
pharmaceuticals had reached epidemic proportions in that part of the 
state. In general, businesses have the legal authority to suspend their 
services to clients that violate internal business practices codified 
in their contracts with clients.
                                cocaine
    Question. The U.S. Sentencing Commission has expressed concerns 
about the amount of low-level drug offenders being dealt with 
excessively, particularly in the area of crack cocaine. In May 2002, 
the Commission found that in fiscal year 2000, 73 percent of all 
federal crack convictions were brought against low-level offenders, and 
only 6.1 percent of all federal crack convictions were brought against 
high-level dealers in crack cocaine cases.
    For powder cocaine, a similar disparity exists. The Commission's 
May 2002 report found that only 6.7 percent of powder cocaine cases 
were brought against high level offenders, while 68 percent of powder 
cocaine cases were brought against the lowest-level offenders.
    Are you concerned that the federal crack powder laws target ``small 
fish'' instead of drug kingpins of organized drug cartels?
    Answer. Federal statutes do not target ``small fish'' instead of 
large scale traffickers and organized cartels. Federal statutes carry 
strong penalties for trafficking in meaningful amounts of cocaine 
powder and cocaine base. Individuals who are first time offenders and 
are not leaders or managers of a drug organization are eligible for 
more lenient treatment pursuant to the ``safety valve'' provisions of 
18 U.S.C. 3553(f). Individuals who deal in large amounts of cocaine 
powder or cocaine base are subject to appropriately long sentences. An 
individual who deals in at least five kilograms or more of cocaine 
powder is subject to a mandatory minimum sentence of ten years, as is 
an individual who deals in at least 50 grams of cocaine base (crack). 
In addition, leaders and organizers of drug organizations are subject 
to the severe penalties of 21 U.S.C. 848, the Continuing Criminal 
Enterprise Statute, which carries penalties of from 20 years to life 
imprisonment.
    Question. Does the DEA focus its drug interdiction efforts on high-
level traffickers? Please explain.
    Answer. DEA is committed to bringing those organizations involved 
in the illicit growing, manufacturing, diversion, laundering of 
proceeds, or distribution of controlled substances to the criminal and 
civil justice system of the United States, or any other competent 
jurisdiction. The DEA focuses a significant amount of its resources on 
attacking Priority Target Organizations (PTOs), which are major drug 
supply and money laundering organizations operating at the 
international, national, regional, and local levels having a 
significant impact upon drug availability.
    In addition, DEA works closely with key drug enforcement programs 
such as the Organized Crime Drug Enforcement Task Force (OCDETF) 
program to accomplish its mission. The OCDETF member agencies 
identified international command and control organizations representing 
the most significant international drug trafficking organizations 
threatening the United States. These targets are referred to as 
Consolidated Priority Organization Targets (CPOTs). Efforts to disrupt 
and dismantle CPOT and PTO organizations are primarily accomplished 
through multi-agency investigations mostly directed by DEA. In fiscal 
year 2006, DEA participated in approximately 90 percent of all OCDETF 
cases, and had the lead or co-lead in approximately 80 percent of 
OCDETF investigations.
    DEA also participates in enforcement-related programs such as 
specialized training for state and local law enforcement designed to 
improve their abilities to enforce state drug laws and target and 
dismantle street lead drug trafficking organizations and demand 
reduction programs designed to educate citizens concerning the dangers 
of drugs and emerging drug trends. These programs are aimed at reducing 
the availability of and demand for illicit controlled substances.
    Question. At the November 14, 2006 hearing before the Sentencing 
Commission, DEA Deputy Assistant Administrator for the Office of 
Diversion Control, Joseph T. Rannazzisi, testified that cocaine enters 
the United States in the form of powder cocaine, and powder cocaine is 
converted into crack cocaine once the powder cocaine reaches the street 
level. According to Mr. Rannazzisi, crack cocaine is usually trafficked 
at the street level.
    I understand that the DEA believes it is targeting street level 
crack or powder dealers to work up the chain to higher level dealers. 
What are the largest amounts of crack cocaine that the DEA has 
confiscated during a single drug arrest in the last five years?
    Answer. DEA's database does not distinguish between ``crack'' 
cocaine and cocaine base because ``crack'' is a form of cocaine base. 
However, DEA does target street level drug dealers with the goal of 
working up the chain to the higher level trafficking organizations. DEA 
focuses on attacking the organizations which are the major drug supply 
and money laundering organizations operating at the international, 
national, regional, and local levels having a significant impact upon 
drug availability.
    For example, in May of 2006, the Seattle Field Division completed 
an eight-month investigation focused on decreasing the growing problem 
of ``open-air'' drug markets in the East and West precincts of Seattle. 
Over the course of this deployment, many individuals were arrested for 
selling small quantities of drugs to undercover officers. The Seattle 
Filed Division's Special Agent in Charge, Rodney Benson, stated that 
``those street-level cases have resulted in a significant number of 
major, long-term investigations that we're working on right now,'' 
which focus primarily on those individuals high-up on the drug 
distribution food chain. This investigation resulted in the disruption 
of two drug trafficking organizations; 311 arrests; and the seizure of 
approximately .41 pounds of powder cocaine, 3.46 pounds of crack 
cocaine, .02 pounds of methamphetamine, 3.56 pounds of heroin, .21 
pounds of marijuana, .46 pounds of steroids, .14 pounds of ecstasy, and 
.21 pounds of miscellaneous prescription pills, and over $150,000 in 
assets.
    Question. What are the largest amounts of powder cocaine that the 
DEA has confiscated during a single drug arrest in the last five years?
    Answer. The largest amount of powder cocaine that DEA has seized 
during the last five years was on November 5, 2004 in Key West, Florida 
for 11.9 metric tons of cocaine. DEA's database does not tell us if 
this occurred during a single drug arrest though, so potentially there 
could have been multiple arrests in this case that resulted in this 
amount of seized cocaine.
    Even larger seizures have been made by agencies that work with DEA. 
On March 17, 2007, the U.S. Coast Guard, acting on information provided 
by DEA and Panamanian law enforcement, seized approximately 22 metric 
tons of cocaine aboard a Panamanian flagged motor vessel off the coast 
of Panama. This record-breaking seizure was the result of actionable 
intelligence provided by Panamanian law enforcement officials and close 
collaboration through DEA's multi-agency cocaine interdiction program, 
Operation Panama Express.
    Previously, the largest cocaine seizures by the Coast Guard were: 
13.6 metric tons from the stateless-vessel Lina Maria, on Sept. 17, 
2004; and 11.9 metric tons from the Cambodian-flagged vessel Svesda 
Maru on May 1, 2001.
    Question. Crack is the only drug for which the first offense of 
simple possession can trigger a federal mandatory minimum sentence. 
Under 21 U.S.C.  844, possession of 5 grams of crack will trigger a 5 
year mandatory minimum sentence.
    Would reforming  844 allow the DEA's anti-drug efforts more 
effective by focusing its resources on preventing drug trafficking by 
drug cartels instead of wasting precious time and resources on low-
level street dealers?
    Answer. As stated in the answer to the question above, DEA already 
focuses its resources ``on preventing drug trafficking by drug 
cartels.'' Increasing the amount of crack that will trigger a five-year 
mandatory minimum sentence would not augment DEA's ability to dismantle 
drug cartels. The value of mandatory minimum sentences such as the 
five-year mandatory minimum for crack cocaine is that they facilitate 
DEA's ability to gain cooperation. A recent example is an important 
investigation of a DEA Atlanta Division crack cocaine trafficking 
organization that was built upon purchasing just a few ounces of crack 
cocaine from several mid-level members of the organization. Some of the 
original cooperating sources were working to lessen their sentences for 
selling user amounts of crack cocaine and other drugs. The 
investigation resulted in the arrest of more than 15 violators and the 
seizure of cash, securities and property in excess of one million 
dollars. The leader of the organization entered a plea of guilty and 
received 20 years in jail. The guilty plea was obtained due to the high 
minimum mandatory sentences that his subordinates were facing for the 
sales of ounce quantities of crack cocaine; they were motivated to 
cooperate and potentially testify against their boss.
    Please note that while DEA believes that mandatory minimum 
sentences are a valuable tool in gaining cooperation and incapacitating 
dangerous drug traffickers and organizations, we do not agree that 
Federal law enforcement officers or prosecutors are devoting any 
measurable amount of resources to investigating or prosecuting cases of 
possession under 21 U.S.C.  844. The fiscal year 2005 statistics from 
the United States Sentencing Commission show that only 0.8 percent of 
powder cocaine cases were for simple possession, and only 1.1 percent 
of crack cases involved a simple possession charge. The percentages of 
actual drug trafficking charges in 2005 for powder and crack cocaine 
were 98.4 and 95.3, respectively.
                       international drug issues
    Question. Last year, the United Nations Office on Drugs and Crime 
(``UNODC'') reported that there has been a surge in opium cultivation 
in Afghanistan that is fueling the insurgency in that country. 
According to the report, opium production in Afghanistan has increased 
59 percent over last year, and in the southern region where Taliban 
insurgents have intensified their attacks on Afghan government and U.S. 
forces, opium cultivation has increased by 162 percent.
    What steps is the DEA taking to address the growing opium trade in 
Afghanistan?
    Answer. DEA is working to help the Government of Afghanistan 
establish the drug enforcement institutions and capabilities they must 
have to enforce the rule of law. This means successfully identifying, 
disrupting, and dismantling major drug trafficking organizations that 
fuel and profit from the narco-economy.
    Out of the six major Drug Trafficking Organizations (DTO) heads 
targeted by Operation Containment, four have been arrested to include 
Haji Bashir Noorzai and Haji Baz Mohammad who are being prosecuted in 
the United States. The operation has also led to significant seizures 
of narcotics and precursor chemicals and the dismantlement and 
disruption of organizations involved in the Southwest Asian drug trade.
    The four other major DTO heads targeted by Operation Containment 
are Shabaz Khan, who was arrested in the United Arab Emirates and is 
currently on trial, Urifi Cetinkaya, who is serving a prison sentence 
in Turkey, Cumhur Yakut, who has been indicted, and Haji Juma Khan, who 
has not yet been indicted.
    In October 2005, Haji Baz Mohammad--Drug Kingpin and CPOT--was 
extradited to the United States. This marked the first-ever extradition 
between the United States and Afghanistan.
    DEA's Foreign-deployed Advisory Support Teams (FAST) advise, train, 
and mentor their Afghan counterparts in the National Interdiction Unit 
(NIU) of the Counter Narcotics Police--Afghanistan (CNP-A), and 
directly augment the Kabul Country Office in conducting bilateral 
investigations to identify, target, and dismantle transnational drug 
trafficking operations in the region. The five FAST each consist of a 
Group Supervisor, four Special Agents, and one Intelligence Research 
Specialist.
    DEA has trained the NIU's 126 law enforcement officers in the 
conduct of drug enforcement operations.
    Question. Does DEA have the resources to be effective in curbing 
the Afghan opium trade? If yes, how are those resources being allocated 
and utilized? If not, where are increased resources needed?
    Answer. DEA's base funding for FAST program is $8.3 million, which 
is sufficient to fund continuing deployments to Afghanistan and refresh 
equipment.
    The following support for DEA's operations in Afghanistan is 
provided by DOD:
  --DOD is providing basing support at Bagram Air Base for DEA FAST 
        members and facilities for the FAST teams remaining in the 
        Continental United States (CONUS) at the Marine Corps Base at 
        Quantico, Virginia; a hangar and fuel to support the DEA King 
        Air 350 twin-engine turboprop aircraft currently in 
        Afghanistan; two DEA King Air maintenance personnel in Kabul; 
        and facilities to protect, house, feed, and operate at the 
        National Interdiction Unit (NIU) site in Kabul, Afghanistan.
  --DOD is providing transportation support for the NIU, which is the 
        Afghan counterpart to DEA and the Afghan unit with whom the 
        FAST conducts counternarcotics operations. The NIU received its 
        basic training from DOD and currently has more than 100 
        personnel. DOD provides transportation for DEA FAST personnel 
        and supporting equipment from CONUS to Afghanistan and back.
  --DOD is acquiring thirteen (13) MI-17 helicopters for the Afghan 
        Ministry of Interior to support the Counter Narcotics Police--
        Afghanistan (CNP-A), NIU, and DEA Special Agents.
  --DOD is providing operational and logistical support and assistance 
        through the U.S. Central Command (CENTCOM) and elements of the 
        North Atlantic Treaty Organization (NATO) International 
        Security Assistance Force (ISAF).
  --DOD is providing investigational support by providing Ring Flights 
        to DEA Special Agents. Since February 2005, DOD has provided 26 
        Ring Flights to DEA. These ring flights allow us to gather 
        counter-narcotics intelligence, interview confidential sources 
        and other sources of information in the outlying provinces, 
        meet Afghan law enforcement counterparts to plan and coordinate 
        investigations, meet local and provincial Afghan officials, and 
        travel to Forward Operating Bases (FOBs) to meet Afghan 
        counterparts and U.S. Military personnel.
  --DOD is constructing significant infrastructure for the NIU, 
        including facilities to protect, house, feed, train, and 
        operate. Facilities are also under construction for the 
        Counter-narcotics Judicial Center, which will provide a secure 
        location to detain and prosecute narcotics traffickers. DOD 
        also provided weapons, night vision devices, and other 
        equipment to the NIU.
  --DOD provides DEA FAST training at military installations in the 
        United States prior to deployment.
  --DOD has provided communications equipment for FAST command and 
        control in Afghanistan. Additional communications equipment is 
        being provided to the NIU.
  --DOD has been actively working with the DEA, Department of State, 
        U.S. Embassy Kabul, and Afghan Ministry of Interior officials 
        to fund the expansion of the CNP-A.
  --DOD has provided 4.5 million rounds ammunition for FAST and the 
        NIU.
  --DOD has provided contract medical, communications, logistical, and 
        intelligence support to DEA and the NIU on a daily basis.
    DEA could not maintain its presence in Afghanistan without the 
support it receives from DOD. Unfortunately, DEA operations have been 
severely limited due to lack of air mobility and security.
    As a new and non-standard aircraft acquisition program, the MI-17 
Helicopter Program has suffered setbacks and benefited from product 
improvements as they have been fielded. As a result the program is 
behind its estimated operational target of CY 2005. As of May 2007, 
none of the 6 MI-17 helicopters have flown law enforcement operations 
with CNP-A/NIU officers or DEA Special Agents.
    Three Afghan pilots' classes have graduated from DOD training 
provided at Fort Bliss, Texas however aircraft delays have made it 
impossible for the Afghan pilots to keep their flight skills current. 
They are currently being checked by instructor pilots, prior to being 
qualified to fly pilots in command. Until that time, all crews will be 
mixed U.S./Afghan crews.
    Finding permanent space for DEA's Afghanistan based King Air 350 
and a second King Air, currently being modified for aerial 
surveillance, has proven to be a challenge. DEA and DOD are currently 
working to secure permanent space at the Bagram Airfield. If 
unsuccessful, the removal of the King Airs would significantly 
undermine DEA enforcement efforts.
    Question. I am concerned whether the price and availability of 
cocaine has changed significantly as a result of DEA's international 
eradication efforts. Our country has given $5.4 billion in aid to 
support Plan Colombia. Yet, if you compare the price and availability 
of cocaine now to the price and availability of cocaine in 2001--at the 
start of Plan Colombia--there has been no significant change in either 
the availability or the price of cocaine on America's streets. In fact, 
according to ``Connecting the Dots: ONDCP's (Reluctant) Update on 
Cocaine Price and Purity,'' an April 2007 report by the Drug Policy 
Program of the Washington Office on Latin America, preliminary U.S. 
government data indicates that cocaine's price per pure gram on U.S. 
streets fell in 2006, while its purity increased.
    These latest estimates, continuing a 25-year trend, suggest that 
cocaine supplies are stable or even increasing. Congress was told that 
Plan Colombia would cut cocaine production by half, but it obviously 
has failed to do that. Do you believe it is now time for DEA to rethink 
its international eradication strategy?
    Answer. DEA does not have an international eradication strategy for 
Colombia. The U.S. Department of State's Narcotics Affairs Section 
(NAS) is responsible for the aerial eradication program in Colombia. 
The mission of DEA's Bogota Country Office and Cartegena Resident 
Office is to conduct bilateral investigations and enforcement 
operations to reduce the drug supply by targeting, disrupting or 
dismantling the most wanted international drug trafficking 
organizations impacting the United States. Thus, DEA's operations in 
Colombia are concerned with interdiction rather than eradication.
    Question. President Uribe has extradited about 400 people indicted 
for drug crimes in the United States, which I commend. However, none of 
them are top paramilitary leaders nor, with a couple of exceptions, are 
any of them FARC leaders. As you indicated at the last budget hearing 
in April 2006, it is one matter to indict someone and another to 
extradite and convict them.
    Do you support the suspension of extradition of paramilitary 
leaders who have been responsible for the shipment of tons of cocaine 
to the United States?
    Answer. If Autodefensas Unidades de Colombia (AUC) members 
currently involved in the peace process continue to traffic drugs and/
or commit other crimes, DEA and the Department of State believe they 
should be extradited. Although suspension of extraditions is not 
consistent with the U.S. government's goal of bringing violent, 
transnational criminals to justice, such a peace plan would further our 
interests of attaining political stability throughout the region and 
strengthening the democratic institutions of Colombia. The Government 
of Colombia has indicated to DEA that if an AUC member is indicted in 
the United States for drug trafficking since the time they surrendered 
to the Justice and Peace process, then that member is subject to 
extradition.
    Although the Uribe Administration continues to support extradition 
requests by the United States for paramilitary AUC members, there is a 
concern that it may be difficult for the Administration to follow 
through with the extradition of some key AUC leaders, particularly 
those who are critical to the peace and demobilization process. While 
engaged in the peace and demobilization process, the Colombian 
Government has suspended their extradition warrants. DEA anticipates 
that if these individuals comply with the Justice and Peace Law, they 
will receive a sentence of between 5-8 years and the extradition 
warrants will continue to be suspended. Under Colombian Law 975, known 
as the Justice and Peace Law, the demobilized members of the AUC who 
have committed massacres, drug trafficking, and other crimes are 
eligible for reduced sentences if they comply with the requirements of 
confessing to their crimes and making restitution to their victims. 
However, the Uribe administration has assured the U.S. Embassy that if 
there is evidence that an individual is continuing to engage in drug 
trafficking and other illegal activities after the July 25, 2005 
signing date, they will be removed from the process and their 
extradition warrant will again become active.
    Question. Has the DEA or the State Department told the Colombian 
Government that the United States agrees with these suspensions? Has 
the DEA or State Department told the Colombian Government that the 
United States disagrees?
    Answer. Please see DEA's response to question above.
    Question. What are the total numbers of FARC indictees that have 
been actually extradited?
    Answer. Since the amendment to the Colombian Constitution on 
December 17, 1997, the Colombian Government has extradited 539 
fugitives to the United States. Of that number, 7 were FARC members and 
8 were AUC members.
    Of the 50 FARC indictments unsealed on March 22, 2006, three have 
been captured and are awaiting extradition. To date, none have been 
extradited.
                            methamphetamine
    Question. According to a November 2006 report by the U.S. National 
Drug Intelligence Center, cartel labs in Mexico and California now 
produce about 80 percent of the methamphetamine in the United States.
    What steps has DEA taken to decrease the amount of methamphetamine 
produced in Mexico?
    Answer. DEA is working hard with the Government of Mexico to target 
the criminal organizations involved in the diversion of precursor 
chemicals and the producing and trafficking of methamphetamine. Mexico 
has imposed import quotas tied to estimates of national needs. The 
Mexican Government limited pseudoephedrine, ephedrine, and combination 
product importation permits to 70 tons during 2006; this is a reduction 
of 53 percent from the 2005 level of imports (150 tons). This quota has 
made it more difficult for traffickers to obtain precursor chemicals. 
Prices have increased and traffickers have been forced to resort to 
traditional diversion methods, including smuggling and the use of third 
countries to procure their chemicals. In addition, intelligence 
indicates that traffickers have also turned to alternate production 
methods for methamphetamine and the apparent use of substitute 
chemicals as the traditional precursors are becoming more difficult to 
obtain. Mexico has discussed revising their quota downward even further 
in 2007.
    In May 2006, at the National Methamphetamine and Chemicals 
Initiative (NMCI) Strategy Conference in Dallas, Attorney General 
Gonzales announced important new anti-methamphetamine domestic 
initiatives, as well as new partnerships between the United States and 
Mexico in fighting methamphetamine trafficking. These initiatives will 
improve enforcement and information sharing, increase law enforcement 
training, and increase public awareness both domestically and 
internationally. Since this announcement, methamphetamine enforcement 
teams have been formed on both sides of the border and DEA, with the 
assistance of the U.S. Department of State, has donated eight 
refurbished clan lab trucks to Mexico.
    Additionally, DEA and the Department of State, Bureau of 
International Narcotics and Law Enforcement Affairs trained over 2,000 
Mexican officials in fiscal year 2006 on a variety of investigative, 
enforcement, and regulatory methods related to methamphetamine 
trafficking and manufacturing. This training included instruction on 
clandestine laboratory investigations, precursor chemical 
investigation, and drug identification. As a result of this training, 
Mexican law enforcement officials have had significant success in 
identifying labs.
    In fiscal year 2006, DEA also trained over 41,000 State and local 
law enforcement officers, including over 1,000 in how to conduct 
investigations and dismantle seized methamphetamine labs. By the end of 
2008, DEA also plans to complete a clandestine laboratory training 
facility to better train more state and local officers.
    DEA has expanded the role of its Clan Lab Enforcement Teams to 
target Mexican methamphetamine trafficking organizations. These teams 
use their lab expertise to trace chemicals, finished methamphetamine, 
and drug proceeds to drug trafficking organizations in the United 
States and Mexico. These teams also work to identify and dismantle 
U.S.-based methamphetamine transportation and distribution cells.
    DEA has also developed an intelligence collection program, 
Operation White Fang, to assist in the identification and targeting of 
organizations responsible for producing and trafficking methamphetamine 
across the entire Southwest Border. The operation focuses particularly 
on the groups responsible for the drug related violence facilitated by 
the major Mexican cartels operating along the U.S./Mexico border. In 
the fiscal year 2008 President's budget, DEA requests $325,000 for this 
operation.
    Question. Recent reports show an increase in drug gang activity in 
the area of methamphetamine and over-the-counter medicines. I am 
concerned that this may be leading to an increase in violence in some 
communities.
    Has DEA taken any steps to address this situation?
    Answer. Recently, DEA has seen an increase in cases involving 
violent organized gangs, such as MS-13 and La Familia. Many of these 
gangs are typically, poly-drug and poly-criminal opportunists. Some of 
them are involved in trafficking various quantities of methamphetamine 
and precursor chemicals in states such as California. Historically, 
domestic motorcycle gangs, such as the Hell's Angels, have been the 
primary gangs involved in the manufacturing and trafficking of 
methamphetamine. As part of its mission, DEA targets violent gangs 
involved in drug trafficking activity, such as the Hell's Angels, Latin 
Kings, Bloods, Crips, Mexican Mafia, and Gangster Disciples.
    To handle this problem DEA participates in a number of anti-gang 
initiatives with other law enforcement components, including the 
National Gang Intelligence Center, ATF's Violent Crime Impact Teams 
(VCIT) and Project Safe Neighborhoods, FBI's Safe Streets and Safe 
Trails Task Forces, DOJ's Weed and Seed Program, and the Attorney 
General's Anti-Gang Coordination Committee \1\ (GangTECC) which 
oversees all of the above listed programs.
---------------------------------------------------------------------------
    \1\ In the fiscal year 2008 President's budget, DEA is requesting 1 
Special Agent position in support of Gang TECC.
---------------------------------------------------------------------------
    Question. According to a March 25, 2007, article in the USA Today, 
``reports of candy-flavored methamphetamine are emerging around the 
nation stirring concern among police and abuse prevention experts that 
drug dealers are marketing the drug to younger people.'' The article 
reports that among the new flavors are strawberry, known as 
``strawberry quick,'' chocolate, cola, and other sodas. And, the 
article reports, that a DEA agent reported a red meth that has been 
marketed as a powdered form of energy drink.
    Given these recent reports, how widespread has flavored crystal 
meth products become?
    Answer. With the continual stream of negative press regarding 
methamphetamine, drug traffickers are trying to lure new customers by 
making meth seem less dangerous. Since the early 1980s there have been 
regional occurrences of different colors and better tasting 
methamphetamine. ``Strawberry Quick'' and other flavors are just the 
latest of the trends in the marketing of methamphetamine. According to 
intelligence, the flavored crystals are available in California, 
Nevada, Washington, Idaho, Texas, New Mexico, Missouri and Minnesota. 
Normally, methamphetamine is white or brownish and bitter-tasting. 
Strawberry Quick may be popular among new users who snort 
methamphetamine because the flavoring can cut down the taste. 
Traffickers are savvy marketers, and they continue to create new ways 
to market their drug of choice, especially to young people.
    Question. According to the National Survey on Drug Use and Health 
by the Substance Abuse and Mental Health Services Administration, the 
number of people 12 and older who used meth for the first time in the 
previous year decreased from 318,000 people in 2004 to 192,000 people 
in 2005.
    Are you concerned that drug traffickers are trying to lure in new 
customers, particularly young people, by making meth seem less 
dangerous? If so, what steps is DEA taking to address this issue?
    Answer. While the primary function of DEA is to enforce the 
nation's federal drug laws, we understand that law enforcement alone 
cannot solve America's drug problems. DEA works with the youth 
concerning the abuse and awareness of drugs including the serious 
hazards of methamphetamine. Through DEA's Demand Reduction program, DEA 
shares drug law enforcement expertise and intelligence on the nature 
and extent of the national, regional and local drug threat and on 
emerging drug enforcement priorities. In conjunction with its 
prevention partners, DEA engages in aggressive public messaging 
campaigns to illustrate the consequences of drug use, particularly for 
non-users who suffer collateral damage as a result of the illegal drug 
trade. For example, in August of 2005, DEA launched a new website for 
teens, justthinktwice.com. Since its inception the justthinktwice.com 
website has averaged over 200,000 hits per month. This website provides 
teens with straightforward information on the consequences of drugs to 
users and non-users and gives teens the tools they need to make sound 
decisions about drugs. Included in the site is information on 
methamphetamine, prescription drugs, drugged driving, drug endangered 
children, marijuana, drug legalization, and the federal penalties for 
drug trafficking and manufacturing. Justthinktwice.com also dispels 
many of the myths that teens have about drugs by giving them the facts 
about drug legalization, ``medical'' marijuana, and other topics.
    Question. Last year, the Combat Methamphetamine Epidemic Act became 
law as Title VII of the USA PATRIOT Improvement and Reauthorization Act 
of 2005 (Public Law 109-177), and which was designed to retail over-
the-counter sales of certain precursors that are common ingredients in 
cold medicines. Under this law, consumers purchasing cold medicines 
containing ephedrine, pseudoephedrine and phenylpropanolamine must show 
identification and sign a log book at pharmacies. DEA, along with state 
and local law enforcement entities, are responsible for monitoring 
these log books in order to identify if any one person has purchased 
more than 9 grams within a month's time.
    Do you believe the log book is working as hoped to support 
investigations?
    Answer. As a result of state and CMEA legislation, which was 
implemented in September 2006, the downward trend in seizures of 
clandestine laboratories is unmistakable. In 2005 there were a total of 
12,619 reported incidents involving clan labs. Calendar year 2006 saw a 
decrease of 43 percent, or a total of 7,180 incidents. Through April 
25, 2007, only 720 incidents involving clan labs have been reported.

----------------------------------------------------------------------------------------------------------------
                                                                        All                  Super    California
                                Year                                 Incidents  Labs Only     Labs    Super Labs
----------------------------------------------------------------------------------------------------------------
2005...............................................................     12,619      5,879         34          28
2006...............................................................      7,180      3,346         13          10
2007...............................................................        720        361          1           1
----------------------------------------------------------------------------------------------------------------

    Question. Could federal enforcement efforts be more effective if 
the log book was electronic?
    Answer. Logbooks in and of themselves serve are an effective 
enforcement tool because they deter illegal purchases of products 
containing ephedrine, pseudoephedrine, and phenylpropanolamine. Persons 
who might be considering the purchase of these products for diversion 
to the illicit production of methamphetamine are deterred by the 
requirement to provide personal information (name and address) and 
their signature. Logbooks could be more effective as an enforcement 
tool if the data was collected electronically. If the data was 
collected electronically, aggregation of the data across retail 
locations and between states would be easier and potentially more 
effective.
    Question. What enforcement resources has DEA dedicated to this 
area?
    Answer. Investigative authority to enforce CMEA rests with a 
general workforce of approximately 500 Diversion Investigators and 
5,000 Special Agents agency-wide. DEA also leads over 200 state and 
local task forces with over 2,100 state and local task force officers. 
DEA will investigate violations of not only the CMEA, but any violation 
of the Controlled Substance Act as necessary.
    Question. The Combat Meth Act required DEA to establish production 
quotas and import quotas for ephedrine, pseudoephedrine, and 
phenylpropanolamine. This effort was done in order to prevent the 
illicit use of these three chemicals in the clandestine manufacture of 
methamphetamine.
    Do you believe the system for establishing import quotas is working 
smoothly?
    Answer. Although the quota regulations for the CMEA have not yet 
been fully implemented, DEA's 30+ years experience establishing quota 
for other pharmaceutical will ensure smooth administration of the 
import quota applications.
    Question. Can you give us your assurance that the quotas 
established are adequate for medical use?
    Answer. DEA's experience with the schedule I and II controlled 
substances quotas provides a solid foundation for the application and 
implementation of quotas to the list I chemicals: pseudoephedrine, 
ephedrine and phenylpropanolamine as outlined in the CMEA. DEA's 
diligent oversight of the quota applications and process will ensure an 
uninterruptible supply of medicine is available in the United States 
once this law is fully implemented.
    In accordance with 21 U.S.C. 826, DEA is required to establish 
limits on the production of Schedules I and II controlled substances. 
The total quantity for each basic class of controlled substance in 
Schedules I and II is required to be determined on an annual basis. The 
quotas for controlled substances are established each calendar year to 
provide sufficient material for the estimated legitimate medical, 
scientific, research and industrial needs of the United States, for 
lawful export requirements and for the establishment and maintenance of 
reserve stocks. In addition, quotas are intended to limit the 
availability of legitimately manufactured controlled substances which 
can be diverted into the illegitimate market.
    There are three types of quotas that are established pursuant to 21 
CFR Part 1303: Aggregate production quotas, manufacturing quotas and 
procurement quotas. Procurement quotas are issued to DEA registered 
manufacturers who purchase Schedule I or Schedule II material and use 
that material to formulate finished dosage forms i.e. legitimate 
medicine. Manufacturing quotas are issued to DEA registered bulk 
manufacturers. A manufacturing quota is the amount of substance a 
company may produce in a calendar year. Aggregate production quotas 
(APQ) reflect the maximum amount of each controlled substance in 
Schedule I and II which may be produced in a given calendar year. The 
APQ is historically established once and revised mid-year, but the 
administrator has the authority to adjust individual APQ at any time. 
Similarly, the DEA establishes manufacturer's individual manufacturing 
and procurement quotas after careful consideration of the registrant's 
application, legitimate needs and prior year's year end inventory.
    The DEA utilizes two types of information when establishing quotas: 
evidence of legitimate need and evidence of diversion abuse and illicit 
trafficking. The evidence of legitimate need is provided primarily by 
industry and the Food and Drug Administration (FDA) and actual 
pharmaceutical sales trend data supplied by an independent unbiased 
source. Companies submit yearly applications and data to DEA that 
includes actual sales, exports, actual production, customers, product 
development (FDA requirements), batch size, losses, retains and 
inventories of their controlled substances.
    DEA must take into consideration the total net disposal (sales and 
national trends), inventories, projected demands and other factors 
affecting medical, scientific, research and industrial needs in the 
United States and lawful export requirements before adjustment are made 
to individual procurement and manufacturing quotas. Due to changing 
needs of industry, a registrant may request an increase in their 
established quotas at any time. There has never been an occasion in 
which this process has led to a disruption in a patient's access to 
necessary medications.
    Specifically regarding the three substances controlled under the 
CMEA, the DEA developed proposed estimates of the medical need of the 
United States for ephedrine, pseudoephedrine and phenylpropanolamine. 
The methodology used was developed with the assistance of an 
independent contractor that utilized three parallel data sets.
    In establishing the 2007 estimates, DEA also considered exports, 
known industrial uses of these substances, and inventory requirements. 
The establishment of quotas is published as a Notice of Proposed 
Rulemaking in the Federal Register with an opportunity for public 
comment.
    In addition, FDA and the Pharmaceutical Industry are working to 
develop new and reformulated products to insure that there has been no 
interruption of the supply of OTC products containing a nasal 
decongestant, because drug companies have reformulated some of their 
OTC products by replacing pseudoephedrine with phenylephrine, a nasal 
decongestant. FDA has determined that products which contain 
phenylephrine are safe and effective and have effects similar to 
pseudoephedrine.
                                drug use
    Question. At the last April 5, 2006, budget hearing, I asked you 
whether the price and availability of cocaine has changed significantly 
as a result of DEA's efforts. In response, you stated that there have 
been ``statistically significant'' changes in certain areas, and ``It's 
measurable.''
    Since 2001, have the arrests and cocaine seizures by DEA had a 
sustained impact on the availability of cocaine?
    Answer. DEA's large-scale Drug Flow Attack enforcement operations 
have had a major impact on the domestic drug markets. From the first 
quarter of 2007 through the second quarter of 2007, the average price 
per pure gram of all domestic cocaine purchases increased 24 percent. 
DEA's Operation All Inclusive, the centerpiece of DEA's Drug Flow 
Attack Strategy, has caused major disruption in the flow of cocaine, 
money, and chemicals between source zone areas and the U.S. Operation 
All Inclusive 2007 resulted in the seizure of 115 metric tons of 
cocaine which is 12 to 28 percent of the estimated quantity of cocaine 
transported through the transit zones to the United States during 2006. 
Also, in comparing the three month periods before and after Operation 
All Inclusive 2005, the average price per pure gram of cocaine 
increased 43 percent.
    Furthermore, DEA in conjunction with ONDCP, commissioned a 16-month 
study by the CNA Corporation (CNAC) to determine the impact of law 
enforcement activities on cocaine availability in Atlanta, Chicago, and 
Dallas for the period 1999 through 2003.\2\ The study, which was 
completed in April, 2006, sought to (1) to develop a model to identify 
and quantify the relationship between law enforcement activities 
(primarily DEA) and cocaine availability, and (2) to determine whether 
a common model was appropriate for all three cities. The study 
concluded that it is the cumulative or sustained impact of law 
enforcement activities that seem to best explain price and purity 
changes.
---------------------------------------------------------------------------
    \2\ Impact of Law Enforcement Activities on Cocaine Availability: 
Atlanta, Chicago, and Dallas, The CNA Corporation for ONDCP and DEA 
with Department of Health and Human Services, IPR 11781, April 2006.
---------------------------------------------------------------------------
    The study confirmed that DEA's priority targeting system did have 
some temporary impact on availability as observed by price and purity 
proxy measures in the selected cities. A sustained increase in arrests, 
arrests per case, and cocaine seizures are each associated with a 
statistically significant increase in cocaine price and decrease in 
cocaine purity. However, if increased levels of these law enforcement 
measures are not maintained, price and purity will return to their 
previous levels. Moreover, while prices were not higher in 2003 than in 
1999, CNAC inferred that the prices would have been lower and the drug 
problem worse in the absence of law enforcement activities.
    CNAC researchers concluded further that it is impossible to create 
a single model to assess availability at the national level, or even 
between the selected cities. Not only are there simply no accurate 
measures of the quantity of cocaine available locally, regionally, or 
nationally, but there are too many variables that can have a 
significant effect on availability.
Selected key findings
    Arrests, arrests per case, and cocaine seizures have an impact on 
price and purity, and, by inference, on cocaine availability, although 
the impact may not materialize for several months. In addition to the 
quantity of arrests, the concentration of arrests (i.e., targeting 
specific organizations) in a specific case had an impact on price and 
purity. Ten arrests in 1 case, rather than 1 arrest in 10 cases, caused 
bigger disruption or dismantlement than arrests spread across several 
cases.
    The CNAC study concluded that it is the cumulative or sustained 
impact of law enforcement activities that seem to best explain price 
and purity changes: ``Another way to think about this is that price and 
purity were at about the same level in 2003 as in 1999. All of the law 
enforcement activities in those five years did not drive price to a new 
permanent high or purity to a new permanent low. What we observed were 
often substantial, but temporary, price and purity changes following 
short-lived increases in arrests or cocaine seizures. For example, 
prices were relatively high and purity relatively low in Chicago and 
Atlanta in 2000 following a substantial increase in the number of 
arrests in those cities.'' In Chicago, for example, a sustained 20-
percent increase in arrests was associated with an 8 percent ($13.00) 
increase in the price per pure gram for powder cocaine and a 4 percent 
($6.00) per gram increase for crack cocaine. To the degree that powder 
prices are more indicative of the wholesale market and crack the retail 
market, DEA arrests impacted the wholesale market more than the retail 
market.
    Question. At that same hearing, I asked you whether you agreed, 
that in Washington, D.C., the prices of crack cocaine have not 
increased and the availability of cocaine is about the same as it was 
three years ago. In response, you stated that you would get back to me. 
A year later, we still have not received a response.
    Does the evidence show that the price and availability of cocaine 
in Washington, D.C. has changed significantly as a result of DEA's 
efforts?
    Answer. The following is a brief overview of the cocaine pricing 
and availability situation in Washington, D.C.
Cocaine Prices
    DEA's Washington Division reports that cocaine prices in 
Washington, D.C. have remained stable over the past six years, as have 
cocaine availability and abuse patterns. Cocaine price data for the 
period January through March 2006 indicate that cocaine hydrochloride 
sold for $1,100 per ounce in the Washington, D.C. metropolitan area 
compared to a price range of $900-$1,250 in 2001. Kilogram and gram 
powder cocaine prices and crack cocaine prices were not reported for 
2006.
    Prices are derived from undercover buys, Confidential Source (CS) 
information, and defendant information. Price data is not a completely 
accurate indicator of supply and demand. Much of this information is 
anecdotal, and prices cannot be validated through any scientific 
methodology. The greater the quantity, the more anecdotal the 
information, since DEA does not often purchase kilogram quantities.
    The following chart provides the latest data available on cocaine 
prices for Washington, D.C. The national price range is provided for 
comparison.

                                                     WASHINGTON, D.C. COCAINE PRICE RANGES 2001-2006
                                                     [National Price Range Provided for Comparison]
--------------------------------------------------------------------------------------------------------------------------------------------------------
               Quantity                        2001               2002               2003               2004               2005               2006
--------------------------------------------------------------------------------------------------------------------------------------------------------
Powder Cocaine (cocaine HCl):
    Kilo--DC..........................      16,500-35,000      17,500-35,000      17,000-35,000      24,000-25,000      23,000-27,000      19,000-26,000
    Kilo--National....................      13,000-35,000      10,000-35,000      10,000-35,000      10,000-35,000       7,000-34,000       9,000-52,000
    Ounce--DC.........................          900-1,250          600-2,000          825-1,300          900-1,100          650-1,250              1,100
    Ounce--National...................          400-1,600          400-3,500          375-1,800          350-1,800          300-1,600          300-2,000
    Gram--DC..........................             50-100              30-80             50-100                100            ( \1\ )            ( \1\ )
    Gram--National....................             20-200             24-150             25-100              9-200             20-200             13-350
Crack Cocaine (cocaine base):
    Kilo--DC..........................      28,000-34,000             30,000      28,000-34,000      28,000-34,000      28,000-34,000            ( \1\ )
    Kilo--National....................      13,000-50,000      13,000-35,000       7,500-35,000       8,000-38,000      14,000-34,000      13,000-32,000
    Ounce--DC.........................          900-1,300          900-1,750        1,000-1,300        1,000-1,200          550-1,250          900-1,200
    Ounce National....................          300-2,800          325-2,800          325-2,000          325-2,000          325-2,000          210-3,800
    Gram--DC..........................             80-100             80-100             80-100            ( \1\ )            ( \1\ )            ( \1\ )
    Gram--National....................             10-200             10-130             10-130             18-200             20-200             12-200
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ N/R.Source: Quarterly Trends in Traffick Report--DEA Washington Division.

Changes in the Washington, D.C. Cocaine Market
    The main change in cocaine trafficking in the metropolitan area 
pertains to cocaine sources of supply. Over the past several years, 
cocaine smuggling from North Carolina and from the Southwest Border 
(especially Texas and Arizona) has increased. This mainly impacts 
Southern Virginia, but still affects Northern Virginia and Washington, 
D.C. Drug trafficking organizations in New York City, however, still 
appear to be the principal cocaine suppliers for Washington, D.C.
Cocaine Availability
    The Washington, D.C. Metropolitan Police Department (MPD) indicates 
that cocaine availability has remained stable over the past several 
years. The MPD also reports that drug-related violence remains static, 
with the exception of homicides, which have decreased over the past 
five years.
    Cocaine Hydrochloride (HCl).--Kilogram quantities of cocaine HCl 
continue to arrive in the DEA Washington Division area of 
responsibility (Washington, D.C., Maryland, Virginia, and West 
Virginia). Powder cocaine sold on the mid- to retail level remains 
widely available. The quantities of cocaine HCl available in any given 
area greatly depend on abuse patterns, the level of distribution at 
which a particular dealer conducts business, and the prevalence of 
cocaine abuse in that area. Cocaine HCl most commonly is found in gram 
and ounce quantities for resale in suburban and rural areas, but in 
larger quantities (i.e., quantities appropriate for redistribution 
after conversion to crack) in urban areas of the Division.
    Crack Cocaine.--Crack cocaine is available throughout the 
Washington Division are of responsibility in quantities ranging from 
rocks up to one kilogram. Most of the crack cocaine distributed within 
the Division is brought in as cocaine HCl and subsequently converted to 
crack. Generally, significant quantities of crack cocaine are not 
stockpiled and are manufactured according to demand.
    Question. Two months ago, Administrative Law Judge Mary Bittner 
ruled that University of Massachusetts Professor Dr. Lyle Craker could 
grow marijuana for medical research purposes. Judge Bittner found a 
``minimal risk'' that the marijuana would be diverted to the black 
market. And she found that the government's current use of one medical 
marijuana research facility insufficient to meet the needs of 
legitimate medical researchers. DEA must now review Judge Bittner's 
ruling granting Dr. Craker approval to cultivate medical marijuana.
    What procedures will DEA follow in reviewing Judge Bittner's 
ruling? Will DEA solicit the input of governmental and non-governmental 
organizations in this process?
    Answer. DEA has never denied a registration to a person seeking to 
conduct clinical research with marijuana whose research protocol has 
been deemed meritorious by the Department of Health and Human Services. 
By law, DEA must--prior to granting a registration to conduct such 
research--seek the input of the Department of Health and Human Services 
(DHHS) as to the scientific merit of the proposed research. If DHHS 
finds the proposed research to be scientifically meritorious and the 
researcher to be competent, DEA must assess whether the research will 
have in place sufficient safeguards against diversion. Provided the 
diversion controls are sufficient and the proposed research is 
otherwise in conformity with the Controlled Substances Act, DEA will 
grant the research registration. Under the Administrative Procedure Act 
and the Controlled Substances Act, the Administrative Law Judge issues 
recommendations rather than final decisions. Ultimately, the Deputy 
Administrator of DEA makes the final determination.
    The University of Massachusetts case has been submitted to the 
Deputy Administrator for a final determination. While the case remains 
pending before the agency, it would inappropriate for DEA to comment on 
it.
    Question. In May of 2006, DEA arrested five Mexican nationals 
during a raid at a heroin lab in Toluca, Mexico. The lab was suspected 
of being the principal source of fentanyl pushed into the U.S. drug 
supply of heroin and cocaine, causing deaths in eight states. U.S. Drug 
Czar John Walters estimated that there could be 1 million doses of the 
tainted drug on the streets.
    Are you concerned that drug traffickers have substantially poisoned 
the U.S. drug supply?
    Answer. DEA is deeply concerned over the illicit distribution of 
fentanyl, which has caused an unprecedented outbreak of fentanyl-
related overdoses. Between April 2005 and February 2007, at least 972 
confirmed fentanyl-related deaths, and an additional 162 suspected 
fentanyl-related deaths have occurred primarily in Delaware, Illinois, 
Maryland, Michigan, Missouri, New Jersey, and Pennsylvania. A total of 
903 confirmed fentanyl-related deaths occurred during 2006.
    DEA has responded by hosting a coordination meeting of federal, 
State, and local law enforcement officials in Chicago in June of 2006 
to address this recent fentanyl outbreak. Several DEA Field Divisions, 
including DEA's Mexico City office, the Department of Justice, and the 
Office of National Drug Control Policy (ONDCP), state chemists, and 
public health and treatment officials attended this event. DEA has 
assisted the interagency response to the fentanyl threat by 
participating in numerous teleconferences with SAMSHA (Substance Abuse 
and Mental Services Health Administration), CDC (Centers for Disease 
Control) and other agencies regarding fentanyl-related deaths.
    Question. Is there any indication that traffickers may be building 
more labs? And do you believe Congress needs to tighten controls on the 
precursors used to make fentanyl?
    Answer. Because of recent clandestine laboratory activity and the 
serious threat illicitly produced fentanyl poses to the public safety, 
DEA will regulate or control the chemical precursors used in the 
illicit manufacture of fentanyl. These precursors are 4-anilino-N-
phenethyl-4-piperidine (ANPP), (CAS# 21409-26-7) and N-phenethyl-4-
piperidone (NPP), (CAS# 39742-60-4). Both of these precursors are 
required to produce fentanyl. NPP produces ANPP which is not 
commercially available and is the direct precursor to fentanyl.
    DEA has controlled the intermediary precursor, N-phenethyl-4-
piperidone (NPP) as a List I chemical under the Controlled Substances 
Act (CSA) through an Interim Rulemaking, effective April 23, 2007. The 
new rule subjects handlers of NPP to the chemical regulatory provisions 
of the CSA. The designation of NPP as a List I chemical subjects NPP 
handlers to all of the regulatory controls and administrative, civil, 
and criminal sanctions applicable to the manufacture, distribution, 
importing, and exporting of a List I chemical. Persons potentially 
handling NPP, including regulated chemical mixtures containing NPP, are 
required to comply with the List I chemical regulations including 
registration, records and reports, import/export, security, and 
administrative inspection.
    DEA is also moving to control the precursor chemical, 4-anilino-N-
phenethyl-4-piperidine (ANPP) as a schedule II controlled substance, 
because it is an immediate precursor in the production of fentanyl and 
warrants the stricter DEA controls applicable to schedule II drugs. DEA 
is in the process of preparing a Federal Register Notice to propose 
this control. As a schedule II controlled substance, ANPP will be 
subject to the same registration, recordkeeping, security and import/
export controls as fentanyl.
                                 ______
                                 
            Questions Submitted by Senator Richard C. Shelby
                            methamphetamine
    Question. Administrator Tandy, methamphetamine use has become a 
severe and very worrisome problem in Alabama. While the number of labs 
seized in Alabama has decreased significantly the problems related to 
this drug continue to worsen.
    Can you tell the Committee how methamphetamine distribution has 
changed?
    Answer. Methamphetamine is unique from other common drugs of abuse 
in that it is a synthetic drug, and its precursor chemicals have 
historically been easy to obtain and inexpensive to purchase. These 
factors contributed to methamphetamine's rapid sweep across our nation. 
However, State legislation, the Federal Combat Methamphetamine Epidemic 
Act, and law enforcement efforts have all contributed to a significant 
decline in methamphetamine labs inside the United States. The number of 
methamphetamine laboratory incidents reported in the United States has 
decreased from 17,857 in 2004 to 7,385 in 2006, a 59 percent 
decrease.\3\ The number of ``super labs'' seized in the United States 
dropped from 144 in 2002 to 20 in 2006, a decrease of 86 percent.
---------------------------------------------------------------------------
    \3\ Methamphetamine laboratory incident data is current as of 
August 28, 2007.
---------------------------------------------------------------------------
    Current drug and lab seizure data suggests that roughly 80 percent 
of the methamphetamine used in the United States now comes from larger 
laboratories run by Mexico-based trafficking organizations operating on 
both sides of the border. The proliferation of methamphetamine across 
the United States, and its spread to states such as Texas, Georgia, and 
Alabama, has required our offices, in concert with their State and 
local counterparts, to gear the majority of their methamphetamine 
enforcement efforts towards the targeting of poly-drug trafficking 
organizations, rather than small lab operators. These drug trafficking 
organizations have distribution networks throughout the United States, 
as well as access to drug transportation routes to smuggle the 
methamphetamine from Mexico into the United States.
    Question. How are you attacking this problem?
    Answer. DEA is working hard with the Government of Mexico to target 
the criminal organizations involved in the diversion of precursor 
chemicals and the producing and trafficking of methamphetamine. 
Relations between Mexican authorities and DEA are at an all time high 
in terms of chemical control. Mexico has imposed import quotas tied to 
estimates of legitimate national needs. The Mexican Government limited 
pseudoephedrine, ephedrine, and combination product importation permits 
to 70 tons during 2006; this is a reduction of 53 percent from the 2005 
level of imports (150 tons). Mexico has discussed revising their quota 
downward even further in 2007.
    In May 2006, at the National Methamphetamine and Chemicals 
Initiative (NMCI) Strategy Conference in Dallas, Attorney General 
Gonzales announced important new anti-methamphetamine domestic 
initiatives, as well as new partnerships between the United States and 
Mexico in fighting methamphetamine trafficking. These initiatives will 
improve enforcement and information sharing, increase law enforcement 
training, and increase public awareness both domestically and 
internationally. Since this announcement, methamphetamine enforcement 
teams have been formed on both sides of the border and DEA has donated 
eight refurbished clan lab trucks to Mexico.
    Additionally, DEA and the Department of State, Bureau of 
International Narcotics and Law Enforcement Affairs trained over 2,000 
Mexican officials in fiscal year 2006 on a variety of investigative, 
enforcement, and regulatory methods related to methamphetamine 
trafficking and manufacturing. This training included instruction on 
clandestine laboratory investigations, precursor chemical 
investigation, and drug identification. As a result of this training, 
Mexican law enforcement officials have had significant success in 
identifying labs.
    In fiscal year 2006, DEA also trained over 41,000 State and local 
law enforcement officers, including over 1,000 in how to conduct 
investigations and dismantle seized methamphetamine labs. By the end of 
2008, DEA also plans to complete a clandestine laboratory training 
facility in Quantico, Virginia to better train more State and local 
officers.
    DEA has expanded the role of its Clan Lab Enforcement Teams to 
target Mexican methamphetamine trafficking organizations. These teams 
use their lab expertise to trace chemicals, finished methamphetamine, 
and drug proceeds to drug trafficking organizations in the United 
States and Mexico. These teams also work to identify and dismantle 
U.S.-based methamphetamine transportation and distribution cells.
    DEA has also developed an intelligence collection program, 
Operation White Fang, to assist in the identification and targeting of 
organizations responsible for producing and trafficking methamphetamine 
across the entire Southwest Border. The operation focuses particularly 
on the groups responsible for the drug related violence facilitated by 
the major Mexican cartels operating along the U.S./Mexico border. In 
the fiscal year 2008 President's budget, DEA requests $325,000 to 
expand this operation.
    Question. How has the DEA adjusted its enforcement activities to 
meet this threat?
    Answer. In addition to the efforts mentioned above, DEA has used a 
multi-tiered approach over the last several years to enhance its attack 
on the diversion of bulk quantities of key precursors needed to 
manufacture methamphetamine, ephedrine, and pseudoephedrine. On the bi-
lateral front, through our offices based in the United States and 
overseas, we are making headway by actively targeting, through joint 
investigations and initiatives, the diversion of precursor chemicals 
and the organizations involved in this activity. On the multi-lateral 
front, we are working with relevant international organizations and 
engaging both source and transit countries through international forums 
to target the diversion of these substances and to promote and 
promulgate good practices to prevent their diversion in the future.
    In March 2006, the United States successfully sponsored a 
resolution at the United Nations Commission on Narcotic Drugs (CND) 
that requests countries to provide and share voluntary information 
relating to their annual requirements for key methamphetamine 
precursors and urges countries to provide information to the 
International Narcotics Control Board (INCB) on shipments of these 
precursors in both bulk and tablet forms. This data will serve to allow 
the international community to observe where potential areas for 
diversion of these precursor chemicals are occurring. At present, some 
80 nations have provided estimates of their annual licit requirements 
for bulk ephedrine and pseudoephedrine to the INCB who in turn will 
publish this information on a yearly basis in their annual precursor 
report. Importantly, the resolution also requests that countries permit 
the INCB to share information regarding suspicious shipments with law 
enforcement authorities, so that appropriate measures can be taken in 
order to prevent or interdict those shipments of concern.
    During a meeting of the CND in March 2007, the United States joined 
the European Union (EU) in co-sponsoring an EU-drafted resolution which 
contained many useful and potentially important provisions regarding 
methamphetamine precursor control. Among other things, the resolution 
requests member states to voluntarily recognize the heightened threat 
of diversion of ephedra and phenylacetic acid, to exercise increased 
vigilance regarding their movement, to apply available monitoring 
measures regarding the trafficking of non-controlled derivatives and 
substitute chemicals, and to develop further national guidelines and 
training programs in consultation with industry with respect to 
precursor chemical control.
    While theses resolutions on precursor chemical control are 
important steps, they are voluntary measures which will take several 
years to be fully implemented and, as such, we do not see them as the 
sole solution to our obtaining information regarding diversion of these 
precursors from licit trade. We do see the CND resolutions as important 
steps in the sharing of information to which, heretofore, we were not 
privy.
    Question. Would you explain the toxic and environmental challenges 
that DEA agents face when they find these labs?
    Answer. Clandestine drug laboratories are a unique law enforcement 
challenge to DEA agents, our State and local law enforcement 
counterparts, and any peripheral support personnel providing assistance 
to the investigation and dismantlement of a lab. Methamphetamine's 
addictive characteristics produce devastating effects on all of its 
victims. These victims are not limited to those who choose to use this 
poison, but include others who become part of what could be considered 
the drug's ``collateral damage''. Those who suffer the ``second-hand'' 
effects of meth include the victims of methamphetamine-related crimes, 
innocent children whose homes have been turned into toxic clandestine 
lab sites, law enforcement officers who work with the hazardous 
materials found at lab sites, and the environment from the 
approximately five pounds of toxic waste produced for every pound of 
methamphetamine cooked.
    Poisons and other highly toxic materials are often used in the 
illicit manufacturing of methamphetamine. The potentially hazardous 
elements that agents face when addressing a clandestine lab may include 
corrosive chemicals in combination with flammable chemicals. The 
corrosives may be both acidic and caustic in nature and in liquid, 
solid, or gas form. Aside from the volatilization of acids and solvents 
due to the introduction of heat, other more lethal compounds may be 
created at various stages in the clandestine production process. 
Chemical reactions between these ingredients may also generate reaction 
by-products that present a significant toxic danger. Additionally, the 
fire and explosion hazards in clandestine lab environments are 
considerable as a result of the solvents used in the chemical 
processing and extraction of the methamphetamine.
    During clandestine laboratory investigations, aside from evidence 
collection, DEA and law enforcement in general only dismantle and 
remove the chemicals, glassware, and apparatus. Law enforcement 
conducts only gross contaminant remediation and virtually no site 
decontamination. Currently, no national standards for remediation and 
decontamination exist. However, the U.S. House of Representatives 
recently passed legislation to change this. The legislation charges the 
Environmental Protection Agency with the development of guidelines to 
assist State and local authorities in cleaning up former 
methamphetamine lab sites.
                        financial investigations
    Question. Administrator Tandy, when we met earlier this year we 
discussed the fact that Americans spend up to $65 billion annually on 
illegal drugs. DEA is making a renewed effort to go after the cash 
profits in the drug business. You stressed in our meeting that DEA is 
looking at the drug trade as a business and attacking the flow of drug 
proceeds with financial and money laundering initiatives.
    Can you tell the Committee more about what you are doing in these 
financial investigations?
    Answer. DEA has set a five-year plan that by fiscal year 2009 we 
will be taking $3 billion per year away from all drug trafficking 
organizations (DTOs). The cumulative targets over five years total $10 
billion. In just the first two years we have denied traffickers $3.5 
billion in revenue. We count not only the money and property seized, 
but also the value of the drugs seized--that is the amount of funds 
invested in the drugs by the owner computed at production cost levels, 
which are very conservative.
    To accomplish these goals, DEA makes use of its authority to 
conduct undercover operations, known as Attorney General Exempted 
Operations (AGEO), which employ sensitive activities delineated by the 
Department of Justice (DOJ). In order for DEA to participate in these 
undercover money laundering investigations, the operation must undergo 
review by the Sensitive Activities Review Committee (SARC) and be 
approved by both the DEA Administrator and by a Deputy Assistant 
Attorney General of DOJ's Criminal Division.
    There are two possible types of SARC approved operations. The first 
is a Shelf Account operation. This operation enjoys the authority to 
establish undercover corporations and to open related undercover bank 
accounts to assist in ongoing narcotics investigations. A DEA office 
may then conduct transactions with a cap of $1.5 million.
    The second type of SARC approved operation is a Full Exemption. 
This type of operation allows for the establishment of an undercover 
corporation and bank account, but also affords the operation the use of 
any commissions collected to offset reasonable undercover expenses and 
to enter into an undercover lease of property. These types of 
investigations allow DEA Special Agents, acting in an undercover 
capacity the ability to infiltrate drug organizations through the use 
of financial transactions.
    Both types of operations are approved for a period of six months, 
each must call DEA's Office of Financial Operations (FO) in advance of 
any undercover pickup for a FO transaction number for tracking purposes 
and to assure FO that they have received prior approval from the DEA 
Country Attache (CA) from any affected foreign office. The individual 
CA approval will also include documentation of the U.S. Ambassador and 
host counterpart's prior approval as well. All three approvals must be 
secured before any enforcement activity takes place in the foreign 
country, to include the wire transferring of funds which have been 
laundered, thus insuring compliance with DEA's Memorandums of 
Understanding with the Department of State as well as the host 
government counterparts. Each of the operations must also submit 
monthly statistical reports and undergo onsite inspections every six 
months.
    A Fully Exempted operation will have a cap of $10 million, which 
may be increased upon a written request with an appropriate 
justification to the SARC committee. Each Fully Exempted operation must 
also be target specific, precluding DEA from operating open ended 
umbrella operations. Before extensions are granted for Fully Exempted 
operations, a review of the operation's arrests, seizures, and Title 
IIIs (lawful communications intercepts) conducted during the current 
reporting period are taken into consideration.
    Question. How do drug cartels get their cash profits out of this 
country and how is the DEA dealing with this threat?
    Answer. According to current estimates from the National Drug 
Intelligence Center, between $13 billion and $47 billion per year in 
drug trafficking profits leave the United States, mostly in the form of 
bulk currency, bound for international sources of supply. The smuggling 
of large sums of cash across our borders is the primary method used to 
expatriate drug proceeds from the United States. To target this flow of 
cash, DEA has initiated the following national financial initiatives:
    The Bulk Currency Initiative, a Special Enforcement Operation, 
coordinates all U.S. highway interdiction money seizures to develop the 
evidence needed to identify, disrupt, and dismantle large-scale 
narcotic trafficking organizations. When DEA is notified of a cash 
seizure by a State or local municipality, agents respond to the scene, 
assist with debriefing the defendants, and coordinate potential 
controlled deliveries of currency. Special Agents also assist in 
follow-up investigations, seizure and forfeiture of currency, and 
provide guidance on federal prosecution. DEA's El Paso Intelligence 
Center (EPIC) conducts research and analyzes evidence and intelligence 
relating to PTOs and other types of investigations.
    The Bulk Currency Initiative is aimed at assisting in the 
development of new investigations pertaining to seizures of large 
amounts of United States currency, as well as linking these seizures to 
ongoing drug investigations. This initiative endeavors to bring 
together all of the information and intelligence from existing 
interdiction programs through cooperative and collaborative sharing of 
information between federal, State, and local initiatives, and includes 
currency seizures made on United States highways through the highly 
successful Operation Pipeline program, and currency seizures made at 
various United States commercial airports through Operation Jetway. 
Additionally, DEA relies on its extensive foreign operations apparatus 
to identify instances where bulk United States currency is introduced 
into a foreign country's local economy.
    The Bulk Currency Initiative attempts to coordinate investigations 
that will be initiated in the field and assist in obtaining evidence 
and intelligence that may be shared among the various DEA field 
divisions. The DEA has found that the transportation of large amounts 
of United States currency from within the United States to various 
border locations continues to be one of the primary methods utilized by 
large scale trafficking organizations to launder narcotics proceeds. 
After arrival at any of the numerous border crossing points throughout 
the United States, this bulk currency is easily transported into a 
foreign country where it can be placed into the financial system with 
less risk of detection or reporting to law enforcement authorities, and 
eventually be utilized for a variety of illegal purposes. This movement 
of bulk cash presents an opportunity for law enforcement entities to 
disrupt an important facet of the narcotic trafficking process.
    The Concealment Trap Initiative, a Special Enforcement Operation 
program, targets those vital service providers who build concealed trap 
compartments in conveyances and residences for DTOs. The initiative has 
a two-fold objective. The first is to identify, prosecute, and/or gain 
the cooperation of the trap builders to identify the DTOs for whom they 
have previously built concealed traps. The second is, through the use 
of these cooperators and/or DEA Special Agents who have already been 
specially trained in the art of building concealment traps, to offer to 
build traps or provide trapped out vehicles (within the legal 
framework). These traps will have installed tracking devices to enable 
law enforcement to monitor the movement of these vehicles. These 
trapped vehicles will act as pointers to identify stash houses or 
locations where drugs and money are picked up and dropped off. Once 
these locations are identified, surveillance, controlled deliveries, 
communications intercepts, and other investigative techniques will 
enable the investigators to identify and seize millions in additional 
drug proceeds. Interdiction stops of vehicles using independent 
probable cause, with no reference to DEA's current investigation, will 
also be performed whenever possible. The vehicle with a concealed 
compartment will also be used to track bulk currency shipments back to 
the source of the drugs.
    Operation Highwire, a Special Enforcement Operation program, funds 
undercover sting operations targeting money remitters and others who 
offer money laundering services. Operation Highwire focuses on 
individuals involved in laundering drug proceeds through money remitter 
companies or individuals providing remitter-like services. DEA is 
targeting the finances of drug trafficking organizations operating 
along the Southwest Border, in the transit zone, and in source 
countries. DEA is also expanding financial investigations beyond the 
Western Hemisphere. Through its presence in Afghanistan, Dubai, and the 
surrounding region, DEA is targeting the flow of drug revenue suspected 
of financing terrorist activities. For example, DEA is developing 
intelligence on Afghanistan-based Hawaladars.
    The Hawala system is the principal method through which money is 
moved from, to, and throughout Afghanistan. Hawala is an established 
and accepted facet of the licit Afghan financial services industry. 
Legitimate Hawala brokers exist in Afghanistan and throughout the 
Islamic world. Afghan legislation requires hawalas to register with and 
be regulated by the Government of Afghanistan. The underground system 
thrives particularly due to the dearth of a legitimate banking industry 
in country. Approximately eleven banks have opened in Afghanistan since 
the fall of the Taliban. To date, these banks enjoy only a small 
portion of business typically reserved for banks. In zero sum fashion, 
Hawaladars often replace existing banks as providers of financial 
services. The principal service provided by Hawaladars is the transfer 
of money from one place to another. That traditional service does not 
preclude others, such as: currency exchange, check cashing, 
safeguarding of monies (i.e. acceptance of deposits), and other 
services. Moreover, it is believed that a significant percentage of 
Hawaladars also work in the import/export field.
    By working closely with our host nation counterparts, such as the 
Counter Narcotics Police-Afghanistan, DEA enjoys the access it needs to 
learn how traditional systems like Hawala operate. This knowledge, 
combined with DEA's institutional expertise in international drug 
investigations and drug intelligence will allow DEA to demonstrate that 
the Hawala system is not invulnerable. DEA's initial objective is to 
identify illicit money remitters operating in Afghanistan, and the 
Hawaladars with whom they work worldwide.
    Specific attention will be paid to identifying linkages to the 
United States. Acquisition of Hawaladar identifying information such as 
telephone/cell phone contact information, names, and possibly addresses 
will be the first step towards homing in on those involved with drug 
money laundering and with the provision of financial services to 
terrorists. Hawala transaction data is obtained through various means. 
Some is obtained through arrests and/or the execution of search 
warrants by DEA's foreign counterparts, who share the data with us. 
Communication intercept operations also yield hawala transaction data. 
Hawaladars in the United Arab Emirates are required by the government 
to file suspicious activity reports and to make their books available 
for inspection. Afghan authorities are implementing similar measures. 
Frequently, legitimate hawaladars form guild-like organizations, 
generally referred to as Hawala Unions, which set and enforce business 
standards and guarantee customers' rights. The Afghan government has 
established liaison relationships with a number of these unions in 
furtherance of developing market watch intelligence. Upon 
identification of a hawaladar participating in illicit activity, 
operational personnel will pass communications and other identifying 
information to the DEA's Special Operations Division and OCDETF's 
Fusion Center for exploitation. Between DEA, FBI, and other U.S. 
government database checks, and SOD communications exploitation, those 
Hawaladars determined to be involved with narcotics trafficking and/or 
terrorism will become potential targets of investigation.
    The Money Trail Initiative (MTI) is a Special Operations Division 
(SOD) supported multi-jurisdictional, multi-agency, Organized Crime 
Drug Enforcement Task Force (OCDETF) initiative targeting various DTOs 
that attempt to avoid law enforcement detection by smuggling multi-
million dollar amounts of U.S. currency within and out of the United 
States to further their criminal enterprises. The MTI includes attempts 
to identify new bulk currency smuggling techniques and has already 
demonstrated a tangible impact from several operations. To date, 
$126,098,915 in cash and $22,667,016 in assets have been seized. A 
total of 14,719 kilograms of cocaine, 161,447 pounds of marijuana, 538 
kilograms of methamphetamine, 300 pounds of ice, and 35 kilograms of 
heroin have been taken off the streets under this initiative. The MTI 
involves the coordination of national bulk currency wire tap 
investigations and employs a ``Follow-The-Money'' strategy that enables 
domestic and Mexico-based DEA offices to utilize a more systematic and 
proactive approach to respond to techniques and trends in bulk currency 
operations. Through a coordinated operation, agents track the movement 
of currency forward to intended recipients and backward from the 
couriers to identify the breadth and scope of the DTOs that generate 
money. The MTI allows investigators to identify the money and drug 
transportation coordinators, couriers, and facilitators that are often 
shared between multiple DTOs.
    DEA Financial Investigative Teams focus on the flow of drug 
proceeds and how they can be identified and seized. While DEA will lead 
these efforts, they will involve cooperation with our federal, State, 
local, and foreign counterparts.
    The National Trucking Initiative, a Special Enforcement Operation 
program, is aimed at assisting in the development of relationships 
between DEA and the United States trucking industry. This will allow 
DEA access to the industry's assets and intelligence, which will assist 
DEA in disrupting the method for transporting drug proceeds via rogue 
trucking companies or transportation groups, in collaboration with 
several major truck lines.
    The License Plate Reader (LPR) Initiative combines the DEA, HIDTA, 
and U.S. Customs and Border Protection (CBP) database capabilities with 
new technology to identify, interdict, and/or develop intelligence on 
conveyances being utilized to transport drugs and bulk cash. DEA has 
implemented capabilities to exploit data collected from the LPR in 
Texas where the DEA Houston Division Office is currently operating LPRs 
in Falfurrias and Laredo. Use of the data from LPRs will be expanded 
nationally as funding becomes available. DEA exploits data collected 
from the LPR devices to tip-off DEA and other law enforcement agencies 
to suspect vehicles moving both to and from the Mexico border and 
identify conveyances being utilized to transport drugs and bulk 
currency. This is accomplished using the El Paso Intelligence Center as 
the recipient of all tactical requests. In addition, DEA has set an 
internal requirement to determine what strategic value and uses are 
being gained from the program to assure the program is best utilized. 
Once the proper network is funded, LPR data will be funneled to the 
OCDETF Fusion Center where it will be used for a comprehensive 
analytical research project.
    In the Fiscal Year 2007 Global War on Terror Supplemental, DEA 
requested and received $3,000,000 in non-personnel funding for 
Financial Investigations to support a proactive attack on the financial 
infrastructure of drug trafficking organizations operating in 
Afghanistan and within the region to help prevent Afghanistan from 
becoming a narco-terrorist state. This funding will support two 
initiatives: the first is an operation to develop a precise 
understanding of the Hawala system, and the second is to establish an 
ongoing, coordinated, regional Financial Investigation Training 
Program. The training program is being done in conjunction with the 
Department of State, the Department of Defense, and on a country by 
country basis with pertinent Operation Containment allies.
    Question. Under the Bank Secrecy Act, the Departments of Treasury 
and Homeland Security administer a number of enforcement activities and 
regulatory restrictions on money remitters. How are you collaborating 
with these Departments to jointly stop the flow of money?
    Answer. Money remitters are classified as Money Service Businesses 
(MSB) under the Bank Secrecy Act (BSA). As a MSB, money remitters fall 
under the Currency Transaction Report (CTR) filing requirements of the 
BSA. IRS is designated as the regulatory monitoring authority for MSBs 
for BSA regulatory compliance. Additionally, IRS-Criminal Investigation 
(CI) has sole jurisdiction over the enforcement of the CTR reporting 
requirements. Since both domestic and international drug trafficking 
organizations exploit the vulnerabilities of the money remitting 
industry, DEA works very closely with the IRS on both case specific and 
industry-wide programs relating to money remitters. DEA also works with 
DHS/Immigration and Customs Enforcement (ICE) on case specific matters 
involving money remitters when the facts of the case involve the cross 
border transmission of drug money. For example, a DEA group is assigned 
to the ICE-led El Dorado Money Laundering Task Force in New York.
    In addition to the flow of money through MSBs, it is likely that 
each year $8.3 billion to $24.2 billion in Mexican and Colombian 
wholesale drug proceeds generated in the United States are moved into 
Mexico via bulk cash smuggling by vehicles.\4\ To combat this illicit 
drug money transiting the Southwest Border (SWB) into Mexico, DEA field 
divisions along the border are actively working with Customs and Border 
Protection (CBP), ICE, and IRS-CI on proactive investigations and money 
flow initiatives:
---------------------------------------------------------------------------
    \4\ U.S. Department of Justice National Drug Intelligence Center 
(2006). Prepaid Stored Value Cards: A Potential Alternative to 
Traditional Money Laundering Methods. Assessment, Product No. 2006-
R0803-001, 9 pages.
---------------------------------------------------------------------------
  --DEA, ICE, and IRS-CI all participate in the Texas Department of 
        Public Safety (DPS) Post Seizure Analysis Team in Austin, 
        Texas.
  --DEA, ICE, and the Arizona DPS are working together on a large 
        multi-jurisdictional investigation targeting the DTOs utilizing 
        concealed traps to transport money throughout the United States 
        and into Mexico.
  --DEA is working very closely with the Treasury Office of Foreign 
        Assets Control (OFAC) through real-time access to sensitive 
        case related intelligence to assist OFAC in its Kingpin and 
        Tier II designation of Mexican drug traffickers and their 
        associated entities.
  --ICE and CBP are working with DEA's Houston Field Division on 
        investigations into Mexican drug trafficking organizations 
        responsible for sending thousands of kilograms of cocaine and 
        methamphetamine into the United States, and tens of millions of 
        drug dollars back to Mexico.
  --ICE is working with the DEA Phoenix Field Division and Arizona DPS 
        on initiatives aimed at interdicting the flow of bulk cash 
        across the SWB. For example, the Arizona Money Trap Initiative 
        was designed by the Phoenix Field Division to form a 
        partnership with the various federal, State, and local law 
        enforcement entities in Arizona. This partnership attacks as 
        many facets as possible of the transportation and smuggling of 
        bulk currency across the State. At the core of the initiative 
        is the concept that information from various cash seizures will 
        be shared, and acted upon by the member entities in a 
        coordinated manner The initiative has several ongoing cases.
  --EPIC, through its new National Seizure System (NSS), will act as a 
        central repository for bulk cash interdiction intelligence 
        information. ICE has tentatively agreed to place its bulk cash 
        information in the NSS.
  --ICE and IRS-CI are participating agencies at the DEA Special 
        Operations Division (SOD). SOD coordinates DEA's largest and 
        most sensitive investigations on drug money flow across the 
        SWB. As participants at SOD, both ICE and IRS-CI have access to 
        the SOD databases for deconfliction and coordination of their 
        money flow investigations with DEA's.
  --DEA and CBP are working on a number of initiatives aimed at fusing 
        intelligence to identify and interdict money flowing across the 
        SWB by and on behalf of DEA targets of investigation. DEA and 
        CBP Headquarters are working with the Fusion Center to test the 
        LPR program by combining indices from each organization. DEA 
        and CBP are also working in Texas on the Divisional use of the 
        LPR system. Additionally, DEA and CBP are working at the 
        Headquarters level in the trial stages of using CBP 
        international parcels data to target and interdict bulk 
        currency and other contraband being shipped via parcels out of 
        the United States.
  --IRS-CI is assisting the DEA Las Vegas District Office in the 
        follow-up investigation of the recent seizure of $207 million 
        in Mexico City from a supplier of precursor chemicals used in 
        the production of methamphetamine.
                                internet
    Question. Drug traffickers, like virtually every other industry, 
legal or illegal, use the internet to conduct business.
    What is the DEA doing to attack this problem?
    Answer. The Internet is the fastest growing source of diverted 
controlled pharmaceuticals. DEA is working hard to attack this problem 
on many fronts:
  --DEA has provided all field divisions with undercover credit card 
        accounts in order to make online purchases of controlled 
        pharmaceuticals for use as evidence in Internet investigations.
  --From October 2002 through December 2006, a total of 3,924 
        individuals (3,327 federal participants and 597 State and local 
        participants) have completed DEA's online investigations 
        training program. This training is provided to DEA Special 
        Agents, Diversion Investigators, and Intelligence Analysts, as 
        well as State and Local Task Force Officers.
  --DEA's Online Investigations Project is used to provide Whois 
        (registration information relative to domain names) and trace 
        route information on suspect websites that might be illegally 
        distributing controlled substances and link them to other 
        associated websites.
  --In order to identify and shut down Internet pharmacies violating 
        the Controlled Substances Act, DEA's Diversion Control Program 
        is using all regulatory tools possible, including 
        Administrative Inspection Warrants, registration suspensions, 
        and criminal/civil charges.
  --DEA is using the Automated Reports and Consolidated Order System 
        (ARCOS) to identify high volume purchasers of narcotic 
        controlled substances and to determine which retail pharmacies 
        and practitioners are most likely involved in the illicit 
        distribution of controlled substances over the Internet.
  --In August 2005, DEA began its Distributor Initiative Program. Since 
        that time DEA has been meeting with representatives of the 
        pharmaceutical industry to educate them on the issue of illegal 
        diversion via the Internet. Through this program DEA has sought 
        the cooperation of the distributors of controlled 
        pharmaceuticals to increase their due diligence in order to 
        prevent further diversion of controlled substances. As a result 
        of this program, 24 distributors working out of 129 
        distribution outlets have voluntarily stopped selling or 
        voluntarily restricted sales of controlled substances to 
        hundreds of domestic pharmacies that were attempting to make 
        suspicious orders from the distributors. Each distribution 
        outlet is registered with DEA and each can loose its 
        registration independently of the other outlets.
  --DEA has worked with Internet search engines such as Google, AOL, 
        and Yahoo to create links to DEA's Diversion Website. These 
        links are designed to appear when consumers attempt to buy 
        controlled substances online without the requisite medical 
        exams and prescriptions. In 2005 and 2006, these links appeared 
        more than 72.9 million times.
  --DEA has initiated over 218 investigations of online sales of 
        controlled substances without a prescription through the end of 
        fiscal year 2006. DEA initiated an additional 11 investigations 
        during the first quarter of fiscal year 2007.
  --As a result of Internet investigations, DEA seized approximately 
        $30 million in cash, bank accounts, property, and computers 
        during fiscal year 2006. In fiscal year 2005, Internet 
        investigations resulted in $34.5 million in seizures, a 190 
        percent increase over fiscal year 2004 ($11.9 million). 
        Internet investigations have resulted in the seizure of $13 
        million during the first quarter of fiscal year 2007.
  --DEA has developed a close working relationship with Internet 
        Service Providers (ISPs), Voice over Internet Protocol (VoIP) 
        providers, and email providers from around the world to include 
        Microsoft, Vonage, Google, Time Warner, and AT&T. These 
        providers have supplied DEA with a secure method to deliver 
        data from the provider to DEA field agents for an immediate 
        enforcement response.
  --DEA routinely meets with other members of the law enforcement 
        community from around the world. DEA has built an extensive 
        cooperative relationship with other federal agencies to include 
        FBI, Secret Service, ICE, and the U.S. Marshals Service. With 
        the cooperation of these federal counterparts, DEA is able to 
        leverage unparalleled engineering expertise for the design and 
        implementation of technical solutions that ensure law 
        enforcement's ability to lawfully intercept emerging 
        technologies.
  --DEA implemented a Technology Working Group (TWG) to address 
        technical issues associated with Internet intercepts. The TWG 
        routinely meets with members of the Internet industry and 
        becomes educated on new technologies that could affect DEA, 
        either positively or negatively. The TWG gathers and reviews 
        reports from our field offices that discuss technologies and 
        the obstacles associated with these technologies. The TWG 
        follows up with the respective field agents to become more 
        familiar with the technologies and how they effect DEA's 
        operations. If the collected intelligence needs to be 
        disseminated to additional sections within DEA or the law 
        enforcement community, the TWG is responsible for ensuring that 
        data is disseminated appropriately.
  --In 2005, DEA hosted interagency meetings with executive level 
        representatives from over two-dozen corporations in three key 
        industry groups (Internet, express parcel delivery, and 
        financial) used by Internet pharmaceutical traffickers. Since 
        those meetings, DEA has developed progressively closer working 
        relationships with the leading corporations in each industry 
        sector and has coordinated interagency outreach to these same 
        corporations. These industry relationships are intended to: (1) 
        promote information sharing within the private sector and with 
        DEA to proactively identify and target major Internet 
        controlled pharmaceutical traffickers; and (2) identify and 
        share best practices across industry groups to more effectively 
        deny the use of business services by Internet controlled 
        pharmaceutical traffickers.
    Question. Given the large number of new encrypted communication 
devices entering the market, how does DEA stay up with this evolving 
technology?
    Answer. The use of encrypted communications by drug trafficking 
organizations is becoming more prevalent. To counter this, DEA is an 
active participant in a number of technology working groups and 
routinely meets with law enforcement and intelligence agencies from 
around the world to discuss intercept solutions for emerging encryption 
devices. DEA also employs a highly specialized staff of engineers that 
test, develop, and evaluate solutions to defeat or minimize the impact 
of encrypted communications in use by criminal organizations.
    DEA's Office of Investigative Technology, is responsible for the 
design, development, and implementation of technical solutions for the 
lawful intercept of Internet-facilitated communications utilized by 
drug trafficking organizations. However, the complexity and costs of a 
single data network intercept is often overwhelming for law 
enforcement. Furthermore, traditional technologies available to law 
enforcement for data network intercepts are vulnerable to organizations 
that utilize multiple access points for data communications or encrypt 
their communications using high level encryption protocols.
    In the fiscal year 2008 President's budget, DEA requests $1,000,000 
to improve and expand its Internet investigative technologies to combat 
the evolving methods used by drug trafficking organizations. This 
funding will be used to develop and purchase intercept solutions for 
emerging Internet technologies, including data intercept solutions that 
can be placed on a targeted computer to covertly capture all 
communications authorized by a Title III court order. Since the 
intercept solution actually resides on a subject's computer, mobility 
of a target that accesses the Internet through multiple service 
providers can be overcome. Also, encrypted communications can be 
intercepted as the software is able to capture communications in their 
unencrypted state, rather than when they are in transit and secure.
    Ongoing investigations limit DEA's ability to provide specific 
details on the methods and use of this encrypted communication 
technology. However, this enhancement will provide DEA with the 
technical capacity to address certain types of communications that 
cannot be intercepted through conventional methods. The challenge 
facing DEA on these ongoing investigations is that the drug trafficking 
organizations increasingly communicate by means of encryption among 
their associates regarding transportation, distribution routes, and 
money laundering activities. To make it more difficult, some of these 
encrypted email service providers and peer-to-peer communication 
networks are foreign based companies not subject to our laws. 
Therefore, the inability of domestic law enforcement to exploit these 
encrypted communications has allowed the criminal organizations to 
operate with impunity and prohibit the intercept from realizing its 
full investigative potential.
    There are several ongoing investigations that have been adversely 
impacted by the use of encryption by the targeted organizations. For 
example, drug trafficking and money laundering organizations have 
directed members of their organization to use encrypted email service 
providers and peer-to-peer communication networks to facilitate, 
organize, and conduct criminal acts. Drug traffickers have also learned 
to converse over the Internet and on their cell phones using one or 
more encrypted methods. These methods range from sending and receiving 
calls, sending instant messages, and viewing information over an 
encrypted email service and/or peer to peer communication network. 
Additionally, the drug trafficker or money launderer has the ability to 
use a cell phone or computer device with minimal knowledge, identity, 
and cost.
    Question. In your testimony, Administrator Tandy, you identify a 
problem with online pharmacies. What are the challenges these online 
drug stores present to the DEA?
    Answer. The illicit trafficking of controlled pharmaceuticals has 
been facilitated by the wide use of the Internet and the anonymity it 
provides. The existence of readily available drugs on the Internet is a 
great concern because of the potential for abuse and the potential 
safety issues that revolve around what is largely an unregulated 
process. A July 2006 Department of Justice, Office of the Inspector 
General report states, ``The increase in the diversion of controlled 
pharmaceuticals has coincided with the emergence of the Internet as a 
significant source for diverted pharmaceuticals. Hundreds of Internet 
pharmacies have been established through which large amounts of 
pharmaceuticals can be easily purchased with a credit card and without 
a prescription.'' \5\ Much of the problem revolves around third-party 
businesses operating websites that facilitate a doctor's ability to 
write, and a pharmacy to fill, numerous prescriptions without a face-
to-face visit.
---------------------------------------------------------------------------
    \5\ Follow-Up Review of the Drug Enforcement Administration's 
Efforts to Control the Diversion of Controlled Pharmaceuticals. DOJ, 
Office of the Inspector General, July 2006.
---------------------------------------------------------------------------
    DEA investigations indicate the Internet is the fastest growing and 
one of the largest sources of diverted controlled substances. The 
volume of controlled substances being diverted by a single rogue 
pharmacy dispensing via the Internet poses a major threat. For example, 
in fiscal year 2006, DEA identified 34 known or suspected rogue 
pharmacies dispensing controlled substances via the Internet. 
Cumulatively, these pharmacies dispensed 98,566,711 dosage units of 
hydrocodone-based products in 2006. It would take 1,118 legitimate 
pharmacies to dispense the same amount of hydrocodone-based products as 
these 34 rogue Internet pharmacies did in 2006.\6\
---------------------------------------------------------------------------
    \6\ Source: ARCOS data. In 2006, the average U.S. pharmacy 
dispensed 88,178 dosage units of hydrocodone.
---------------------------------------------------------------------------
    Online investigations also require more resources than traditional 
diversion investigations because a large amount of data is retrieved 
and processed during online investigations. For example, Internet 
online pharmacy cases require a cadre of highly skilled engineers to 
develop customized intercept solutions. On average, a major online 
investigation conducted by DEA costs $1.5 million (including salaries 
and operational costs) and requires 27,800 work hours (based on five 
recent major online investigations). In comparison, a typical diversion 
investigation costs $220,000 and requires 3,800 work hours. However, 
online investigations may not require the same amount of resources as 
large non-diversion cases with extensive Title III investigations. For 
example, the recent Operation Three Hour Tour cost $2.4 million and 
required 48,000 work hours.
    One lawful intercept or Title III can reveal hundreds to thousands 
of users. Operation CyberRX was one of DEA's largest Internet 
intercepts and intercepted over 6,500 individuals purchasing 
pharmaceuticals illegally. The volume of data collected during this 
investigation required the deployment of additional resources. As a 
result, the Fort Worth Resident Office has seized over $19 million in 
cash and assets and 19 individuals were arrested.
    Finally, online pharmacies that operate outside of the United 
States and its territories pose legal and technical issues for DEA. 
Internet Service Providers (ISPs) operating within the United States 
are generally responsive to lawful orders issued by U.S. courts. 
However, DEA's regulatory authority and Administrative Subpoena 
authority does not extend to the foreign-based ISPs, companies, or 
pharmacies. Furthermore, DEA is unable to measure the exact number of 
rogue ``pharmacies'' operating outside the United States. A Google 
search may reveal thousands upon thousands of ``sites'' that offer 
controlled pharmaceuticals however many of these sites are transient 
and illusive, taking advantage of the anonymity afforded by the 
Internet. Experience has also shown that many of these are referral 
sites and are not ones that would ultimately fill an order. It is 
usually difficult, if not impossible, to trace where international 
sites are physically located. Some investigations have revealed that 
the web site may be located in one country, while the ``pharmacy'' is 
located in another, and the money is received in yet a third country. 
Often times the international ``pharmacy'' is not a pharmacy at all and 
the products that are shipped may be diluted or counterfeit substances.
    Question. Are there additional legal authorities you need to assist 
you in this war?
    Answer. The Administration is looking at a wide range of potential 
legislative measures. DEA wants to stop the illegitimate online 
pharmacies while ensuring that legitimate pharmacies and doctors are 
able to effectively use the Internet.
    Since the advent of the Internet law enforcement has encountered 
numerous obstacles and challenges. The ``Technological Revolution'' has 
opened new and evolving legal hurtles never before faced by any 
previous generation. Though designed for the benefit of society, the 
Internet has allowed criminals the ability to continue their activities 
while maneuvering through cyberspace under the cloak of anonymity. 
Traditional crimes such as child pornography, identity thefts, drug 
diversion, and fraud are able to flourish in cyberspace. Daily, law 
enforcement, attorneys, legislators, and the courts are all faced with 
new issued brought about by the Internet. Yesterday's laws are often 
inappropriate, outdated, or inadequate to deal with crimes that evolve 
so quickly. Compounding the problem is the fact that often there are 
parallel issues involving the use of the Internet for legitimate and 
well intended purposes. It is therefore vital that when laws are 
drafted to deal with matters as important as the diversion of 
controlled substances that they will withstand the test of time. The 
Drug Enforcement Administration is always willing to provide Congress 
with whatever technical assistance it can for legislators to determine 
what laws they deem appropriate and necessary.
                              surveillance
    Question. The drug cartels are spending millions to overcome your 
surveillance, even conducting counter surveillance activities on the 
DEA.
    What are the cartels doing to make surveillance more difficult?
    Answer. DEA has gathered intelligence that traffickers both in the 
United States and outside the United States have become more 
technologically advanced in an effort to divert law enforcement. 
Devices that are used everyday as a secure means of communication pose 
a threat to law enforcement and its capability to conduct lawful 
intercepts. These devices provide a secure means of viewing and sending 
data over a handheld device (such as a Blackberry) via a foreign based 
company server. This is further accomplished utilizing proprietary 
company software that has the ability to encrypt the data, sent over a 
U.S. based cellular provider's network to a recipient's communication 
device that contains the proprietary software needed to decrypt the 
data. Should U.S. law enforcement intercept this encrypted data 
anywhere between the sender and the recipient, we would not be able to 
decrypt the communications due to its high level encryption algorithms.
    Drug cells operating around the world are aware of the complexity 
in conducting intercepts, whether it is on a telephone or a computer. 
The availability of wireless ``hotspots'' and cybercafes adds to the 
complexity of conducting intercepts because a target is able to utilize 
a laptop computer or an Internet enabled device to access the Internet 
where he/she can use email, oversee financial assets, and make Voice 
over Internet Protocol (VoIP) calls using multiple Internet Service 
Providers (ISPs). Law enforcement does not have the ability to deploy 
mobile intercept equipment from ISP to ISP due to the complexity of 
these intercepts. However, if intelligence is able to determine a 
pattern on a subject's use of the Internet, we can then begin to target 
the provider in hopes of deploying an intercept.
    The use of VoIP services is becoming more common mainly because of 
the low cost of these services. Although DEA is able to intercept VoIP 
communications and routinely does so, providers are beginning to offer 
features such as encryption and peer-to-peer communications for added 
security. One of the most recognizable vendors in this area is Skype 
Communications. Skype is free software that is downloaded off of the 
Internet which allows for encrypted VoIP and instant messaging 
communications between customers that have also downloaded Skype's 
software. The communications only require Internet connectivity to 
facilitate the communications. The communications are not delivered 
through a traditional ISP server but rather each Skype user allows for 
the facilitation of communications over a peer-to-peer network. The 
data delivery of these communications takes an unpredictable route 
making it almost impossible to intercept. Furthermore, if the data was 
intercepted it would be in an encrypted format that would be almost 
impossible to crack. DEA has also observed several additional email 
providers that market their encrypted email features for little or no 
charge.
    Traffickers transiting the high seas on commercial maritime 
vehicles and the Caribbean on go-fast boats also make surveillance 
difficult by communicating by satellite telephones. While DEA has used 
satellite telephone intercepts and maritime tracking devices to 
successfully locate and seize vessels laden with drugs, satellite 
telephone intercepts are extremely costly. For example, there are 
instances where satellite telephone companies are not CALEA compliant 
and DEA must engineer an intercept solution to glean investigative 
information.
    In the fiscal year 2008 President's budget, DEA requests $3,100,000 
for improved satellite telephone and maritime tracking resources, as 
well as additional linguist funding and data collection capabilities.
    In fiscal year 2008, DEA also requests $2,000,000 for tracking, 
sensor, and audio/video surveillance equipment. Surveillance equipment 
is particularly crucial in areas such as the Southwest Border (SWB) 
because it is a major point of entry with few realistic controls. 
Cartels are also building sophisticated encrypted radio networks along 
the SWB for command and control. Surveillance equipment, such as remote 
cameras, tracking devices, and alarms, are one of the only ways to 
cover such an expansive area. DEA field divisions along the SWB employ 
a variety of sophisticated audio and video surveillance equipment 
including mobile surveillance platforms, digital equipment with 
Internet connectivity, mobile x-ray equipment, microwave automated 
repeater systems, and scanners for monitoring radio frequencies. Much 
of this equipment is a ``force multiplier'' because agents do not need 
to be physically present to monitor the surveillance, which enables 
them to be more productively used elsewhere.
    In regards to counter surveillance, it has become more commonplace 
for drug traffickers and drug trafficking organizations to use 
sophisticated countermeasures to detect electronic surveillance 
signals. The most frequently used countermeasure devices are radio 
frequency (RF) detectors, frequency counters, and scanners.
    A radio frequency detector identifies devices which transmit RF 
signals within the operating parameters of the detector. RF 
transmitters used by law enforcement agencies for surveillance purposes 
convey audio, video, and data from one location to another. RF 
detectors are commonly used by legitimate industry technicians to 
locate frequencies, identify unwanted signals, and interference which 
contribute to degradation of RF signals. These devices are also used 
for more nefarious purposes by criminals for the purpose of identifying 
electronic surveillance by law enforcement. RF detectors, from basic 
inexpensive types to expensive sophisticated models, are widely 
available through Internet vendors as well as stores commonly referred 
to as ``spy shops.''
    A frequency counter is a device that determines the frequency 
emitting from a transmitter. The are two basic types of frequency 
counters, one that will determine the exact frequency of analog 
transmissions, and one that will determine the exact frequency of 
either analog or digital transmissions. A scanner is used to identify 
radio emissions in a given area.
    RF detectors, frequency counters, and scanners are used in concert 
to complete an effective, electronic ``sweep'' of an area for RF 
signals. Criminal organizations are known to retain highly paid private 
detective firms or other vendors specializing in providing electronic 
``sweeps'' of homes, offices, vehicles, or other conveyances and 
locations to identify electronic surveillance devices.
    Question. What is DEA doing to overcome these obstacles?
    Answer. DEA employs a cadre of Engineers and Telecommunications 
Specialist to develop, test, and implement technical intercept/
surveillance solutions. The equipment that is utilized to develop these 
solutions is very complex and very costly. The skill set these 
employees possess is very unique and requires a great deal of training 
in order to evolve as quickly as technology dictates.
    DEA has also developed minimization software for data intercepts 
that enables law enforcement to view or listen to intercepted 
communications just as a target would view or listen to it. The 
software that is utilized during Internet intercepts is constantly 
being updated to conform to the Internet's constantly changing 
protocols. DEA provides this software to other federal agencies, as 
well as State and local law enforcement agencies.
    The ISPs that DEA routinely works with also advise DEA of new 
technologies prior to their release to the general public. This enables 
DEA to proactively develop solutions which will allow DEA to have 
intercept solutions in place should an investigation require them. This 
provides minimal turnaround time and allows the data to be expedited to 
the field.
    Finally, DEA continues to work with industry, the field, and other 
federal, State and local agencies to research, develop, and employ both 
active and passive surveillance countermeasures.
                              met program
    Question. Administrator Tandy, the Mobile Enforcement Team (MET) 
program has proven to be very successful in assisting State and local 
law enforcement agencies in addressing their communities' drug threats. 
The Budget proposed to eliminate the MET program.
    How will DEA respond to requests for assistance from State and 
local law enforcement without the MET program?
    Answer. MET is not the only DEA program that benefits State and 
local law enforcement. In addition to the MET program, DEA leads over 
200 State and local task forces, including over 1,600 DEA Special 
Agents and over 2,100 State and local task force officers, all of whom 
are dedicated full time to address drug trafficking, including 
trafficking in our local communities.
    Despite the elimination of the MET program, DEA will continue to 
work side-by-side with our State and local law enforcement partners by 
sharing intelligence and providing training to them. DEA assists State 
and local law enforcement in many ways, for example:
  --DEA's EPIC Open Connectivity Project provides web-based access to 
        approximately 1,800 Federal, State, and local partners on an 
        annual basis. Users can query and access law enforcement data 
        maintained by EPIC.
  --In fiscal year 2006, DEA shared $274 million in State and local 
        proceeds with State and local law enforcement, a 25 percent 
        increase over the $219 million shared in fiscal year 2005, 
        including a 40 percent increase in the funds shared with 
        Sheriffs. This level of sharing is expected to continue.
  --In fiscal year 2006, DEA trained over 41,000 S&L officers, 
        including over 1,000 in meth lab clean up and training.
  --By the end of 2008, DEA plans to complete a clandestine laboratory 
        training facility to better train more State and local 
        officers.
                   united states/mexico collaboration
    Question. Administrator Tandy, State and local law enforcement 
officers are the ``end-users'' that deal with the drugs and violence 
proliferated by Mexican drug trafficking organizations. Historically, 
the government of Mexico has not been a strong ally in addressing this 
threat.
    What is your assessment on America's current working relationship 
with the Mexican government on combating drug trafficking 
organizations?
    Answer. Under the Calderon Administration, our relationship with 
Mexico has experienced unprecedented levels of cooperation and 
solidarity in combating drug trafficking organizations. Specifically, 
DEA is working hard with the Government of Mexico to target the 
criminal organizations involved in the diversion of precursor chemicals 
and the producing and trafficking of methamphetamine. Relations between 
Mexican authorities and DEA are at an all time high in terms of 
chemical control. Mexico has imposed import quotas tied to estimates of 
national needs. The Mexican Government limited pseudoephedrine, 
ephedrine, and combination product importation permits to 70 tons 
during 2006; this is a reduction of 53 percent from the 2005 level of 
imports (150 tons). This quota has made it more difficult for 
traffickers to obtain precursor chemicals. Prices have increased and 
traffickers have been forced to resort to traditional diversion 
methods, including smuggling and the use of third countries to procure 
their chemicals. In addition, intelligence indicates that traffickers 
have also turned to alternate production methods for methamphetamine 
and the apparent use of substitute chemicals as the traditional 
precursors are becoming more difficult to obtain. Mexico has discussed 
revising their quota downward even further in 2007.
    In May 2006, at the National Methamphetamine and Chemicals 
Initiative (NMCI) Strategy Conference in Dallas, Attorney General 
Gonzales announced important new anti-methamphetamine domestic 
initiatives, as well as new partnerships between the United States and 
Mexico in fighting methamphetamine trafficking. These initiatives will 
improve enforcement and information sharing, increase law enforcement 
training, and increase public awareness both domestically and 
internationally. Since this announcement, methamphetamine enforcement 
teams have been formed on both sides of the border and DEA has donated 
8 refurbished clan lab trucks to Mexico. Additionally, DEA and DOS/INL 
trained over 2,000 Mexican officials in 2006 on a variety of 
investigative, enforcement, and regulatory methods related to 
methamphetamine trafficking and manufacturing. This training included 
instruction on clandestine laboratory investigations, precursor 
chemical investigation, and drug identification.
    DEA has also expanded the role of its Clan Lab Enforcement Teams to 
target Mexican methamphetamine trafficking organizations. These teams 
are using their lab expertise to trace chemicals, finished 
methamphetamine, and drug proceeds to drug trafficking organizations in 
the United States and Mexico. These teams are also working to identify 
and dismantle U.S.-based methamphetamine transportation and 
distribution cells.
    The United States also enjoys an excellent extradition relationship 
with Mexico, which has served both countries well in the administration 
of justice. In 2006, for the fifth consecutive year, Mexican 
authorities extradited a record number of fugitives to the United 
States. In 2006, there were 60 extraditions from Mexico to the United 
States. Twenty-six of these extraditions were for drug charges, 
including 24 Mexican nationals. In 2005, Mexico extradited 41 fugitives 
to the United States--up from 34 in 2004.
    The new administration of President Calderon has taken a strong, 
proactive stance against drug traffickers and the associated violence. 
On January 19, 2007, Mexico extradited 15 offenders to the United 
States, a significant number of which have U.S. narcotics trafficking 
and related charges. Notably, the leader of the Gulf Cartel, Osiel 
Cardenas-Guillen, two high-level members of the Tijuana Cartel, two 
mid-level members of the Juarez Cartel, and three high-level and two 
mid-level members of the Federation were extradited.
    DEA works closely with its Sensitive Investigative Unit (SIU) in 
Mexico. As of December 31, 2006, the Mexican SIU consists of nearly 300 
Federal Investigations Agency, Federal Preventive Police, and SIEDO 
(federal prosecutors). Furthermore, during 2006, under DEA direction, 
2,161 agents of the AFI and the Policia Federal Preventiva and other 
Mexican personnel were trained by DEA and State Department funded 
contractors on clandestine laboratories, officer/first responder 
safety, and chemical identification. DEA also provided training to both 
Mexican prosecutors and law enforcement as part of a month-long course 
at the DEA Training Academy in Quantico, Virginia.
    The Bilateral Intercept Program is an unparalleled initiative 
between DEA and the Government of Mexico which has developed a 
comprehensive wire intercept program by utilizing the SOD methodology 
of simultaneously targeting international drug trafficking 
organizations throughout the United States and Mexico. Early successes 
have indicated cooperation between DEA and Government of Mexico will 
only continue to expand coordinated law enforcement efforts.
    Operations All Inclusive 2005-1 and 2006-1 is another example of 
DEA and Government of Mexico cooperation. These operations ran from 
August 5, 2005 through October 8, 2005, and March 4, 2006 through April 
26, 2006, respectively, and targeted South American source regions, 
Eastern Pacific and Western Caribbean vectors of the Mexico/Central 
America transit zones, and the Mexico and Central America land mass, by 
attacking the drug trade's main arteries and support infrastructure 
with innovative, multi-faceted, and intelligence-driven operations. 
Both operations exploited the maritime, overland, commercial air, and 
private air smuggling vulnerabilities in the movement of drugs, money, 
and chemicals. DEA and other federal, State, and host nation law 
enforcement and military agencies supported both operational and 
intelligence aspects of these operations.
    Operation All Inclusive 2005-1 seizure highlights in Mexico include 
21.05 metric tons of marijuana, 108 kilograms of cocaine, 35.2 
kilograms of heroin, and nearly 1 million tablets of pseudoephedrine. 
Of particular importance were two currency seizures at the Mexico City 
Airport totaling $8.7 million. One seizure totaling $7.8 million, which 
was eventually linked to members of the Mexican ``Federation,'' is the 
largest currency seizure to date at the Mexico City International 
Airport. During this operation, over 46 metric tons of cocaine were 
interdicted and seized before they could reach Mexico, where the drugs 
are normally broken down into smaller quantities for transshipment 
north and to make them more difficult to interdict. Additionally, 3.5 
metric tons of cocaine seized from the fishing vessel Vega in the 
Eastern Pacific Ocean on August 15, 2005, was linked to Colombian PTO 
Herman Vasquez-Sanchez and an alleged Mexico City-based recipient who 
were identified through wire intercepts. Operation All Inclusive 2006-1 
highlights included the arrest of three pilots and the seizure of a DC-
9 and Dassault Falcon Jet aircraft and 5.6 tons of cocaine at the 
Ciudad de Carmen Airport, Campeche, Mexico. Also, nearly 17 metric tons 
of marijuana and 10.4 kilograms of heroin were seized. Thirty-eight 
metric tons of cocaine were interdicted and seized before they could 
reach Mexico.
    Question. What does the future hold for increasing DEA-Mexican 
cooperation?
    Answer. In addition to enforcement assistance and the development 
of new enforcement strategies, DEA will continue to offer training to 
the Government of Mexico. In fiscal year 2006, under DEA direction, 
over 2,000 agents of the AFI and the Policia Federal Preventiva and 
other Mexican personnel were trained by DEA and State Department funded 
contractors on clandestine laboratories, officer/first responder 
safety, and chemical identification.
    DEA will also continue to work with the Government of Mexico to 
obtain the extradition of high value targets such as occurred on 
January 19, 2007; when Osiel Cardenas Guillen, a CPOT and the leader of 
the notorious Gulf Cartel which is headquartered in Matamoros, Mexico; 
who was responsible for much of the ``narco-violence'' on the Southwest 
Border was turned over to the DEA by the Government of Mexico to face 
drug charges in U.S. Federal Court.
    DEA will also continue working with the Government of Mexico on 
future iterations of Operation All Inclusive. Recognizing that the 
United States cannot control its borders by merely enforcing the 
immediate border, DEA's International Drug Flow Attack Strategy 
incorporates a ``defense in depth'' component by attacking the source 
and transit zone. This model has successfully been applied 
internationally in two deployments and is in the beginning stages of a 
third operation (Operation All Inclusive 2007-1). A fourth iteration 
focuses on the Southwest Border and is called Operation Doble Via. 
Operation Doble Via is a combination of staggered and simultaneous 
U.S./Mexico enforcement operations combined with intelligence driven 
enforcement operations designed to influence illicit trafficking 
patterns and increase disruptions to violent DTOs.
    Operation All Inclusive was developed to attack an entire region in 
hopes of not simply displacing cartels but eliminating them. Operation 
All Inclusive causes major disruption to the flow of drugs, money, and 
chemicals between the source zones and the United States. To 
effectively combat drug trafficking in Central America, Mexico, and the 
transit zone, the United States must maintain a sustained, multi-agency 
approach. The DEA focuses on improving the region's counter drug 
capabilities through developing personal liaisons with host nation law 
enforcement authorities, institution building with host nation 
governments, and by attacking the command and control structures of 
major drug trafficking organizations.
                               marijuana
    Question. Administrator Tandy, marijuana abuse is one the most 
significant drug challenges currently faced by law enforcement 
agencies. The majority of domestically cultivated marijuana is being 
grown on public lands in our national parks and forests. These 
marijuana plots are being aggressively defended by armed Mexican drug 
cartels, making our national treasures unsafe for public use.
    Do you agree with this assessment?
    Answer. The Department of Agriculture, Forest Service (USDA, FS) 
and agencies of the Department of the Interior (DOI) continue to detect 
significant increases in marijuana cultivation on federal public lands 
nationwide. These findings correspond to reports of expanded domestic 
cannabis cultivation and marijuana production. Domestic cannabis 
eradication data for 2005 shows the highest level of cannabis 
eradication ever recorded. In 2005, 4.2 million plants were seized 
compared to 3.7 million in 2003, the next highest level in the years 
2000-2005.\7\
---------------------------------------------------------------------------
    \7\ National Drug Threat Assessment 2007. National Drug 
Intelligence Center, U.S. Department of Justice, October 2006.
---------------------------------------------------------------------------
    The cultivation of marijuana on public lands is dominated by 
loosely organized, poly-drug Mexican drug trafficking organizations 
(DTOs) employing illegal Mexican aliens for the production and 
distribution of marijuana and methamphetamine nationwide. The violence 
and environmental risks associated with this cultivation is growing, 
therefore DEA is striving to halt the spread of marijuana cultivation 
in the United States by focusing various federal, State, and local law 
enforcement efforts towards identifying and dismantling the DTOs 
directing and controlling this activity.
    Question. What is DEA's strategy to address this growing threat?
    Answer. To address this threat, DEA has initiated a public land 
working group comprised of affected federal land management agencies. 
DEA is examining how best to leverage the available resources of our 
federal partners through better sharing of intelligence and targeting 
of these DTOs. Critical to this strategy will be the collection and 
sharing of intelligence concerning the communications devices and 
techniques used by those growing marijuana on our public lands. Federal 
land management agencies have confirmed their commitment to sharing 
intelligence with DEA. With the intelligence gathered, DEA will 
identify and attack the Mexican organizations that direct and control 
the cultivation and distribution.
    Marijuana cultivation on public lands presents a number of 
enforcement challenges, including the need for air support and large 
numbers of law enforcement personnel to safely and successfully 
accomplish eradication missions. DEA has the mechanisms in place 
through the Special Operation Division, the Fusion Center, and the El 
Paso Intelligence Center to add value to intelligence from marijuana 
enforcement operations on public lands and to coordinate and expand 
investigations beyond simple plant eradication to attacking the 
controlling DTOs. DEA has offered this established strategy and 
available resources to the FS and DOI, as well as additional training 
and access to intelligence information.
    DEA is also working with the Park Service and Forest Service to 
cross-designate selected Park Service and Forest Service law 
enforcement officers to work on specific cases with DEA, or to serve on 
DEA task forces. Unilateral Title 21 investigations by the DOI or the 
Forest Service would lack the coordination necessary to ensure the 
safety of law enforcement personnel, and would not permit de-
confliction with other domestic and foreign investigations.
    In addition to enforcement efforts, DEA's Domestic Cannabis 
Eradication/Suppression Program (DCE-SP) works with our participating 
State and local partners to target marijuana wherever it is produced 
throughout the United States and its territories, on both public and 
private lands. The DCE/SP is an enforcement activity which provides 
funding, operational support, and training to participating State and 
local agencies. The program strives to halt the spread of marijuana 
cultivation throughout the United States and is responsible for the 
investigation and eradication of both indoor and outdoor cultivation of 
the illicit crop.
                                 ______
                                 
             Question Submitted by Senator Pete V. Domenici
                            dea nm resources
    Question. I believe that the DEA plays a critical role in law 
enforcement activities in New Mexico. State and local law enforcement 
agencies reap vast benefits while working alongside these federal 
agents. I am concerned that the smaller communities in my home state 
may not be able to take advantage of these federal partnerships. This 
is especially problematic because community population is neither a 
variable nor a predictor of drug use.
    Can you please explain what type of interaction DEA agents have 
with smaller communities and what we might be able to do to ensure that 
all our communities benefit by working with federal law enforcement 
agents?
    Answer. As with all federal agencies, the DEA concentrates the bulk 
of its offices and agents in the highest population areas in an attempt 
to maximize our efforts and effectiveness. DEA has limited manpower and 
resources, as do all other law enforcement agencies throughout the 
United States. DEA has found that the most effective method to increase 
productivity, improve our responsiveness to State and local agencies, 
and ensure that all communities benefit from a federal law enforcement 
presence is through the employment of multi-agency task forces. The 
task force concept provides several advantages to all participating 
agencies: DEA is able to draw on the expertise of State of local law 
enforcement; DEA can share resources with State and local officers, 
thereby increasing the investigative possibilities available to all; 
State and local officers can be deputized as federal drug agents, thus 
extending their jurisdiction; State and local participating agencies 
can receive an equitable share of forfeited drug proceeds; and DEA can 
pay overtime and investigative expenses for the State and local 
agencies.
    In New Mexico, DEA has two offices located in Albuquerque and Las 
Cruces. The Albuquerque District Offices (DO) is staffed with 33 
Special Agents (including four supervisory Special Agents). The Las 
Cruces Resident Office (RO) is staffed with 17 Special Agents 
(including three supervisory Special Agents). The Albuquerque DO and 
the Las Cruces RO each support two federally funded multi-agency task 
forces. The addition of ten task force officers in Albuquerque and nine 
task force officers in Las Cruces provides DEA with a more than 35 
percent increase in agent strength, which is subsequently leveraged to 
cover a vast area of responsibility. The addition of task force 
officers also prompts parent agencies to regularly interact with DEA. 
This representation of local community concerns also often promotes the 
presentation of cases for extended federal investigation and 
prosecution.
    Additionally, the State of New Mexico is currently divided into 
seven Bureau of Justice Assistance regions. Throughout New Mexico, 
State and local law enforcement agencies are provided with federal 
funds to organize and implement multi-agency task forces within each 
respective region. Again, the task forces permit State and local law 
enforcement agencies--within a specific geographic area--to pool 
resources and information that consequently maximize effort and 
effectiveness. DEA Special Agents are designated by management to 
interact with each regional task force. This practice encourages 
smaller and more isolated local agencies to interact more meaningfully 
with DEA.
    Task forces, by their very nature, are designed to facilitate the 
exchange of information at the federal, State and local levels. This 
information exchange allows for the development, coordination, and 
prosecution of targeted members and their criminal organizations. In 
order to avoid duplicative efforts, agents and task force officers 
routinely rely on the free exchange of information between our State 
and local counterparts, coupled with DEA information systems, such as 
NADDIS, to identify potential conflicts between competing 
jurisdictions. Moreover, current DEA policy mandates that communication 
devices suspected to be used by targets in DEA investigations be 
checked against DARTS prior to any enforcement operation.
    The task force concept has proven to be very successful. In fiscal 
year 2006, the New Mexico DEA offices conducted investigations from 
Raton to Las Cruces and Gallup to Portales, as well as in nearly every 
modestly populated area within proximity. The two DEA offices in New 
Mexico initiated 468 cases, effected 659 arrests, and seized over 
70,000 pounds of marijuana, 1,898 pounds of cocaine, 159 pounds of 
methamphetamine, 16 pounds of heroin, and over 4.5 million in drug 
trafficker currency and assets.
                                 ______
                                 
               Question Submitted by Senator Ted Stevens
                            methamphetamine
    Question. What is DEA doing about methamphetamine in Alaska?
    Answer. DEA's Anchorage District Office (DO) prioritizes its assets 
by targeting the highest level drug trafficking organizations (DTOs) 
which can be identified in the state of Alaska. Recognizing the 
devastation caused by methamphetamine, the Anchorage DO puts forth 
considerable effort to combat the methamphetamine problem through a 
coordinated strategy that includes a comprehensive interdiction effort, 
conducting complex investigations into organizations responsible for 
trafficking drugs into Alaska, targeting clandestine methamphetamine 
laboratories, conducting methamphetamine training and certification to 
State and local counterparts, funding and coordinating all hazardous 
waste clean-ups of clandestine methamphetamine laboratories, as well as 
keeping up a strong demand reduction program that educates youth, bush 
villages, and civic groups.
    The Anchorage DO is part of the Seattle Field Division (FD). 
Historically, Anchorage was a Resident Office (RO) with one GS-14 
supervisor and 6 Special Agents (SA), for a total of 7 SA positions. 
However, in March 2002, DEA upgraded the Anchorage RO to a DO through 
the addition of a second GS-14 supervisor and a GS-15 Assistant Special 
Agent in Charge (ASAC), for a total of 9 SA positions. Additionally, in 
September 1999, DEA opened a Post of Duty in Fairbanks, Alaska. This 
office has two Special Agent positions.
    Prior to the March 2002 upgrade, the Anchorage office operated a 
Drug Task Force with 5 Task Force Officers (TFOs). The Anchorage DO now 
has 7 TFOs. Furthermore, at any given time 10-15 additional State and 
local officers are deputized (on a case specific basis) to assist in 
major investigations. As of May 2007, 12 State and local officers are 
deputized. The Anchorage DO is co-located with the Anchorage Police 
Department (APD) Metro Narcotics Unit and the Alaska State Troopers 
(AST) Major Offenders Unit (MOU).
    DEA intelligence indicates that, in accordance with national 
trends, most of the methamphetamine found in communities throughout 
Alaska originates from the Southwest Border of the United States. DTOs 
following trafficking routes through cities such as Las Vegas, NV, 
Tucson, AZ, and Seattle, WA, where the meth is repackaged and 
distributed through parcel service to Anchorage. Methamphetamine 
wholesale prices in Seattle range from $3,000 to $4,000 per pound 
compared to wholesale prices of $18,000 to $20,000 per pound in 
Anchorage, making Alaska a lucrative destination.
    The Anchorage DO Airport Interdiction Task Force (AITF) covers the 
entire State and is supervised and staffed by DEA Special Agents, as 
well as AST Investigators, Airport Police Officers, and National Guard 
Counterdrug Support Program personnel. It prioritizes resources to stop 
drugs as they come into the state of Alaska through interdiction at all 
parcel sorting facilities (FedEx, UPS, U.S. Postal Service, etc.), the 
Port of Anchorage, and the Anchorage International Airport. The AIFT 
has supported several operations in Southeastern Alaska to include a 
joint operation with the Southeastern Alaska-Narcotics Enforcement Team 
and the U.S. Postal Service targeting the parcel shipping facilities in 
Juneau and Ketchikan. Additionally, the AITF targets outgoing flights 
to the bush in an attempt to interdict drugs before they arrive in the 
villages. The Anchorage DO coordinates these efforts very closely with 
State and local counterparts including the AST and the U.S. Postal 
Service.
    In late 2006, the AITF initiated Operation Dip Net in order to 
better coordinate the interdiction efforts of law enforcement agencies, 
and to target those facilities/routes of smuggling that result in the 
seizure of significant contraband. The identified trends allow 
management to better direct law enforcement efforts by physically 
placing interdiction officers in the prevailing illicit drug supply 
route. Since the inception of Operation Dip Net, 14 pounds of 
methamphetamine, over 32 kilograms of cocaine, a half pound of crack 
cocaine, nearly 10,000 Ecstasy tablets, and a bottle of liquid LSD have 
been seized in Alaska. Additionally, approximately $310,000 in U.S. 
currency has been seized, 20 defendants have been arrested, and 23 
firearms recovered or seized as a direct result of the interdiction 
efforts. Operation Dip Net has also put ``look outs'' on particular 
locations with cargo companies.
    Due to its highly lucrative nature, methamphetamine can make its 
way into distribution cells that distribute retail amounts to local 
gangs who further distribute to the user population. To date, there is 
no evidence of methamphetamine making its way into Samoan gang 
distribution cells from sources originating in Samoa. The Anchorage DO 
did seize and subsequently conducted a controlled delivery of four 
ounces of methamphetamine to an individual of Samoan decent, however 
the methamphetamine had been sent to Alaska from Las Vegas.
                                 ______
                                 
                  Questions Submitted to John F. Clark
            Questions Submitted by Senator Richard C. Shelby
                         gulf coast task force
    Question. Director Clark, for fiscal year 2006, the United States 
Marshals Service (USMS) was authorized by Congress to establish a 
Regional Fugitive Task Force in Alabama and Mississippi. Just last 
week, this Task Force arrested Gerald Campbell who was previously 
convicted and sentenced to life in prison for murdering his wife but 
escaped in 1978 from the Alabama Department of Corrections. The Gulf 
Coast Task Force tracked Campbell down and arrested him after 23 years 
on the run.
    Mr. Director what is the status of this task force, and can you 
tell us about some of the other good work they have accomplished?
    Answer. The Gulf Coast Regional Fugitive Task Force (GCRFTF) began 
operations on July 1, 2006. It is the sixth RFTF within the USMS. The 
GCRFTF expects to be fully operational by the end of fiscal year 2007. 
There are five office locations in Alabama: Birmingham, Huntsville, 
Montgomery, Mobile, and in the future, Dothan. The Birmingham office 
serves as task force headquarters and includes a training center 
similar to other RFTFs. There are three office locations in 
Mississippi: Oxford, Jackson, and Gulfport.
    Supporting the GCRFTF are USMS Technical Operations Group (TOG) 
facilities and personnel in Birmingham, Montgomery, and Jackson. There 
are 32 USMS positions authorized and all of these positions have been 
filled. In addition, 100 investigators from 30 law enforcement agencies 
are working in conjunction with the GCRFTF.
    Since its inception, the GCRFTF has made a tremendous impact on the 
region. Below are the statistics from July 2006 to April 2007:

------------------------------------------------------------------------
                                                                Number
------------------------------------------------------------------------
Felony Fugitives Arrested..................................        1,700
Warrants Cleared...........................................        2,246
Arrested Individuals Wanted for Homicide...................          100
Arrested Individuals Wanted for Sex Offenses...............          471
Arrested Individuals Who Were Not in Compliance with Sex             187
 Offender Registry Requirements............................
Firearms Seized............................................           84
------------------------------------------------------------------------

    In addition to arresting Gerald Raye Campbell, a convicted murderer 
who was wanted for escape from the Alabama Department of Corrections 
after 23 years on the run, the GCRFTF has made several significant 
arrests. Below are two additional notable arrests during the month of 
April 2007:
    On April 4, 2007, Jerone Bussey was arrested in Athens, Alabama, by 
members of the GCRFTF and officers from the Athens Police Department 
(APD). Authorities in Indianapolis, Indiana, wanted Bussey for murder 
after he allegedly shot and killed two people with an AK-47 assault 
rifle. One of Bussey's alleged victims was seven and one-half months 
pregnant at the time of the shooting. USMS investigators in the 
Southern District of Indiana developed information indicating that 
Bussey fled to the Athens area. The GCRFTF responded by identifying 
Bussey's probable location in Athens, and established surveillance. The 
GCRFTF, with assistance from marked APD units, conducted a felony stop 
on Bussey's vehicle and took him into custody without incident.
    On April 11, 2007, Kent Steward, a registered sex offender, was 
arrested in Ozark, Alabama, by members of the GCRFTF and officers from 
the Ozark Police Department. Authorities in Ozark wanted Stewart for 
kidnapping and rape of a minor after he allegedly abducted and sexually 
assaulted a ten year old girl. After authorities identified Stewart as 
a suspect, GCRFTF established covert surveillance outside his probable 
location. When investigators later observed a male subject matching 
Stewart's description, they moved in and safely took Stewart into 
custody. Stewart has a previous conviction for rape. If convicted, 
Stewart faces life imprisonment with no possibility of parole.
    Question. The Alabama Mississippi Task Force is the 6th such force 
created by the USMS. Does the agency have a plan to expand this concept 
into other regions of the country?
    Answer. USMS Regional Fugitive Task Forces (RFTFs) consisting of 
``Federal, State and local law enforcement authorities in designated 
regions of the United States'' were established by the Presidential 
Threat Protection Act of 2000 (Public Law 106-554) to locate and 
apprehend fugitives. RFTFs supplement the 85 district-managed, multi-
agency task forces already operating throughout the country. To date, 
six RFTFs are in operation and USMS is exploring areas of the country 
where RFTFs would have the greatest impact based on the warrant 
workload, but there are no immediate plans for additional RFTFs. The 
city in parenthesis indicates where the task force headquarters office 
is located:
  --Capital Area Region (Washington, DC)--in operation.
  --Great Lakes Region (Chicago, IL)--in operation.
  --Gulf Coast Region (Birmingham, AL)--in operation.
  --New York/New Jersey Region (New York, NY)--in operation.
  --Pacific Southwest Region (Los Angeles, CA)--in operation.
  --Southeast Region (Atlanta, GA)--in operation.
    Question. What types of fugitives do these task forces investigate?
    Answer. RFTFs target the ``worst of the worst'' fugitives who have 
a history of violence. They include murderers, gang members, drug 
traffickers, and violent sex offenders. The USMS approach in assisting 
state and local agencies with their fugitive warrants has been twofold. 
First, the USMS reviews all fugitive warrants to determine their 
ability to be executed. During the review process, many warrants are 
determined to be unserviceable because of the age of the warrant, 
witnesses have disappeared, police officers or agents have retired, 
evidence is missing, or the prosecuting attorney dismisses the warrant 
upon review. Second, the USMS prioritizes based on the severity of the 
charge. Once a warrant is pursued by an RFTF, all resources are brought 
to bear to locate and apprehend the fugitive.
                               adam walsh
    Question. The National Center for Missing and Exploited Children 
(NCMEC) estimates that there are approximately 600,000 sex offenders in 
the United States that are required to register. As many as 100,000 are 
not in compliance with their registry requirements.
    How does the passage of the Adam Walsh Act affect the USMS?
    Answer. The Adam Walsh Child Protection and Safety Act of 2006 
directs the Attorney General to use the resources of federal law 
enforcement, including the United States Marshals Service (USMS), to 
assist jurisdictions in locating and apprehending sex offenders who 
violate registration requirements. It further provides that sex 
offenders who violate registration requirements are deemed to be 
fugitives for purposes of the Marshals Service's fugitive investigation 
functions, and it provides federal penalties for sex offenders who 
violate registration requirements under circumstances supporting 
federal jurisdiction (such as interstate travel). See  142 of the Adam 
Walsh Act and 18 U.S.C. 2250. The reforms of the Sex Offender 
Registration and Notification Act--i.e., title I of the Adam Walsh 
Act--generally strengthen the minimum national standards for the sex 
offender registration and notification programs of the states and other 
covered jurisdictions, and the national database and website system 
which make sex offender information obtained under the individual 
jurisdictions' programs more widely available to law enforcement and 
the public. See generally 72 FR 30209 to 30234 (May 30, 2007) (proposed 
National Guidelines for Sex Offender Registration and Notification 
issued by the Attorney General). The Adam Walsh Act reforms increase 
the capacity of responsible officials at all levels of government to 
track sex offenders effectively following their release into the 
community through enhanced registration standards and requirements, and 
the USMS serves as the lead federal law enforcement agency in 
investigating violations of these requirements and helping to locate 
and apprehend non-compliant sex offenders.
    Question. How long would it take the Service to fully enforce this 
law, and what kind of resources would be required?
    Answer. It will take several years to fully enforce this law 
because the existing network of sex offender registries must first be 
improved and the Sex Offender Registration and Notification Act (SORNA) 
must be implemented by all jurisdictions. Most, but not all, states 
have some form of registry already in place, however, these registries 
are not well integrated with each other or with the National Sex 
Offender Registry. In the interim, the USMS has begun a two-part 
approach: enforcement and compliance.
    With regard to enforcement, the USMS has established the Sex 
Offender Investigations Unit at headquarters. A full-time liaison has 
been stationed at the National Center for Missing and Exploited 
Children (NCMEC). The USMS is working with NCMEC to develop and 
establish the ``National Sex Offender Targeting Center'' which will:
  --Identify and prioritize targets by using analytical tools;
  --Aid the USMS and other agencies with investigative leads;
  --Provide a valuable data source for state and local agencies;
  --Operate a national tip line and web site;
  --Provide analytical support to law enforcement;
  --Serve as a national point of contact for sex offender registration 
        issues; and
  --Provide a source to share other criminal leads.
    Designated Sex Offender Investigations Coordinators have been 
identified in all 94 USMS district offices and within the Regional 
Fugitive Task Forces. The first 50 coordinators have already been 
trained and an additional 150 personnel will be trained by the end of 
fiscal year 2007. The USMS is currently establishing contacts with 
state, local, tribal, and territorial sex offender registries. At the 
same time, the USMS is coordinating efforts with the Department of 
Homeland Security's ``Operation Predator'' to ensure that illegal alien 
sex offenders are referred to the Bureau of Immigration and Customs 
Enforcement for removal.
    With regard to compliance, the USMS is planning a media campaign to 
educate sex offenders about their registration requirements and the 
enhanced penalties for non-compliance, in an effort to encourage them 
to register or update their registrations.
    Question. How many additional positions are being created in the 
USMS to help you track down non-compliant sex offenders?
    Answer. The USMS has designated three positions from existing 
resources to establish the Sex Offender Investigations Unit at 
headquarters, which includes the full-time liaison at NCMEC. Until 
additional resources are provided, the USMS will rely on the six 
existing Regional Fugitive Task Forces and 85 district-managed task 
forces to aggressively pursue unregistered sex offenders and offenders 
against children. The USMS is committed to enforcing the Adam Walsh Act 
in addition to pursuing fugitives wanted for violent federal and state 
crimes.
    The fiscal year 2008 President's budget includes a request for 54 
positions (including 43 Deputy Marshals), 27 FTE, and $7,845,000 to 
begin deploying Deputy Marshals to areas of the country that have large 
numbers of non-compliant sex offenders.
                      marshals d.c. superior court
    Question. This Committee is concerned about the health, safety and 
security of the U.S. Marshal Service employees at the D.C. Superior 
Court. The cellblock and workspace there are below any acceptable 
standards and are in desperate need of renovation.
    Are you working with the D.C. Courts to fix the U.S. Marshals 
Service occupied space at the D.C. Superior Court?
    Answer. Yes, the Marshals Service is working with the D.C. Courts 
Executive Office on a memorandum of agreement (MOA) to delineate the 
responsibilities for repairing and maintaining the space provided to 
the USMS in the Moultrie Courthouse. The space provided to the USMS by 
the D.C. Courts belongs to the D.C. Government. The MOA between the 
USMS and the D.C. Courts will identify responsibilities much in the 
same way that tenant/landlord agreements are established.
    Question. Does the $10 million that the Senate provided in the 
fiscal year 2007 supplemental appropriations bill help begin to 
alleviate the Superior Court situation?
    Answer. The $10 million would provide a short-term remedial 
solution until the Executive Office of the D.C. Courts obligates the 
resources to make long-term renovation to improve the cellblock 
physical infrastructure and USMS office space. Health, safety, and 
security improvements in the cellblock and prisoner receiving areas 
would have a positive multi-agency impact as this environment is 
utilized by the USMS, Metropolitan Police Department, Department of 
Corrections, and numerous law enforcement officers who transfer 
prisoners to and from USMS custody.
    Question. Do you give this subcommittee your commitment to ensure 
that the USMS employees at Superior Court are taken care of?
    Answer. Yes, the Marshals Service will take the necessary steps to 
ensure the health, safety and security of USMS employees at Superior 
Court. The majority of administrative personnel, warrant squad, writ 
squad, and prisoner coordination section have been relocated to another 
building because adequate space was not available in the Moultrie 
Courthouse. Remaining USMS personnel who manage court support and 
cellblock operations continue to work out of the Moultrie Courthouse 
and the USMS continues to request additional space from the Executive 
Office of the D.C. Courts to ensure that USMS court operations has 
adequate and safe office space. Until additional space is obtained, the 
USMS will ensure that personal protective equipment and gear are 
supplied so that USMS personnel can operate safely.
    Question. Does this workspace meet any Federal standard for health, 
safety or security?
    Answer. The Marshals Service surveyed the Moultrie Courthouse and 
it does not meet GSA, OSHA (Occupational Safety and Health 
Administration), and USMS standards for security, safety and health. 
The USMS identified the following as problem areas: vehicle prisoner 
loading--sallyport, main detention area--cellblock, main detention 
area-fixtures and construction, detention area-processing room, main 
cellblock-interview rooms (prisoner) side, detention facilities, 
prisoner circulation from cellblock to court floors, courtroom holding 
facilities and circulation, support and special purpose space. The USMS 
is committed to working with the Executive Office of the D.C. Courts to 
ensure that all security, safety, or health issues are addressed in a 
manner that is mutually beneficial.
                           homeland build up
    Question. The Department of Homeland Security (DHS) is in the 
process of hiring up to 2,000 new border agents.
    How does this escalation in DHS personnel correspond to the 
Marshals' responsibilities to produce prisoners for trial and provide 
courtroom protection?
    Answer. As DHS increases the number of border patrol agents along 
the Southwest Border and in other areas of the country, arrests will 
increase which will in turn increase the number of detainees in USMS 
custody. The USMS average daily prisoner population continues to 
increase, particularly in the five districts that comprise the 
Southwest Border:

------------------------------------------------------------------------
                                               Fiscal year--
                                  --------------------------------------
                                       2004         2005         2006
------------------------------------------------------------------------
Ave Daily Prisoner Population--         49,400       53,000       56,000
 Total...........................
Ave Daily Prisoner Population--         16,600       17,500       18,700
 SWB Only........................
------------------------------------------------------------------------

    For example, the Del Rio suboffice in the Western District of Texas 
has an average daily prisoner population of over 2,600. In comparison, 
the District of Maryland has just over 450 per day. The three judicial 
districts in Alabama combine for just over 600 per day.
    Question. How does this hiring at DHS affect the USMS budget?
    Answer. As DHS increases its hiring, the impact on the USMS budget 
is felt approximately 18 months later. It takes about 18 months for DHS 
to recruit, train, and fill its new positions. Once on board, new 
border patrol agents begin making arrests which drives up USMS 
workload.
    Question. How will this affect court operations?
    Answer. The immediate impact to court operations is that the USMS 
must produce prisoners before magistrate judges for all criminal court 
proceedings. Even if these defendants do not reach trial, the USMS is 
required to produce them for all attorney interviews, medical trips, 
and court-related appearances. This is an enormous strain on USMS 
resources because Deputy Marshals must ensure the safety of all judges, 
attorneys, witnesses, and the public at all court hearings.
                                 gangs
    Question. The increase in gang-related trials around the nation 
creates security concerns, not only for members of the judiciary, but 
also for witnesses and trial observers. Recent examples include the MS-
13 trials in the D.C. area and the Aryan Brotherhood trials in 
California.
    How is the Marshals Service tracking violent gangs?
    Answer. The USMS uses the combined resources of its six Regional 
Fugitive Task Forces and 85 district-managed task forces to investigate 
and apprehend violent fugitives which include violent gang members. 
Investigative information gleaned from these fugitive cases is 
maintained in an automated fashion and is accessible by USMS judicial 
security inspectors who are responsible for the operational planning of 
high-threat trials. Many of these trials involve violent gangs, 
including prison gangs. This information is also used to separate 
detainees within the cellblock and on any JPATS air transportation 
movements to ensure the safety of Deputy Marshals and other prisoners.
    Question. What more could you do if you had additional resources?
    Answer. The 2008 President's budget includes a request for 17 
additional positions, including 15 Deputy U.S. Marshals, and $5.1 
million for high threat trial security. This request will provide surge 
capacity that can be deployed to high threat trials throughout the 
country. If fulfilled, USMS will have the flexibility to deploy 
additional personnel or security resources for trials related to gangs, 
terrorism, or any other purpose requiring additional security.
      former marshal's daughter heroic efforts in campus shooting
    Question. Director Clark, I understand that a former Marshal's 
daughter was wounded in the shootings on the Virginia Tech campus 
Monday morning. Her heroic efforts saved the lives of her classmates.
    Would you tell us about Jim Carney and his daughter Katie's story?
    Answer. On April 16, 2007, Katelyn Carney, the daughter of retired 
Deputy U.S. Marshal Jim Carney, was shot in the left hand and a second 
bullet grazed her head during the shooting rampage at Virginia Tech 
University. Ms. Carney and three other students blocked the doorway to 
their classroom to prevent the gunman from returning. Ms. Carney is 
expected to make a full recovery.

                          SUBCOMMITTEE RECESS

    Senator Mikulski. Yes. This subcommittee stands in recess 
until next Thursday, April 26, at which time we will take the 
Federal Bureau of Investigation. It will be followed the 
following week by the EEOC and then we will come back to the 
Justice Department.
    [Whereupon, at 11:29 a.m., Thursday, April 19, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

</pre></body></html>
